<html>
<title> - LIFE ON THE BORDER: EXAMINING BORDER SECURITY THROUGH THE EYES OF LOCAL RESIDENTS AND LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






LIFE ON THE BORDER: EXAMINING BORDER SECURITY THROUGH THE EYES OF LOCAL 
                     RESIDENTS AND LAW ENFORCEMENT

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2016

                               __________

                           Serial No. 114-67

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-760 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                  John L. Dickhaus, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Martha S. McSally, a Representative in Congress 
  From the State of Arizona, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of Arizona...........................................     5

                               WITNESSES
                                Panel I

Hon. Mark Dannels, Sheriff, Cochise County, Arizona:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Hon. Danny Ortega, Mayor, Douglas, Arizona:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Art Del Cueto, President, Local 2544, National Border Patrol 
  Council:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Panel II

Mr. Daniel G. Bell, President, ZZ Cattle Corporation:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44
Mr. Mark Stephen Adams, Coordinator, Frontera De Cristo:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48
Mr. Jaime Chamberlain, President, JC Distributing Inc.:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56
Mr. Nan Stockholm Walden, Vice President and Legal Counsel, 
  Farmers Investment Co. (FICO):
  Oral Statement.................................................    57
  Prepared Statement.............................................    60
Mr. Frank Krentz, Rancher:
  Oral Statement.................................................    63
  Prepared Statement.............................................    65
 
LIFE ON THE BORDER: EXAMINING BORDER SECURITY THROUGH THE EYES OF LOCAL 
                     RESIDENTS AND LAW ENFORCEMENT

                              ----------                              


                          Monday, May 9, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                     Sahuarita, AZ.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the Council Chambers, Sahuarita Town Hall Building, 375 W. 
Sahuarita Center Way, Sahuarita, Arizona, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representative McSally.
    Also present: Representative Pearce.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, will come to 
order.
    The subcommittee is meeting today to examine border 
security through the perspective of our local law enforcement, 
Border Patrol Agents, and residents.
    Before we proceed any further, as the Chair, I need to make 
just a few important announcements.
    It takes a tremendous amount of work to put a hearing like 
this together. I appreciate the interest shown by the number of 
people who are in attendance today. I also would like to thank 
the town of Sahuarita for letting us use this beautiful 
facility for our hearing.
    I am now going to recognize myself for an opening 
statement.
    A few weeks ago, I convened my first hearing as the 
Chairwoman of the Border and Maritime Security Subcommittee on 
the important topic of border security effectiveness and 
situational awareness. My subcommittee heard, in Washington, 
DC, from Border Patrol and CBP air and maritime leadership on 
the conditions along the border from their vantage point.
    The testimony given by these Government officials 
established further that there seems to be a deep disconnect 
between what some politicians and policymakers in Washington, 
DC say about our current situation to secure the border and 
what I hear on a daily basis back here at home. This is not 
surprising considering many policymakers in the Nation's 
capital have never seen or experienced the situation along our 
border, although we have invited many of them to come visit and 
see it first-hand. But this is something Southern Arizona 
residents live with every single day.
    At my first hearing, Border Patrol officials stated they 
have the ability to interdict and apprehend more than 80 
percent of the illegal traffic on the Southwest Border, which 
sounds like an improvement from the last time they measured 
operational control of the border in 2010, where it stood at 44 
percent.
    But the Border Patrol numbers only take into account what 
they see and fail to include all activity, the denominator. So 
they just have the numerator of what they were able to 
interdict, not the denominator of everything that is out there. 
So it is really an incomplete, if not misleading, figure. It 
does not give an accurate assessment of the current strategy's 
effectiveness.
    At the same hearing, after I pressed them, CBP admitted to 
having only roughly 50 percent situational awareness of the 
border and border activity. That means of the illicit activity 
coming across our Nation's roughly 2,000-mile Southwest Border, 
CBP only knows what is happening with certainty in about half 
of it, and that doesn't mean they can interdict what they see. 
It just means that is what they said they have situational 
awareness of.
    The truth is that the border is not as secure as it needs 
to be. We all know that here in this room and in this 
community. And the Department of Homeland Security for years 
has been trying to sell the American people a false narrative 
that the border is now more secure than ever.
    Local law enforcement, business and community leaders, 
ranchers and residents, those that I represent who have met 
with me and spoken to me on countless occasions, you all have a 
different perspective. You also have a better understanding of 
the very real border security challenges faced by fellow 
citizens because you live and work here and experience the 
ramifications of an unsecure border every day.
    Viewing the border through the eyes of local residents, 
like those before us today, arms policymakers with first-hand 
experiences on what is and isn't working in border security 
efforts. At the end of the day, I want to get down to the 
business of finding thoughtful, common-sense solutions to 
improve border security.
    We are fortunate to have the brave men and women of the 
Border Patrol do all they can with the tools that they are 
provided. However, they are often hampered by outdated, flawed 
strategies or political leadership that doesn't have the 
resolve to let them do what agents do best, secure the border 
and protect our communities and the homeland.
    Rural border security is a challenging task. Agents do a 
difficult job, often alone, in rugged terrain. They are subject 
to a rising number of assaults, which are not frequently 
prosecuted, and on a daily basis put their lives on the line to 
prevent cartels from trafficking drugs, money, people, and 
weapons through our communities.
    Local law enforcement officers are often willing and able 
border security partners, so we need to properly fund and equip 
them through programs like Operation Stonegarden in order to 
assist the Federal Government's efforts. Information sharing, 
joint operations, and collaboration should be the pillars of 
this approach and will help maximize the results for the whole 
community.
    Every day our fellow citizens, including many in attendance 
here today, must endure the hassle of border security 
checkpoints and fear the consequences of illegal activity on 
their properties, or have their businesses harmed by a 
perception of the border that does not totally square with 
reality.
    Legislation I authored that recently passed in the House 
directs the Border Patrol to develop a new strategy that is 
based on a full assessment of the threats along our Southern 
Border, including where we have vulnerabilities, the impact of 
terrain, where we have gaps in situational awareness and 
operational control, and where the drug cartels are beating us.
    Having a frank and honest discussion about what the 
witnesses see and experience on the border, and their proposed 
solutions, will help us ensure our Nation's border security 
efforts protect the citizens who live and work on the border 
every day, as well as secure the Nation.
    We have a very diverse group of witnesses today to provide 
important perspectives on the challenges, complexities, and 
solutions regarding border security. As the saying goes, 
``Where you stand depends upon where you sit,'' and I think in 
this case it maybe is adapted to ``Where you stand depends upon 
where you live and where you work,'' and that I think applies 
for our witnesses here today.
    From reading some of the written statements, or all the 
written statements, of course, we do have some different 
viewpoints that will be expressed today from our witnesses, and 
some disagreements on how to address these issues on a variety 
of different topics. I look forward to a fruitful, spirited, 
but respectful discussion and debate on this issue. I would ask 
that we all consider that we can learn something from each 
other and maybe find some common ground since we all have, I 
think, the desire to keep our country and our communities safe. 
So let's start with that main objective and then figure out how 
we can find common ground to address these important issues.
    I look forward to the testimony of our witnesses today, 
each of whom brings a unique and important perspective. I want 
to especially thank my colleague from New Mexico, Mr. Pearce, a 
fellow Air Force combat pilot as well, by the way. Mr. Pearce 
represents the 2nd Congressional District of New Mexico, which 
borders Arizona's 2nd Congressional District to the east and is 
also home to many miles of the Southwest Border.
    [The statement of Chairwoman McSally follows:]
            Prepared Statement of Chairwoman Martha McSally
                              May 9, 2016
    A few weeks ago, I convened my first hearing as the Chairwoman of 
the Border and Maritime Security Subcommittee on the important topics 
of border security effectiveness and situational awareness.
    My subcommittee heard from Border Patrol and CBP Air and Marine 
leadership on the conditions along the border from their vantage point.
    The testimony given by these Government officials established 
further that there is a deep disconnect between what politicians and 
policymakers in Washington, DC say about our current situation to 
secure the border and what I hear on a daily basis here at home. This 
is not surprising considering many policy makers in the Nation's 
capital have never seen or experienced our situation along the border, 
something Southern Arizona residents live with every day.
    At my first hearing, Border Patrol officials stated that they have 
the ability to interdict and apprehend more than 80% of the illegal 
traffic on the Southwest Border, which sounds like an improvement from 
the last time we measured operational control of the border in 2010, 
which stood at 44%.
    But the Border Patrol's numbers only take into account what they 
see, the numerator, and fail to include all activity, the denominator, 
so it is an incomplete, if not misleading figure, that does not give an 
accurate assessment of current strategy's effectiveness.
    At the same hearing, after I pressed them, CBP admitted to having 
only roughly 50% situational awareness of the border. That means, of 
illicit activity coming across our Nation's roughly 2,000-mile 
Southwest Border, CBP only knows what is happening with certainty in 
half of it.
    The truth is that the border is not as secure as it needs to be, 
and the Department of Homeland Security for years has, been trying to 
sell the American people a false narrative that the border is more 
secure than ever.
    Local law enforcement, business and community leaders, ranchers and 
residents--those I represent and have met with and spoken to on 
countless occasions--have a different perspective. They also have a 
better understanding of the very real border security challenges faced 
by our fellow citizens because they live and work here and experience 
the ramifications of an unsecure border every day.
    Viewing the border through the eyes of local residents, like those 
before us today, arms policymakers with first-hand experiences on what 
is and isn't working in border security efforts. At the end of the day, 
I want to get down to the business of finding thoughtful, common-sense 
solutions to improve border security.
    We are fortunate to have brave men and women of the Border Patrol 
do all they can with the tools they are provided. However, they are 
often hampered by outdated, flawed strategies and political leadership 
that does not have the resolve to let them do what agents do best--
secure the border and protect the homeland.
    Rural border security is a difficult task. Agents do a difficult 
job, often alone, in rugged terrain. They are subject to a rising 
number of assaults, which are not frequently prosecuted, and on a daily 
basis put their lives on the line to prevent cartels from trafficking 
drugs, money, people, and weapons through our communities.
    Local law enforcement officers are often willing and able border 
security partners, so we need to properly fund and equip them through 
programs like Operation Stonegarden in order to assist the Federal 
Government's efforts. Information sharing, joint operations and 
collaboration should be the pillars of this approach and will help 
maximize the results for the community.
    Every day our fellow citizens, including many in attendance here 
today, must endure the hassle of a border security checkpoints, fear 
the consequences of illegal activity on their property, or have their 
businesses harmed by a perception of the border that does not totally 
square with reality.
    Legislation I authored that recently passed in the House directs 
the Border Patrol to develop a new strategy that is based on a full 
assessment of the threats along our Southern Border, including where we 
have vulnerabilities, the impact of terrain, where we have gaps in 
situational awareness and operational control, and where the drug 
cartels are beating us.
    Having a frank and honest discussion about what the witnesses see 
and experience on the border, and their proposed solutions will help us 
ensure our Nation's border security efforts protect the citizens who 
live and work on the border every day, as well as secure the Nation.
    We have a very diverse group of witnesses today to provide 
important perspectives on the challenges, complexities, and solutions 
regarding border security. As the saying goes: ``Where you stand 
depends upon where you sit'' and maybe for this topic, perhaps it 
should be ``where you stand depends upon where you live and work.''
    From reading the written statements, we have some different 
viewpoints and disagreements between some of our witnesses on a variety 
of topics. I look forward to a fruitful, spirited, but respectful 
discussion and debate. I would ask that we all consider that we can 
learn from each other today and find common ground, since we all have 
the desire to keep our country and communities safe.
    I very much look forward to the testimony of our witnesses today, 
each of whom brings a unique and important perspective to this 
discussion. I want to especially welcome the gentleman from New Mexico, 
Mr. Pearce, to Arizona. Mr. Pearce represents the 2nd Congressional 
District of New Mexico, which borders Arizona's 2nd Congressional 
District to the east and is also home to many miles of the Southwest 
Border.

    Ms. McSally. I now want to recognize the gentleman from New 
Mexico, Mr. Pearce, for any opening statement you may have.
    Mr. Pearce. Thank you. I will just be brief. Thanks for not 
saying also that you flew in this millennium and I flew in the 
last millennium.
    [Laughter.]
    Mr. Pearce. So I appreciate you leaving that part out.
    When you deal with the voters, which we have to do every 2 
years, you start to understand that they don't really want to 
focus too much on the exact circumstances of bills and 
legislation. Instead, it is like the tide moving back and 
forth. I will guarantee you that people in this country right 
now do not feel safe.
    So Washington can say the border is secure all they want, 
and I appreciate reading your testimony, sir, that says that we 
have work to do and we need to be more transparent, more 
honest. I think that the beginning point is exactly what we are 
doing here, getting all the stakeholders together. 
Congresswoman McSally came in and immediately took a lead role 
in this.
    Her district and mine butt up against each other. I am just 
across the end of New Mexico all the way to El Paso, and we see 
very strong similarities, and you just have the sense here that 
the closer you get to the border, the more that people are just 
very unsettled. We as a Nation need to be dealing with that 
unsettlement.
    Of course, the problem is that some people want to solve it 
one way and some another. So the testimony that I have read 
today--and I really appreciate the balance that you have on the 
panels, because that is one of the keys--you can't just 
approach it from one direction. So I am looking forward to it.
    I would just tell you frankly that I think both parties 
have gamed this issue for years. So the fact that it is here 
and we are dealing with it in the fashion that the anger has 
reached the level that it has just tells us it is time to get 
to work and do what we were sent there to do, make hard 
decisions about very difficult things in a pragmatic and 
sensible way.
    So I am looking forward to the discussion and seeing what 
we come up with.
    Thanks again. I appreciate the invitation to be here.
    Ms. McSally. Absolutely. Thanks.
    Okay, so we have 2 panels today. The first panel has 3 
people on it, and the second panel has 5 people on it. We tried 
to group them, generally speaking. We have elected officials, 
our Cochise County Sheriff, and Mr. Del Cueto is representing 
the Border Patrol Agents. So this is kind of the official 
perspective, if that makes sense, the public-sector 
perspective. Then the second panel has a mix of individuals 
that are from the community and the private sector providing 
different perspectives. So I just wanted to lay that 
groundwork.
    I do want to acknowledge we do have the Pima County Sheriff 
Nanos here in the audience. We appreciate you coming for our 
discussion here today.
    So first I will give a couple of introductions and bios 
here.
    Sheriff Mark Dannels is the sheriff of Cochise County, 
Arizona, a position he has held since November 2012. Sheriff 
Dannels began his law enforcement career in 1984 after serving 
in the United States Army and progressed through the ranks 
within Cochise County Sheriff's Office after working numerous 
specialty assignments and leadership roles. He is a member of 
numerous organizations, including the Fraternal Order of 
Police, the National Sheriffs Association, the Southwest Border 
Sheriffs Association, and the Arizona Homeland Security 
Regional Advisory Council.
    Mayor Danny Ortega is the mayor of Douglas, Arizona. Mayor 
Ortega was born and raised in Douglas, and also serves as the 
vice president of his family-owned business that was first 
established in Douglas in 1923. He has been involved in many 
organizations in the Douglas community, including the Douglas 
Chamber of Commerce and the Douglas Lion's Club.
    Mr. Art Del Cueto is the president of the Border Patrol 
Union Local 2544. Mr. Del Cueto has been a Border Patrol Agent 
since 2003 and began his career in Casa Grande, Arizona, where 
he helped in the effort to establish a new substation at Three 
Points, Arizona. Prior to working for the Border Patrol, Mr. 
Del Cueto worked in a maximum security state prison in Tucson.
    The witnesses' full written testimony will appear in the 
record.
    The Chair now recognizes Sheriff Dannels for his verbal 
testimony.

  STATEMENT OF MARK DANNELS, SHERIFF, COCHISE COUNTY, ARIZONA

    Sheriff Dannels. Good morning, everyone. Chairwoman 
McSally, Mr. Pearce, thank you for having us today, and thank 
you, both of you, for just your awareness and support in these 
issues.
    With me today is also Pima County Sheriff Chris Nanos, who 
is sitting to my right. He is the Pima County Sheriff here who 
works closely with us on the Southwest Border Task Force.
    With 83 miles of international border within its 
jurisdiction, Cochise County plays a significant role in 
combating drug and human trafficking organizations and the 
associated violent crime which adversely affects Arizona 
residents and other areas throughout the United States. With 
6,219 square miles, Cochise County is the 38th-largest land 
mass county in the United States.
    One of Mexico's largest and most notorious trafficking 
organizations and drug cartels, the Sinaloa Cartel, has long 
employed the use of local Mexican drug trafficking 
organizations, DTOs, to carry out the cartel's drug 
distribution and transportation in and throughout the United 
States. The Mexican drug trafficking organizations operating in 
Cochise County are highly sophisticated and innovative in their 
transportation methods. Violence against innocent citizens, 
public officials, law enforcement, and rival drug/human 
trafficking groups in Mexico continues to escalate.
    The adverse effects of the drug and human trafficking 
organizations operating in Cochise County not only have 
significantly diminished the quality of life of county 
residents but also placed unbearable financial strain upon the 
budgets and resources of private and Government agencies in the 
county.
    Having the true-life experience to live and work as a law 
enforcement officer/deputy and now sheriff in Cochise County 
since 1984, it has been an educational lesson for me to 
reference border security in the evolution of this border. I 
have witnessed the escalation of violence by these careless 
assailants on our citizens, raising the question: Who actually 
controls our borders? Cochise County has become known as the 
gateway to illegal activity for those unlawfully entering into 
the United States.
    In the history of the border, which I think is critical to 
where we are at today, in the early 1990s the Federal 
Government came up with a plan to address the unsecure, unsafe 
border. I call it the plan of the Ps, and that was to protect 
the populated areas--Yuma, El Paso, and San Diego were targeted 
cities--along with the ports of entry.
    The other half of the plan, which is the disturbing part of 
the plan, was to re-route that illegal activity into the rural 
parts of the Southwest Border. Mr. Pearce, your area, as you 
know, in New Mexico is a highly-trafficked area, just like 
Cochise County, Santa Cruz County, and other parts of the 
Southwest Border.
    Since that time there have been many changes, since the 
early '90s, with this plan being in place. We have had some 
successes, and that is a reduction in those protected ``P'' 
areas. Unfortunately, we have had increased illegal activity in 
the outside protected areas, outside the ports and populated 
areas, to include Cochise County. We have had fear and 
frustration increase in rural Cochise County along the 
Southwest Border, ranch and farmlands damaged due to increased 
illegal activity, property damage--fencing, livestock, water 
lines. Burglaries and thefts in rural Cochise County are on the 
rise. Violent crimes include homicides, assaults, rapes, drug 
smuggling, et cetera. Transnational cartels and smuggling 
organizations have actually controlled and set up smuggling 
routes throughout Cochise County, which is on-going as we 
speak.
    Lack of redefinition of the plan since the 1990s, there has 
been no redefinition to this plan for over 20 years.
    Economic decline. Cochise County is losing population at a 
staggering rate. We were No. 1 population decrease several 
years ago. I believe we are going to be No. 1 in the country 
again for population decrease.
    Legacy ranchers, I think we have had a half-dozen to a 
dozen ranches sold in the last few years.
    Lack of Federally-elected leaders to address insecure 
borders. Fear is creating a lack of trust and anger by citizens 
in Cochise County along the border.
    Questionable consequences by Federal Government by those 
committing border crimes.
    Undue pressure on local law enforcement sheriffs to address 
these issues; fear and consequences for committing border 
crimes.
    Lack of funding for local law enforcement, the criminal 
justice system, corrections, our jails, in order to address 
border crimes at the local level due to the Federal 
Government's lack of intervention.
    Local solutions and programs are no longer a thought but a 
mandate. Many sheriffs on the Southwest Border, to include 
Cochise County, have taken our statutory and elected oath 
seriously in the fact to protect their freedoms and liberties. 
We have enacted many programs, balanced community policing 
through education and prevention and enforcement; transparency 
plus time, we built community trust; collaborated efforts 
coming from the local side with all 3 levels of government; 
installation of new radio towers, radios; working with our 
schools, 21 rural schools, where they are all getting radios 
here in the next few months; ranchers and citizens that live in 
the vulnerable areas, we are going to be issuing them radios.
    A regional application for law enforcement where we are 
sharing together. We have a financial interdiction unit working 
on financial crimes, along with a regional border team 
supported by the Border Patrol.
    A ranch advisory team where 2 deputies are taken off patrol 
to work with the ranchers so they have an ear and a voice on 
that, a ranch advisory team made up of ranchers throughout 
Cochise County to help us enhance communication; and 
consequence-driven prosecution. I will give you an example of 
what I am talking about with that.
    The Federal Government has an issue prosecuting juveniles 
based on their laws. We started this several months ago where 
we have an average of 26 juveniles, ages 14 to 17, in my jail 
that are now being prosecuted as adults and being sent to 
prison for a year-and-a-half, and these are ones when the 
Border Patrol picks up a backpacker, they turn them over to the 
Sheriff's Department or a local agency who makes the arrest, 
and then we prosecute them through our local county attorneys, 
a partnership that is called a righteous partnership. Before 
this was going on, these vulnerable youth, both on the local 
side from our local high school and from across the line, were 
being recruited by the cartels to smuggle drugs into the United 
States. We took a prevention and enforcement approach toward 
that.
    The Federal Government and elected policymakers have been 
slow to react to the voices and concerns of those living on the 
Southwest Border. The following comprehensive recommendations 
are directly linked to our Federal leaders and given to you 
based on what we see.
    Re-define the plan of the '90s and build upon its 
successes.
    There needs to be a political will to make border security 
a mandated program and not a discretionary one.
    Border security first, immigration reform second.
    Secondary checkpoints only after primary border 
interdiction is satisfied by the stakeholders.
    Quality of life/citizens living on the border supported by 
sheriffs and State governors regarding improved security and 
safety.
    Funding supplement for local law enforcement, prosecution, 
detention, criminal justice in support of border crimes.
    SCAP needs to be enhanced. Right now it is at 4.8 cents on 
the dollar for reimbursing sheriffs to hold illegals.
    Continued funding and support for Stonegarden program--it 
has been a success, and please don't remove that--to include 
the EREs and employee-related expenses that go with that. That 
is very important to rural counties.
    Enhanced funding for regional communication and 
interoperability with local law enforcement.
    There is a staggering number of--an article came out here 
where in 2015, 19,000 criminal aliens were released back into 
communities in the United States. That is a lose/lose for every 
sheriff and police chief in this country, and for the morale of 
the men and women who serve in our Border Patrol, which we have 
a great relationship in our county.
    The recipe for success for this problem starts at the local 
level first. Our local efforts have proven to be beneficial in 
bringing overdue solutions to an unsecure border that has 
become a discretionary program by those Federally-elected 
leaders and policymakers that have been entrusted to protect 
our freedoms and liberties. As a sheriff elected by the good 
people of my county, my biggest fear is another loss of life to 
one of my citizens and/or law enforcement officers/agents 
contributed to a border that is not secure. One would hope the 
priority of securing our border doesn't become just about a 
price tag and/or political posturing, but rather the legal and 
moral requirement to safeguard all of America, which so many 
heroic Americans have already paid the ultimate price for.
    Today's opportunity to address this group instills fresh 
hope that our voice does matter, and on behalf of the citizens 
of Cochise County, the Southwest Border sheriffs, Arizona 
sheriffs and beyond, we hope you won't forget us and will do 
your Constitutional mandate to bring positive change to an 
overdue vulnerable situation.
    With that, I leave you an open invitation, Mr. Pearce. I 
know Ms. McSally has been down there numerous times. Her and I 
have spoken and driven around, and she actually has not seen a 
show-and-tell border but a real border.
    Thank you.
    [The prepared statement of Sheriff Dannels follows:]
                   Prepared Statement of Mark Dannels
                              May 9, 2016
                              introduction
    Chairwoman Martha McSally and Members of this committee, thank you 
for the invitation to speak to you today on this very important 
subject.
                       history of cochise county
    With 83 miles of international border within its jurisdiction, 
Cochise County plays a significant role in combating drug and human 
trafficking organizations and the associated violent crime which 
adversely affects Arizona residents and other areas throughout the 
United States. In 1990 the Office of National Drug Control Policy 
(ONDCP) designated Cochise County as a High-Intensity Drug Trafficking 
Area within southern Arizona. This designation is a direct result of 
overwhelming and sustained levels of illicit drug and human trafficking 
within Cochise County.
    With 6,219 square miles, Cochise County is as large as the States 
of Rhode Island and Connecticut combined. The estimated population of 
the county in 2010 is approximately 131,346. The geography of the 
county consists of 7 incorporated cities to include the historical town 
of Tombstone. Surrounded by vast areas of desolate uninhabited desert 
and mountainous terrain, the 7 cities only represent a combined area of 
215 square miles, leaving 6,004 square miles of unincorporated area. 
These desolate areas are routinely exploited for smuggling routes by 
the drug/human traffickers and pose one of the greatest challenges to 
local law enforcements effort in establishing border security and 
interdiction efforts. Cochise County is the 38th-largest land mass 
county in the United States, and is home to the United States Army 
base, Fort Huachuca. Throughout the history of the county ranching and 
farming has played a significant part in its legacy.
    Unlike other border counties in Arizona, Cochise County is unique 
in that there are 2 cities in the Republic of Mexico situated on the 
international border within the county. The cities of Agua Prieta and 
Naco, with an estimated population of 80,000 and 10,000 respectively, 
are well know to U.S. Law Enforcement officials as staging and 
operational centers for one of Mexico's largest and most notorious drug 
cartels. The Sinaloa Cartel has long employed the use of local Mexican 
drug trafficking organizations (DTO's) to carry out the cartel's drug 
distribution and transportation into and throughout the United States.
    These local DTO's also utilize their established smuggling routes 
in Cochise County to transport the cartels illicit profits such as U.S. 
currency, firearms, and ammunition into Mexico. A large portion of the 
profit is used to sustain control over the corridor through the use of 
violence against law enforcement, rival trafficking organizations, and 
bribes of government officials.
    The Mexican drug trafficking organizations operating in Cochise 
County are highly sophisticated and innovative in their transportation 
methods. Aside from the normal use of human backpackers (mules), 
clandestine tunnels, and vehicles, the trafficking organizations have 
resorted to the use of ultra light aircraft which cannot be detected by 
normal radar, cloned vehicles appearing to be law enforcement or other 
legitimate companies, and most recently the use of catapults which hurl 
bundles of marijuana into the United States to awaiting co-
conspirators. The organizations utilize sophisticated and technical 
communications and counter surveillance equipment to counter law 
enforcements interdiction tactics and strategies. Scouts or observers 
are strategically placed along smuggling routes to perform counter 
surveillance on law enforcement and report their observations to those 
controlling the drug/human smuggling operation so they may avoid and 
elude law enforcement. The use of cell phones and sophisticated two-way 
radio encryptions for communications are standard equipment, as are 
night vision and forward looking infra-red devices.
    Violence against innocent citizens, public officials, law 
enforcement, and rival drug/human trafficking groups in Mexico 
continues to escalate. Cochise County's law enforcement and private 
citizen fears of it spilling into the county were realized in 2010 when 
a long-time Cochise County resident rancher was senselessly murdered 
while inspecting fences on his ranch. Further complicating the concerns 
is the potential for foreign terrorist to employ drug/human trafficking 
organizations to smuggle individuals and or weapons of mass destruction 
into the United States through Cochise County.
    The adverse affects of the drug and human trafficking organizations 
operating in Cochise County not only have significantly diminished the 
quality of life of county residents, but also placed unbearable strain 
upon the budgets and resources of private and government agencies in 
the county.
    Historically speaking, illegal border crossings into the United 
States are well-known in southern Arizona and recognized as a part of 
everyday life within Cochise County and throughout the Southwest 
Border. Many years ago, Cochise County citizens were not overly alarmed 
when they observed a handful of undocumented aliens travelling through 
private or public lands in search of jobs. Unfortunately, over time 
these groups dramatically increased in size and became more reckless, 
aggressive, and violent, bringing unrest and fear to the citizens 
living on the border. Examples of this include reckless high speed 
pursuits, assaults on citizens, rapes, kidnappings, murders, and home 
invasions to steal one's private and personal possessions. It was 
apparent the search for the American dream was being over-shadowed by 
these mules, coyotes, bandits, and transnational criminals preying upon 
our citizens.
    Having the true-life experience to live and work as a law 
enforcement officer/deputy and now Sheriff in Cochise County since 
1984, it has been an educational lesson for me reference border 
security. I have witnessed the escalation of violence by these careless 
assailants on our citizens raising the question, who actually controls 
our borders? Cochise County has become known as the gateway to illegal 
activity for those unlawfully entering into the United States.
         federal government's border security plan of the '90s
    In the early 1990s, the Federal Government prepared a plan to 
address the unsecure, unsafe border. At a press conference in Tucson, 
Arizona, a Border Patrol spokesman announced their intent to secure the 
populated areas of the border, specifically San Diego, Yuma and El Paso 
and the International Ports of Entry. These targeted areas, which I 
call the ``Ps=Ports and Population'', would be the Federal Government's 
focus points. The second half of their plan was to reroute the illegal 
activity/disturbances into the rural parts of the Southwest Border with 
the thought that these cartel organizations and smuggling groups would 
be deterred by the rugged and mountainous regions along the border.
    Since the release of the plan, many changes have taken place. 
Specifically, Cochise County has increased their staffing of Border 
Patrol agents from a handful of agents to an estimated 1,300 agents 
stationed within Cochise County. To add, an estimated 200 Customs 
agents working at the port of entries (Douglas and Naco) and within the 
Cochise County to secure and protect the estimated 83 miles of 
international border. Infrastructure, such as metal fencing, lightning, 
cameras, sensors, radars, etc. have been installed between both ports 
and some distance beyond bringing some needed relief to this area and 
those that live within. Secondary immigration checkpoints were 
established on routes (roadways) 20-40 miles north of the border. The 
plan has been in place for over 20 years and the following are some 
thoughts regarding the plan:
  <bullet> Reduction in illegal activity between the protected areas 
        (ports)
  <bullet> Decrease in larger groups of undocumented aliens between the 
        protected areas (ports)
  <bullet> Increase in illegal activity outside the protected areas 
        (ports)
  <bullet> Fear/Frustration increased in rural Cochise County/Southwest 
        Border
  <bullet> Ranch and Farm lands damaged due to increased illegal 
        activity
  <bullet> Property (fencing, livestock, waterlines, etc.) damaged
  <bullet> Burglaries/Thefts increased in rural Cochise County/
        Southwest Border
  <bullet> Violent Crimes increased i.e. Homicides, Assaults, Rapes, 
        Drug and Human Smuggling, etc. in rural Cochise County/
        Southwest Border
  <bullet> Transnational Cartels/Smuggling Organizations controlled and 
        set up smuggling routes in rural Cochise County/Southwest 
        Border
  <bullet> Lack of Border Patrol Agents directly on border but north of 
        border
  <bullet> Secondary checkpoints became international ports within 
        communities resulting in disturbances/illegal activity during 
        all hours of the day or night
  <bullet> Lack of Re-Definition to the plan of the '90s (time erased 
        history)
  <bullet> Loss of recreational land use due to fear of criminal 
        activity
  <bullet> Economic decline (Cochise County largest decrease in 
        population)
  <bullet> Legacy Ranches being sold
  <bullet> Lack of Federally-elected leaders to address unsecure 
        border/fears creating a lack of trust and anger by citizens
  <bullet> Questionable consequences by Federal Government by those 
        committing border crimes
  <bullet> Undue pressure on local law enforcement/Sheriffs to address 
        issues, fear, and consequences for those committing crimes
  <bullet> Lack of funding for local law enforcement/criminal justice 
        system/corrections in order to address border crimes at the 
        local level due to Federal Government lack of intervention
  <bullet> Border Security shall be a Mandate, not a Discretionary 
        program
  <bullet> Border Security v. Immigration Reform (two different 
        programs not to be blended)
  <bullet> Lack of Trust and Confidence in Federal Government=Border 
        Patrol as arm of Federal Government
                action-based solutions local government
    Local Solutions and Programs are no longer a thought, but a reality 
for bringing relief to our citizens who consciously choose to live near 
our borders. No better example of the importance of local law 
enforcement during a National crisis was the terrorist attack on 
September 11, 2001. First responders from local police and fire were 
the first on scene to address this horrific threat. Local law 
enforcement is best-suited to best understand community needs and 
solutions based on the expectations of their citizens. Community 
policing begins and succeeds at the local level first.
    As the Sheriff of Cochise County, I felt it was my elected and 
statutory duty (oath of office to support the United States 
Constitution and the Arizona Constitution) to protect and secure the 
freedoms and liberties of my citizens, with or without the help of our 
Federal law enforcement partners/policy makers. No longer a debate by 
those that live in the rural parts of the Southwest Border, the rural 
parts of the Southwest Border are NOT secure and are vulnerable for ANY 
type of transnational criminal activity.
    Working with limited budgets and staffing, sheriffs along the 
Southwest Border struggle each and every day to find ways to enhance 
the quality of life/safety for those they serve and bring a general 
sense of deterrence for those choosing our border as a venue to promote 
their criminal enterprises. The following bullet points are action-
driven solutions implemented in hopes of bringing some relief and sense 
of security for those living in Cochise County:
  <bullet> Balanced Community Policing (Education, Prevention, 
        Enforcement)
  <bullet> Transparency+Time=Community Trust
  <bullet> Collaborated Efforts by all 3-levels of Government
  <bullet> Law and Order Partnership between Sheriff and County 
        Attorney
  <bullet> Private and Public Funding donations/grants to purchase 
        upgraded equipment/communications
  <bullet> Installation of New Radios/Towers/Consoles/Microwave
  <bullet> Portable Radios to Citizens/Ranchers/Farmers/Schools
  <bullet> Interoperability/Intelligence Sharing at all 3 levels
  <bullet> Regional Application for Law Enforcement
  <bullet> Financial Interdiction Unit
  <bullet> Regional Border Team by Sheriff supported by Border Patrol, 
        ICE, U.S. Forest
  <bullet> Ranch Advisory Team
  <bullet> Ranch Patrol
  <bullet> Consequence-Driven Prosecution (all 3 levels)
  <bullet> Local Trail-Cameras, Sensors, ATVs, Thermal Vehicle, Off-
        Road Vehicle, etc.
  <bullet> Factual Situational Awareness for Media, Elected Officials, 
        America
  <bullet> Quarterly Law Enforcement Leadership Meetings
  <bullet> Community Outreach Unit
  <bullet> Community Meet & Greets within Communities
  <bullet> Aviation Program (Helicopter & Drone)
  <bullet> Positive-Interactive Use of Media and Social Media
                   recommendations federal government
    The Federal Government (elected and policy makers) has been slow to 
react to the voices and concerns of those living on the Southwest 
Border. Cochise County and other counties along the border have become 
VIP attractions, venues for those seeking to make a difference or 
promising change only to become another faded high-hope. The following 
comprehensive recommendations are directly linked to our Federal 
leaders:
  <bullet> Re-define the plan of the '90s and build upon successes
  <bullet> Political Will to make Border Security a Mandated Program
  <bullet> Border Security First, Immigration Reform Second
  <bullet> Maximize Allocated Resources such as Staffing (only 43% of 
        Border Agents in the Tucson Sector are assigned on the border)
  <bullet> Support and Embrace First-line Agents that work the border 
        regions, they have a dangerous job and it's no secret that 
        their frustration is high based on the unknown complexities 
        reference their assignments, they have great ideas to share
  <bullet> Secondary Checkpoints only after Primary border interdiction 
        is satisfied by stakeholders
  <bullet> Quality in Life/Citizens living on border supported by 
        Sheriffs and State Governors regarding improved security/safety
  <bullet> Funding supplement for Local Law Enforcement/Prosecution/
        Detention/Criminal Justice in support of border crimes
  <bullet> Continued Funding and Support for Stone Garden Program
  <bullet> Empowerment with action to Border Patrol Leadership/PACs 
        (currently Cochise County has 3-dedicated and solution-driven 
        leaders that work well with local law enforcement)
  <bullet> Enhanced Funding for Regional Communication and 
        Interoperability with local law enforcement
  <bullet> Cultural/Quality in Service Training for Border Patrol 
        Agents working in rural counties
                                summary
    Our local efforts have proven to be beneficial in bringing over-due 
solutions to an unsecure border that has become a discretionary program 
by those Federally-elected leaders and policy makers that have been 
entrusted to protect our freedoms and liberties. As a Sheriff elected 
by the good people of my county, my biggest fear is another loss of 
life to one of my citizens and/or law enforcement officers/agents 
contributed to a border that is NOT secure. One would hope the priority 
of securing our border doesn't become just about a price tag and/or 
political posturing, but rather the legal and moral requirement to 
safeguard all of America, which so many heroic Americans have already 
paid the ultimate price for.
    Today's opportunity to address this group instills fresh hope that 
our voice does matter and on behalf of the citizens of Cochise County, 
Arizona and beyond, we hope you won't forget us and will do your 
Constitutional mandate to bring positive change to an over-due 
vulnerable situation.
    I will leave each one of you with an open invitation to visit 
Cochise County along with a personal-guided tour and visit with our 
citizens to hear/see first-hand America's true rural border.
    Again, thank you very much for the opportunity to share this 
information with you. I will be happy to answer any questions you may 
have.
       ATTACHMENT.--LETTER FROM THE ARIZONA SHERIFFS ASSOCIATION
                   July 28, 2014, Phoenix, Arizona.

    This letter is authored by the Arizona Sheriffs Association to 
address the lack of border security on the part of our Federal 
Government, thereby placing our Arizona citizens and all those that 
visit our beautiful State in harm's way by those that have chosen to 
infringe upon and violate our freedoms and liberties as guaranteed 
under the U.S. Constitution.
    Arizona Sheriffs are standing united and steadfast in support of 
``Secure and Safe'' borders in hopes of enhancing public safety for our 
Arizona citizens and all Americans. A ``Secure and Safe'' border is one 
that provides a genuine deterrent for those that cross into our country 
illegally and for illicit gain.
    Border security must never be a discretionary program, but a 
mandate by our Federal leaders and policy makers. The quality of life 
normally enjoyed by our citizens has been jeopardized by an unsecure 
border that enables transnational criminals and their accomplices to 
prey on our citizens.
    Our focus is border security and is NOT to be confused with 
immigration reform.

                                      Sheriff Mark Dannels,
                                                    Cochise County.
                                       Sheriff Leon Wilmot,
                                                       Yuma County.
                                   Sheriff Clarence Dupnik,
                                                       Pima County.
                                      Sheriff Tony Estrada,
                                                 Santa Cruz County.
                                         Sheriff John Drum,
                                                     La Paz County.
                             Sheriff Preston ``PJ'' Allred,
                                                     Graham County.
                                       Sheriff Larry Avila,
                                                   Greenlee County.
                                     Sheriff Adam Shepherd,
                                                       Gila County.
                                        Sheriff Joe Arpaio,
                                                   Maricopa County.
                                        Sheriff Paul Babeu,
                                                      Pinal County.
                                     Sheriff Scott Mascher,
                                                    Yavapai County.
                                Sheriff Kelly ``KC'' Clark,
                                                     Navajo County.
                                       Sheriff Tom Sheahan,
                                                     Mohave County.
                                     Sheriff Joseph Dedman,
                                                     Apache County.
                                       Sheriff Bill Pribil,
                                                   Coconino County.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. McSally. Thank you, Sheriff Dannels.
    The Chair now recognizes Mayor Ortega to testify.

       STATEMENT OF DANNY ORTEGA, MAYOR, DOUGLAS, ARIZONA

    Mr. Ortega. Thank you, Chairwoman McSally, Representative 
Pearce. Thanks for joining us here today.
    I am mayor of Douglas, Arizona, and also a businessman. My 
family came to Douglas in the early 1920s and established a 
shoe business there, and we have been running it ever since. We 
have been very active in our community as a family, and myself 
personally as well.
    When you come to our town, I hope you see security through 
our eyes. I think the residents of our community feel very safe 
in Douglas, and we have many binational events with the sister 
city of Agua Prieta. We recently had a binational concert that 
drew hundreds of people where a band played on the Mexican side 
and then followed by a band on the American side.
    I understand the need for more security away from the ports 
of entry, but we cannot let that get in the way of the legal 
crossing of goods and people. As I have often heard, we need 
high fences and wider gates. We also need to talk about making 
it more efficient and easier to trade goods and services with 
Mexico. Total U.S. goods traded with Mexico in 2013 equaled 
$506.6 billion, and growing at close to 5 percent. Mexico is 
the third-ranked commercial trading partner with the United 
States and the second-largest market for U.S. export. Trade 
with Mexico sustains 6 million jobs in the United States. Sales 
to Mexico are larger than all U.S. exports to Brazil, Russia, 
India, and China combined. Twenty-two U.S. States count Mexico 
as their No. 1 or 2 trading partner in exports, and a top-5 
market to 14 other States as well.
    For every dollar Mexico makes from exporting to the United 
States, it will turn 50 cents in U.S. products or services, 
which helps our struggling economy. In May 2010, the United 
States and Mexico signed the 21st Century Border Management 
Joint Declaration recognizing the importance of developing a 
modern and secure border infrastructure to make us both more 
competitive in the global market.
    Our ports are antiquated and we do not have the staffing to 
support the growing trade and border crosses at our southern 
ports of entry. We have struggled and are making do with what 
limited resources we have, yet are unable to handle the 
projected growth without more bodies and money at our ports.
    Border towns have been ignored for many years even though 
we provide access to one of the fastest-growing economies in 
the world. China is starting to have better relations with 
Mexico and is one of our biggest competitors for the burgeoning 
economy. We need to view the Southern Border as an asset and 
not a liability.
    Locally in Douglas, our current port was built in 1936, 
with minor upgrades done in 1993. We have outgrown the facility 
and put the officers and people crossing at risk. If there is 
ever a chemical spill at our current port, we do not have a 
HAZMAT facility that could control such a spill. We ship many 
chemicals to the mines in Mexico. We have trucks waiting for 
extended periods of time, polluting the air with exhaust. We do 
not have modern equipment to inspect trucks or cars because of 
the lack of funding and space.
    Douglas is considered a small port, yet over $1.5 billion 
worth of merchandise crosses our port on a yearly basis, and 
that number is growing at about 5 percent over the last 5 
years. We have seen growth in industry of about 40 percent in 
the past 5 years, and that growth is starting to show on the 
American side. We currently applied for a new port of entry. We 
think we need to take the commercial port out of our local 
footprint. Congresswoman McSally has been very supportive of 
that effort, and we thank you for that.
    The cattle industry is also very large in our area. We 
currently cross about 1,500 head of cattle a day in the peak 
season of November to May. That is over $2 million a day in 
cattle crossings to help support the American appetite for 
beef. We need some investment in our ports of entry. The road 
for the cattle pen is currently a dirt road that is not 
maintained, and we are looking to work with some of our local 
investors to see how we can improve that port.
    We also need to streamline the process in which Mexican 
citizens have the ability to obtain a B1 or B2 border crossing 
card to come to the United States, shop, and visit our 
communities on a legal basis. Sixty-five percent of our revenue 
for the city of Douglas comes from sales tax, and 80 percent of 
that money comes from the Mexican consumer. We need help in 
just getting people across the border, back and forth.
    I have spoken to many friends on the Mexican side. Many are 
proud to be Mexican. They do not want to come and live here. 
They just want to come here and shop, visit our country, and 
then go back home.
    There is a net loss in migration currently, according to 
the Pew Institute. More people are actually--Mexicans are 
leaving our country versus coming into our country, and we hope 
we can just leave this meeting today with the thought that we 
need easier access for people and goods and services to come 
across. We really need investment in the infrastructure, our 
ports of entry and our roads.
    Thank you for listening to me today, and I will entertain 
any questions later. Thank you.
    [The prepared statement of Mr. Ortega follows:]
                   Prepared Statement of Danny Ortega
                              May 9, 2016
    Good morning and thank you for taking time for visiting our border 
community. I was born and raised in a border town, Douglas, AZ. my 
family first arrived in Douglas in the early 1920's and have always 
been active members of the community. When you come to our town I hope 
you see security through our eyes, those of us who live and work every 
day miles from Mexico. I understand the need for more security away 
from the ports of entry but we cannot let that affect the legal 
crossing of goods and people. As I have often heard we need high fences 
and wider gates we also need to talk about making it more efficient and 
easier to trade goods and services with Mexico. Total U.S. goods trade 
with Mexico in 2013 equaled $506.6 billion and growing at close to 5%. 
Mexico is the third-ranked commercial trading partner with the United 
States and the second-largest market for U.S. exports. Trade with 
Mexico sustains 6 million jobs in the United States. Sales to are 
larger than all U.S. exports to Brazil, Russia, India, and China 
combined. Twenty-two States count Mexico as their No. 1 or 2 export 
market and a top 5 market to 14 other States. For every dollar Mexico 
makes from exporting to the United States, it will in turn spend 50 
cents on U.S. products or services, which helps our struggling economy. 
In May of 2010 the United States and Mexico signed the 21st Century 
Border Management Joint Declaration recognizing the importance of 
developing a modern secure border infrastructure to make us both more 
competitive in the global economy. Our ports are antiquated and we do 
not have the staffing to support the growing trade and border crossers 
at our southern ports of entry. We have struggled and are making due 
with the limited resources yet we will not be able to handle the 
projected growth without more bodies and money in our ports. Border 
towns have been ignored for many years even though we provide access to 
one of the fastest-growing economies in the world. China is starting to 
have better relations with Mexico and is one of our biggest competitors 
for the burgeoning economy. We need to view the Southern Border as an 
asset and not a liability.
    Locally in Douglas our current port was built in 1936 with minor 
upgrades done in 1993. We have outgrown the facility and put the 
officers and people crossing at risk. If there is ever a chemical spill 
at our port we do not have a HAZMAT facility that could control such a 
spill. We have trucks waiting for extended periods of time polluting 
the air with their exhaust. We do not have the modern equipment to 
inspect trucks because of a lack of funding and space. Douglas is 
considered a small port of entry and yet over $1.5 billion worth of 
merchandise crosses our port on a yearly basis and that number is 
growing at about 5% over the last 5 years. We have seen growth in the 
maquiladora industry of about 40% in the past year on the Mexican side 
and are starting to experience similar growth in Douglas. These are 
good jobs for our community.
    The cattle industry is huge in the Mexican state of Sonora, in 
Douglas alone we cross about 1,500 head of cattle a day in the peak 
season of November through May. These cattle are headed for States in 
the Midwest for fattening and eventually to be served in our 
restaurants. We currently have a dirt road providing access to the 
cattle pens which is not maintained and many times washes out in the 
rainy season. This equates to over $2 million a day in cattle crossing, 
supporting the American appetite for beef. We could use some investment 
in the infrastructure for this valuable cattle crossing.
    We also need help in streamlining the process in which Mexican 
citizens have the ability to obtain a B1/B2 Border Crossing Card (B1 
Visitor for Business and B2 for Visitor) visa to come to the United 
States to shop and visit our communities. As a community in Arizona we 
rely heavily on sales tax for city services. About 65% of our general 
funds come from sales tax revenue and 80% of our sales come from 
Mexico. We are very fluid communities both depending on each other for 
survival, meaning efficient cross-border crossings is important. Our 
ports of entry are not designed for south-bound inspections which have 
been enforced within the last 6 years. We put not only the inspectors 
at risk but also the citizens who have to wait in line for several 
hours to travel what may be a mile. We have no efficient system in 
place to see who is crossing south-bound. This truly discourages people 
from travelling into both our communities affecting local commerce on 
both sides of the border.
    There is a net loss in net migration according to the Pew 
institute. I truly believe that most Mexicans want to live in Mexico 
but come to the United States to earn a decent living, as the Mexican 
economy is growing we are seeing more Mexican citizens staying home. We 
are seeing the drug traffic increase and the number of human smugglers 
is decreasing. I hope that you leave here today realizing that the 
border is an asset to our country and that it needs investment in many 
areas, we have contributed much to the U.S. economy and feel that we 
deserve some investment. We would like to have more of a voice in 
decisions being made and we thank you for taking the time to coming 
here and listening.

    Ms. McSally. Thanks, Mayor Ortega.
    For the record, I just want to make a comment, that the 
second hearing we had in Washington, DC last month was really 
focusing on the infrastructure and the staffing at our ports of 
entry, which has been a critical issue for us in our community, 
and really across the country, and identifying what we can do 
to speed up the hiring of the CBP Officers, as well as 
upgrading the infrastructure project. We very much have been 
working closely on that and are dialing on that. Today we are 
trying to focus on the in-between the ports and the security 
issues there, but it is important to have the full picture of 
our witnesses as we are sort-of framing the discussion. So I 
just want to highlight that we are not ignoring that issue in 
this particular hearing, but I just wanted to frame that, 
especially for our audience.
    The Chair now recognizes Mr. Del Cueto to testify.

  STATEMENT OF ART DEL CUETO, PRESIDENT, LOCAL 2544, NATIONAL 
                     BORDER PATROL COUNCIL

    Mr. Del Cueto. Chairwoman McSally, Congressman Pearce, 
thank you for providing me the opportunity to testify on behalf 
of the National Border Patrol Council and on behalf of Local 
2544, the union here in Tucson, Arizona. The National Border 
Patrol Council represents the interests of 16,500 line agents 
at the Border Patrol.
    My name is Art Del Cueto. I am a native of Douglas, Arizona 
and have been with the Border Patrol since 2003.
    One of the many areas in which the Border Patrol excels is 
in keeping statistics. The Border Patrol can tell you in detail 
how many agents we have. They can tell you the number of 
overtime hours that are worked, the number of apprehensions, or 
the hours of air support delivered by CBP air and marine 
operations. It is really quite impressive. If I was a Member of 
Congress from a non-border State and I sat through a CBP 
briefing about how the border was secure, I would be inclined 
to believe them.
    The primary statistic that Commissioner Kerlikowske talks 
about today in support of his belief that the border is secure 
is the number of apprehensions, which is down. At the height of 
illegal immigration in 2000, Border Patrol apprehended 1.6 
million people. In the Tucson sector alone that year, we 
arrested 616,000 illegal immigrants. To put this in 
perspective, the entire population of Tucson in 2000 was 
486,000. That was how massive this influx was.
    Back in 2000, we were facing a wave of Mexican economic 
migrants in search of employment. There was little organization 
and most illegal immigrants simply loaded up a backpack of 
supplies, jumped the border and headed north. This lack of 
organization frankly made them relatively easy to catch if you 
could deploy Border Patrol manpower.
    Fast-forward to 2016 and the entire border is controlled by 
the Mexican drug cartels. The drug cartels control the border 
in the same way that most prisons are controlled by the 
inmates. Nothing moves along this border without their 
permission, and illegal aliens and narcotics are simply 2 lines 
of business within that same organization.
    Here in Arizona, we have the Sinaloa Cartel. The 63,000 
individuals that we arrested last year in this sector paid the 
cartel a considerable amount of money just to cross in our 
area. Only based on the individuals we arrested in this sector, 
the Sinaloa Cartel made millions from illegal alien smuggling. 
If there is one point that I want to make in this entire 
testimony it is that the money that the cartels earn from 
illegal smuggling underwrites the exact same organizations that 
are flooding our streets with narcotics. Money is flowing back 
to the same organizations that are responsible for the violence 
in Mexico which has murdered over 150,000 people. It is going 
back to the same organizations that threaten the very viability 
of Mexico as a sovereign democracy. This is the nature of the 
threat that we are facing.
    The last time we had comprehensive immigration reform in 
this country was in 1986 with the passage of the Immigration 
Reform and Control Act. This legislation gave amnesty to any 
illegal immigrants who had arrived before 1982, and it is 
responsible for the tidal wave of illegal immigrants that we 
saw in the '90s.
    When the Senate was considering immigration reform 3 years 
ago, many warned about what had happened after 1986. The 
administration, in particular former Arizona Governor Janet 
Napolitano who was then Secretary of Homeland Security, 
promised the American people that it would be different this 
time because the border was secure. If a wave of illegal 
immigrants came, Border Patrol would handle it. It was a 
terrific talking point. Too bad it was completely untrue and 
ignored the emergence of the Mexican drug cartels.
    Although immigration reform is a distant memory, the 
administration is painted into a corner now. If the border is 
secure, how do you ask Congress for more manpower? If the 
border is secure, how do you ask for money for additional air 
support, for technology, and for more fencing?
    For the administration, the answer is real simple: You 
don't. You don't talk about the Mexican drug cartels. You talk 
about how apprehensions are down and how well things are going. 
If we are going to get serious and solve this problem, we first 
have to be honest and admit that a problem does exist.
    If you are serious about confronting the drug cartels, 
there are some concrete steps that need to be taken.
    First, manpower. The National Border Patrol Council 
believes the Border Patrol is at least 5,000 agents below where 
we need to be to be effectively controlling the border.
    More agents in the field. The Border Patrol is an extremely 
top-heavy organization, with multiple layers of management that 
are completely removed from the field. If the Border Patrol has 
the same supervisory staffing ratio that Sheriff Dannels' 
department has, we could return close to 2,000 agents back to 
the field.
    More effective deployment. Currently, almost all of our 
resources are clustered too close to the border. We are 
effectively playing goal line defense every single day. If an 
illegal immigrant or drug smuggler gets more than 10 miles 
north of the border, they will likely not be caught. We need to 
have a defense-in-depth with multiple layers in order to be 
effective. We also need to make rational decisions on the use 
of forward operating bases. Forward operating bases had a time 
and place years ago but are an incredibly inefficient use of 
resources today.
    End our catch-and-release program. One of the main drivers 
of illegal immigration is our own immigration policy. For 
example, under the current policy, if a Border Patrol Agent 
does not physically see an illegal immigrant cross the border 
and the illegal immigrant claims they have been here since 
2014, we have been ordered to process them and let them go. In 
many instances, we will be letting them go without even issuing 
a Notice to Appear. This is a policy that is senseless and is 
literally driving illegal immigration to our front door.
    I want to thank you for giving me the opportunity to 
testify, and I am happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Del Cueto follows:]
                  Prepared Statement of Art Del Cueto
                              May 9, 2016
    Chairwoman McSally and Ranking Member Vela, thank you for providing 
me the opportunity to testify on behalf of the National Border Patrol 
Council (NBPC).
    The NBPC represents the interests of 16,500 Line Agents at the 
Border Patrol and my name is Art Del Cueto. I am a native of Douglas, 
Arizona and have been with the Border Patrol since 2003.
                    current situation at the border
    One of the many areas in which the Border Patrol excels is keeping 
statistics. Border Patrol can tell you in detail how many agents we 
have, the number of overtime hours worked, the number of apprehensions, 
or hours of air support delivered by CBP air and marine operations. 
It's really quite impressive. If I was a Member of Congress from a non-
border State and I sat through a CBP briefing about how the border was 
secure I would be inclined to believe them.
    The primary statistic that Commissioner Kerlikowske talks about 
today, in support of his assertion that the border is secure, is the 
number of apprehensions, which is down. At the height of illegal 
immigration in 2000, Border Patrol apprehended 1.6 million people. In 
the Tucson sector alone that year, we arrested 616,000 illegal 
immigrants. To put this in perspective, the entire population of Tucson 
in 2000 was 486,000. That was how massive the influx was.
    Back in 2000, we were facing a wave of Mexican economic migrants in 
search of employment. There was little organization and most illegal 
immigrants simply loaded up a backpack of supplies, jumped the border 
and headed north. This lack of organization frankly made them 
relatively easy to catch if you could deploy Border Patrol manpower.
    Fast forward to 2016 and the entire border is controlled by Mexican 
drug cartels. The drug cartels control the border in the same way that 
most prisons are controlled by the inmates. Nothing moves along this 
border without their permission and illegal aliens and narcotics are 
simply 2 lines of business within the same organization.
    Here in Arizona, we have the Sinaloa Cartel. The 63,000 individuals 
we arrested last year in this sector paid the cartel a considerable 
amount of money to cross. Only based on the individuals we arrested in 
this sector, the Sinaloa Cartel made millions from illegal alien 
smuggling.
    If there is one point that I want to make in this entire testimony 
it is that the money that the cartels earn from illegal alien smuggling 
underwrites the same organizations that are flooding our streets with 
narcotics. Money is flowing back to the same organizations that are 
responsible for the violence in Mexico which has murdered over 150,000 
people. It is going back to the same organizations that threaten the 
very viability of Mexico as a sovereign democracy. This is the nature 
of the threat we are facing.
                  failure to admit there is a problem
    The last time we had comprehensive immigration reform in this 
country was 1986 with the passage of the Immigration Reform and Control 
Act. This legislation gave amnesty to any illegal immigrant who had 
arrived before 1982 and is responsible for the tidal wave of illegal 
immigrants we saw in the 1990s.
    When the Senate was considering immigration reform 3 years ago, 
many warned about what happened after 1986. The administration, in 
particular, former Arizona Governor Janet Napolitano who was then 
Secretary of Homeland Security, promised the American people that it 
would be different this time because the border was secure. If a wave 
of illegal immigrants came Border Patrol would handle it. It was a 
terrific talking point. Too bad it was completely untrue and ignored 
the emergence of the Mexican drug cartels.
    Although immigration reform is a distant memory, the administration 
is painted into a corner. If the border is secure, how do you ask 
Congress for more manpower? If the border is secure, how do you ask for 
money for additional air support, technology, and fencing?
    For the administration, the answer is that you don't. You do not 
talk about the Mexican drug cartels. You talk about how apprehensions 
are down and how well things are going. If we are going to get serious 
and solve this problem we first have to have the honesty to admit that 
a problem exists.
                               solutions
    If you are serious about confronting the Mexican drug cartels there 
are some concrete steps that can be taken:
    More manpower.--The NBPC believes the Border Patrol is at least 
        5,000 agents below where we need to be to effectively control 
        the border.
    More agents in the field.--Border Patrol is an extremely top-heavy 
        organization with multiple layers of management that are 
        completely removed from the field. If the Border Patrol has the 
        same supervisory staffing ratio that Sheriff Dannels' 
        department has, we could return another 2,000 line agents to 
        the field.
    More effective deployment.--Currently almost all of our resources 
        are clustered too close to the border. We are effectively 
        playing goal line defense every single day and if an illegal 
        immigrant or drug smuggler gets more than 10 miles north of the 
        border they will likely not be caught. We need to have a 
        defense-in-depth with multiple layers in order to be effective. 
        We also need to make rational decisions on the use of Forward 
        Operating Bases (FOB). FOBs had a time and place years ago but 
        are an incredibly inefficient use of resources today.
    End our catch-and-release policy--One of the main drivers of 
        illegal immigration is our own immigration policy. For example, 
        under current policy, if a Border Patrol Agent does not 
        physically see an illegal immigrant cross the border and the 
        illegal immigrant claims they have been here since 2014, we 
        have been ordered to process them and let them go. In many 
        instances, we will let them go without even issuing a Notice to 
        Appear. This is policy is senseless and is literally driving 
        illegal immigration to our front door.
    I want to thank you for giving me the opportunity to testify and I 
am happy to answer any questions that you might have.

    Ms. McSally. Thanks, Mr. Del Cueto.
    I now recognize myself for some opening questions, and then 
I will provide opportunities for Mr. Pearce, and then we will 
probably have a couple of rounds here.
    First I want to ask really the whole panel a 2-part 
question. The first one is, what do you think is the biggest 
misperception in Washington, DC on what is really going on in 
the border? The second part of that is in a little over 8 
months we are going to have a new Commander-in-Chief. We are 
going to have a new Secretary of Homeland Security. If you were 
asked--you are the new Secretary or you were asked by the new 
Secretary what is it that we need to do in order to secure the 
border, you were resource-unconstrained, what would your answer 
be to that question?
    I will start with Sheriff Dannels.
    Sheriff Dannels. Thank you. The first thing is take off the 
myth. Mr. Del Cueto states it clearly. You have to identify 
there is a problem, and that has been a myth through media, 
through different chains, different avenues. But the bottom 
line is they need to identify there is a problem so you can fix 
the problem, and that the border is not secure. This plan needs 
redefinition, like I said in my brief, in my verbal statement 
today. We have to identify that.
    No. 2 is you have all layers of Government working 
together, starting at the local. Community problems have been 
addressed for years and years, have been successfully addressed 
in communities first, not in Washington, DC. You have to start 
with your local law enforcement, your citizens that live it and 
breathe it, along with our State partners, and then our Federal 
partners. That is why we take the oath of office. That is why 
we are leaders, to work together in partnership.
    Ms. McSally. Thanks, Sheriff Dannels.
    Mayor Ortega.
    Mr. Ortega. I guess I have a little different perspective. 
I think our border communities are very safe on both sides of 
the border. The sister cities Agua Prieta and Douglas are very 
safe communities, and there is a lot of trade that goes back 
and forth between our communities.
    Unfortunately, I disagree with Mr. Del Cueto. I think, in 
talking to some of the outlying areas, they want more agents 
closer to the border to try to stop the people illegally coming 
across, primarily drugs at this time. But as far as our 
community goes, our community is safe, but I think the outlying 
areas are not, and I think they would like to see more agents 
closer to the border.
    I wish there were some incentives to have the Border Patrol 
actually live within our communities. It seems as though we 
don't have agents living within our communities, getting to 
know who we are as a community, who the good people and who the 
bad people are. I think that would ease a lot of the relations 
between the Border Patrol and the communities that they serve.
    Ms. McSally. Okay. Thanks, Mayor Ortega.
    Mr. Del Cueto.
    Mr. Del Cueto. I would outline what I have stated previous. 
The border is not secure. There are many communities within 
Mexico where the drug cartels and the people who work for these 
cartels run rampant. Just in the sister city of Douglas, I 
believe a year ago they declared some kind of law where they 
had to close down the streets at 10:00 p.m. because people were 
getting randomly murdered. I think we need to pay attention to 
the boots on the ground and get away from this dog-and-pony 
show that the District of Columbia brings down here to the 
border and explains that everything is nice and happy. It is 
not. It is a war zone out there.
    In the Tucson sector alone, I believe within these last 2 
weeks we have had 3 shootings already. It is not secure. There 
are individuals that, once they get past the agents that are 
near the border, they pretty much are home free and it is 
harder for us to find them and detect them.
    Thank you.
    Ms. McSally. Great. Thank you.
    So, I don't want to put words in anybody's mouth, but do 
all of you agree that--and again, I think this is the second-
order consequences of the strategy over the years, right? It 
has been populated areas first. Again, we saw in California 
addressing it and then pushing the activity into Arizona, and 
then within Arizona addressing trying to deal with the urban 
areas first, pushing the illegal activities into the rural 
areas.
    So the consequence of that is the rural areas is where the 
high propensity of this, especially cartel activity, is 
happening, which is increasing danger and security for those 
who are living out in the rural areas. Is that a fair statement 
to make that the whole panel agrees upon?
    Sheriff Dannels. I would agree.
    If I could say something, Mayor Ortega, when he speaks 
about the security of his city, he is a direct product of that 
plan from the '90s, and he is exactly right. Douglas is safer 
than it ever has been, but that illegal activity, as you are 
describing, is in Cochise County in the rural parts, and those 
folks who live out there don't deserve that.
    Ms. McSally. Do you agree?
    Mr. Ortega. Yes, I do.
    Mr. Del Cueto. Yes.
    Ms. McSally. Okay, thank you. So given that now we are 
dealing with a public safety issue to these rural communities 
that are often miles and miles away from another individual, 
out there kind-of on their own dealing with this cartel 
activity, what do we do to change that? We have differences of 
opinion on at the border/away from the border. We can continue 
to talk about that. But what about the combination of barriers, 
technology, air assets, manpower? Does anybody have a comment 
on the strategy as it relates to the mix of these types of 
tools and where there needs to be a change, a new strategy, 
more resources related to the types of tools that are not just 
the number of agents and where the agents are but the larger 
strategy? I just want to hear from everybody on that.
    Sheriff Dannels. I can start with that. You know, there was 
a bill that was attempted to be passed several years ago. The 
Gang of Eight wanted to add 20,000 more agents, and I know the 
Southwest Border Sheriffs, the Arizona Sheriffs Association, we 
took a large stand on that because there was no strategic plan 
to place those 20,000 agents. Show me a business that can hire 
20,000 more employees and not have a plan.
    I think we need to take an assessment of the current plan, 
put that forward. As you said, 5,000 more agents, whatever the 
number is, but strategically know what you are going to do with 
those agents, and bring that plan back to the border where you 
know the problem is beginning, not downtown Phoenix but at the 
border, and then take it backwards from there.
    The other thing is, and I think it is something that needs 
to be said, is what does get through that border is not just 
Cochise County's problem. It is America's problem. The heroin 
is coming through, as we know. I have testified on that before. 
The methamphetamine, the marijuana that goes into these 
communities throughout the United States is an epidemic. There 
is a cultural mindset that needs to be educated, that needs 
prevention. The fact is that if we don't change our social 
ways, our cultural ways, because the United States folks here 
have a healthy appetite for those drugs, if we didn't have that 
appetite, we wouldn't have the demand and they wouldn't be able 
to ship it across. We need to take a real hard look at that and 
take a comprehensive look at how we are doing business, and 
listen to the line agents. They know.
    I teach at one of the universities. I hear in my classes 
the frustration that they see it, they live it, they breathe it 
too. They have to have a voice at this table beside somebody 
who doesn't work the border, is disconnected. We have to have 
that voice there.
    Then you have the economic side, like the mayor is 
addressing today. I took an oath for public safety, not for 
economics. That is my oath of office is to protect my citizens. 
As he is looking for legal trade, legal immigration, I have no 
issue with it. It is the illegal aspect I am after.
    Ms. McSally. Mayor Ortega.
    Mr. Ortega. I also think we need some investment in not 
only the infrastructure of our ports but the technology within 
our ports. As you have seen, our areas are very rugged. It 
would be hard to get a vehicle in there, even with roads. I 
have heard from some ranchers that when you build a road, you 
build a road also for illegal drug traffic to come across. I 
think we need to be careful with that one.
    But there is technology out there, whether it is drones or 
that type of equipment, to survey the outlying areas, but also 
the increased technology at our ports of entry. I think we are 
going to start seeing more drug trade crossing through our 
ports unless we invest in some infrastructure to check not only 
the trucks but the passenger vehicles as well.
    Ms. McSally. Thanks.
    Mr. Del Cueto.
    Mr. Del Cueto. One of the big things we need to focus on is 
these policies. We need to change and start enforcing some of 
these policies that we have on the books. Currently, like other 
people have noted, the illegal immigrants that enter in 
Arizona, the numbers have gone down. But like I stated earlier, 
those numbers have gone down because the drug cartels are the 
ones that are running everything on the south side.
    The Tucson sector currently still sits well over 50 percent 
of all the drug seizures in the entire country. That is an 
outstanding number. We need to take care of that.
    What I mean by some of these policies is, first of all, the 
catch-and-release program that has been so much talked about. 
There is no disincentive for Central Americans currently to 
enter the United States. Currently we can have a group, a 
family--and I am going to give you an example. You can have a 
family of people from Central America that come. They turn 
themselves in, which is what is happening in Texas. The numbers 
in Texas are going up because they are turning themselves in. 
We are not catching these individuals.
    So we have these Central Americans who are turning 
themselves in. They come to the Border Patrol, we take them 
into our facilities. We do the proper checks to see if they 
have any prior criminal history within the United States, but 
we are not aware of any history that they might have in Central 
America. So what happens with these individuals is they are 
turned over to ICE, and ICE then releases them into our 
communities. They are going to all different parts of the 
United States. They tell them that they have to come back and 
report to an immigration office. These people are never 
reporting back to the immigration office.
    So what we have done with these policies is we have 
facilitated an open door for these Central Americans, and we 
have no idea what crimes they have committed in their country. 
We have no idea if they can be rapists, murderers, ax 
murderers. We just don't know who these people are, and we have 
facilitated a way for them to remain in this country. They have 
ties with who knows who back in Central America.
    That is where we need to start, with these policies that 
are on the books that are being pushed. They need to stop. We 
don't know how many people they have released. I think that is 
a number that should be asked of ICE. We don't know how many of 
these Central Americans with possible criminal backgrounds in 
their own country that we have no idea where they are at.
    Ms. McSally. Okay, thanks.
    Back to those who are trying to evade, the cartels that are 
bringing drugs across the border, I want to hear your comments 
on, do we need additional barriers, additional technology or 
assets? You have mentioned the agents, but what else do you 
think would address those who are trying to evade you?
    Mr. Del Cueto. You hear so much talk publicly about this 
wall, and some people say the wall works, some people say that 
the wall doesn't work. Well, it is not just the wall that we 
need. Obviously, a wall is a huge deterrent. We would see how 
it was back in the mid-'90s in the Douglas area alone, where it 
was easier to cross the border because there was less of a wall 
there, less of a barrier. The barrier works.
    We need, obviously, more agents on the ground. We need 
agents to be able to move back and forth, not just stay on the 
border, on the line itself.
    We do need more technology.
    We need more vehicles. The vehicles get treated really 
rough at times, but it is because that is just the nature of 
the job. We definitely need more vehicles.
    There is just a lot of different things that we would need, 
vehicles, night vision goggles, sensors. It is a mass amount 
that we need out there.
    Ms. McSally. Okay, great. Thank you.
    Mr. Pearce.
    Mr. Pearce. Thank you very much. I appreciate all of your 
testimony.
    Mr. Del Cueto, I really appreciate the straightforwardness. 
That is something that I think we in Washington hunger for. But 
when you talk to those people up the chains of command, 
frankly, it gets muddled, and outright untruths are told. So 
having you sit here and tell the truth as you see it from the 
ground level is extremely valuable.
    I am going to come back with some hardball questions in a 
minute for you, but they are not directed at you. It is the 
decisions made somewhere above you and, frankly, I can't get 
answers. So I will come back, but don't take them personally 
because I really do appreciate that you are saying things that 
we all believe, that the cartels own the border. That is very 
powerful for someone inside an agency to say that, the agency 
that is charged with it.
    Mr. Ortega, I want to do a little housekeeping on you. You 
were saying that you would disagree with the other two, that 
the border is secure and that you feel safe. Now, when the 
Sheriff said, well, the city is safe but it is not in the rural 
areas, you are shaking your head.
    The headshakes don't show up in the transcript, frankly. So 
in Washington, they are going to quote you, ``No, this man says 
it is okay.'' So could you confirm just verbally that you would 
agree that the rural areas are struggling for feeling safe 
while your area feels okay as it is?
    Mr. Del Cueto. Yes, sir, that is correct.
    Mr. Pearce. Okay. All right. So we got you on the record. 
Because people will take your one sentence and that will be the 
only thing they will extract out of this entire hearing. So 
again, I appreciate the recognition.
    Now, Mr. Del Cueto, you say that you would use 5,000 more 
people. I was there--and keep in mind that we had to fight the 
Bush administration equally as hard as this one. It is not a 
Republican/Democrat issue. It is Washington saying everything 
is okay and we are going to do it this way, and the people out 
in the field are going to say they are lying or cheating or 
stealing or something.
    So I watched as we put 10,000 more agents--we doubled the 
patrol, from 10,000-something, 12,000, up to about 23,000. Yet, 
the general consensus of people who live on the Mexico side of 
the border said it didn't change things a bit.
    Tell me how 5,000 people would solve that or why that 
10,000 didn't, if you can. Again, I know this should be coming 
from way high up, but they just refuse to answer the question, 
frankly, in the hearings up there.
    Mr. Del Cueto. So, it is a 2-part question. I will first 
start with the mass amounts of hirings that we did, with the 
extra 10,000 that you mentioned. A lot of this issue is the 
Border Patrol grew but other agencies didn't grow. So what 
happened many times is these same agents that we hired within 
the Patrol were farmed out to other agencies. There were agents 
farmed out to prosecutions within the States. There were also 
agents that were farmed out to the ports of entry. Some of our 
canines were sent to the ports of entry. So a lot of the new 
agents that came in were farmed out to other agencies, and at 
the same time they developed other programs. So I believe that 
is where the top-heaviness comes in. They put too many agents 
in other programs that aren't really line agents.
    So when we ask for these additional 5,000 agents, that is 
why it is a mixture of the policies and the internal business 
within the Border Patrol where they need to know how to deploy 
these agents and do away with some of these programs and maybe 
some of these top-heavy agency programs that we do have.
    Mr. Pearce. Okay. Now, from your testimony--and you don't 
have to answer the next question. Feel free to just say, hey, I 
am not touching that. But from your testimony, it seems that 
you were critical of the amnesty program back under Reagan 
because we did not do anything to secure the border. So my 
question is--and keep in mind that Washington, from our side of 
the table, only talks big issues. They don't ever get down and 
really discuss what we are discussing here today.
    So amnesty versus not amnesty. Is amnesty productive, or is 
it simply an encouragement of other people, that if I get there 
illegally, they will fix it? You don't have to answer if you 
don't want to.
    Mr. Del Cueto. To help you out, you did tell me I didn't 
have to answer it, but unfortunately I am going to go ahead and 
answer it.
    Mr. Pearce. Nice.
    Mr. Del Cueto. It does not help. I lived in Douglas, like I 
said before, and I saw many people that would cross into 
Douglas that never lived here, that never worked here, and they 
would pay different business owners not just in Douglas I would 
say, but business owners within the United States so they can 
get paperwork stating that they had been here, and then those 
individuals, a lot of them were able to obtain amnesty. Some of 
the individuals that were actually here and fit in the mold for 
the amnesty program never did because they couldn't get the 
$5,000 to whoever employed them at that point to give them 
documentation.
    Mr. Pearce. So in your estimation, the great resource from 
the cartels came from drug smuggling. Now it sounds like human 
smuggling probably eclipses that and drugs are a secondary 
revenue producer. What is your opinion of that?
    Mr. Del Cueto. Well, I think it is both. Like I said, 
through intel that we acquire when we catch different 
individuals in these areas, the Border Patrol has received 
information and we know that a lot of these individuals, they 
run the drug smuggling and the people smuggling.
    So, yes, the drugs are the ones that are making most of the 
money.
    Mr. Pearce. The next question is not meant to trick you. I 
will come over to you, Sheriff. But it is intended instead, I 
think, to reflect the culture that ties the hands of our Border 
Patrol Agents. I have sat out there on the border in the night. 
I think that our agents could and would do the deal, but I 
think people above them give them policies like the catch-and-
release policy. So again, these are not very easy questions. 
You can dodge it if you want to.
    I read somewhere that there are approximately 1,300 Border 
Patrol Agents in Cochise County, more or less?
    Sheriff Dannels. That is correct.
    Mr. Pearce. That is correct.
    Sheriff Dannels. We have 1,300 Border Patrol Agents----
    Mr. Pearce. I didn't get to my question yet. You were going 
to take the easy road. I am not going to let you. Excuse me.
    [Laughter.]
    Mr. Pearce. If you had 1,300 people under your command, 
could you secure the border there in Cochise County?
    Sheriff Dannels. Yes.
    Mr. Pearce. All right. So just to repeat what we did, 
because you are getting counseled there--that's good. It is 
trying to protect us all. I will probably need counsel at this 
stage myself.
    But what I ask is if he could secure the border with 1,300 
people, and he says yes. Now, I tend to agree that if--and it 
is not your people. Again, it is the process and it is the 
system. If you had your 1,300 people and we turned you loose 
and said secure the border, I think you could. I don't know 
that the process, I don't know that the system is ever going to 
let you do it.
    So many times I say the only solution is to take the 
resources and let them work for local elected law officials. 
Right now, local citizens have no recourse at all. They get 
frustrated. They get angry. They speak to people like us. They 
get us stirred up. We come out and we make you all angry, and 
it is because nobody is accountable.
    I sincerely believe because, again, I have been on the 
border with the agents out there with their boots on the 
ground, and I know the heart they have to do it, and they talk 
the same way that you talk here today. So I have a great 
appreciation and a great love I have for those agents is 
dispelled because the system is plain keeping it from working. 
So always I just say if a local sheriff had the responsibility 
and he had your resources, he could do it, and if he didn't, 
they could un-elect him. But right now, the system cannot 
respond. So somewhere a solution has to reach that level.
    A couple more questions on process, Mr. Del Cueto. So I 
have heard--I don't know if it is just scuttlebutt or 
whatever--that if people are headed south, if the footprints 
are headed south, somebody that has created a crime, they just 
don't pursue them because they are headed south and they are 
probably going to get there before we get them. That is 
something we hear a lot in New Mexico. Maybe it is true, maybe 
it is not. Maybe it is just those guys over in El Paso.
    Mr. Del Cueto. I can't testify to that one. I can tell you 
that here, I myself work the field and I have followed 
footprints all the way south. Some of the issues that we have 
is we don't know how many are in the footprint. So what you do 
is you chase a group, whether it be headed north or be headed 
south, and these individuals walk in a line. So if you can 
count 5 footprints, you would say 5 to 10 people.
    I remember chasing a group where I counted 15 footprints, 
and I called back and I said we have 20-plus. We continued 
chasing this group, and when we finally apprehended it, it was 
a group of 60 people. So when you are saying 20 plus 60, that 
is a big difference between 20-plus. Most people say 20-plus 
and it is 23, 24 people. In this instance it was 60 
individuals, and that is a huge deal.
    To touch back on having more agents and Mr. Dannels said 
that he could control it with 1,300 agents, a lot of the thing 
is some of these agents are put in VCO positions, so they need 
to take care of the vehicles. A lot of these agents are put in 
processing; they need to process. We have different agents that 
are detailed to different positions.
    I will state down in Cochise County there are agents that, 
before we used to work on different areas of the border--I 
understand the ranchers' concerns. I understand that there are 
ranchers who need more agents in their area. So what that has 
caused, it has caused a lot of the agents to not work certain 
areas, and you have some agents bunched up near the ranchers. 
So now what has happened is you have left other areas more 
porous.
    It was just recently in the news, in Cochise County alone 2 
vehicles came through. We never apprehended those vehicles. We 
don't know what was in those vehicles. We don't know where 
those vehicles are. At that point it was limited resources that 
were available in that area. The majority of these agents were 
stationed over near the ranchers.
    Mr. Pearce. Okay. I just have 1 follow-up to that and I 
will put you back. If you go to a second round, I will 
obviously have a couple more questions here.
    So the idea has also been pitched out in New Mexico and 
local sheriffs have said it is true, I don't know that it is 
true, but the idea that Border Patrol just doesn't seek out or 
prosecute or hold people with less than a certain amount of 
drugs, and that number usually varies somewhere between 120 and 
150 pounds, maybe more. Is that the thing that you find in your 
directives, or is that something you don't want to comment on? 
Again, feel free not to comment. I am not trying to do anything 
to your career.
    Mr. Del Cueto. Well, I have been doing this for quite some 
time, so I think my career and moving up in the Border Patrol 
is pretty much shot already.
    Mr. Pearce. It sounds like we both started the same.
    [Laughter.]
    Mr. Del Cueto. I appreciate you putting the nail in the 
coffin on this one.
    [Laughter.]
    Mr. Pearce. No sweat.
    Mr. Del Cueto. There is many times when we do arrest 
individuals, and we do call the prosecutor, and the prosecutor 
says it fails to meet prosecution guidelines. I will say that.
    Mr. Pearce. All right.
    Madam Chairwoman, thank you very much. I appreciate this. 
This is very good information, and I yield back.
    Ms. McSally. Great, thanks.
    Okay, we are going to do another round here.
    Sheriff Dannels, it was in your written testimony. I want 
to allow you an opportunity to elaborate on the use of 
spotters; and, actually, Mr. Del Cueto as well. This is 
something we have heard from the community, from multiple law 
enforcement agencies, that the cartels are using spotters on 
hilltops with often better communications than our guys have, 
encrypted, solar panels, and sometimes they are up there for 30 
days at a time. If we can get them, it is very difficult to 
prosecute them because you can't connect them to a specific 
drug load, and so they are often just processed as somebody who 
is just here illegally.
    This was brought to our attention. We actually introduced a 
bill related to spotter activity, simply making it a Federal 
crime to be a spotter, and aiding and abetting cartel 
operations in this way. So I just want to highlight your 
thoughts, and also Mr. Del Cueto, on the trends that you have 
seen related to spotters.
    Sheriff Dannels. Representative McSally, you are exactly 
right. When it comes to catching them, that is the biggest 
obstacle. Our helicopter sees them up on the top of the 
mountains. It is very difficult to see them. When you do see 
them, just catch them is the other half of it. They run off and 
it is very, very hard to catch them. I have one rancher down 
there that actually has a camera that looks onto the Mexico 
side. It is a border ranch. There is a house on top of the 
mountain, and that scouter watches everything on that Southwest 
Border in that area and directs that traffic around. We watch 
them all the time with that camera.
    But we know they are in Cochise. Our ranch patrol deputies 
ride their horses, ride right up on them, and they run, and we 
get them. It is tough, very tough. I will say this, though, as 
a solution-based thought, that our new border team that was put 
together, in the first 2 years they had 400 apprehensions. This 
is a team of about 4 Border Patrol Agents and about 4 deputies 
that work part-time that have been tremendous in their efforts 
to get these smugglers, to get these scouts off these 
mountains, out of these ranchlands. So, 400. About half of that 
was just pure illegals that were turned over to Border Patrol. 
The other half were smugglers, burglar suspects, had broke into 
homes, you name it. We have 100 percent prosecution at the 
State level.
    One thing that we did here a few months ago, the county 
attorney and I, we sat down with Arizona's attorney general and 
said you have to step up the game here, you have to help us. I 
mean, our juvenile prosecutions are financially hurting us, 
straining us. The answer was I can't, there are no teeth in the 
law on the Federal side, which obviously puts the burden back 
onto local, where there is no financial support for that.
    But it is the right thing to do. In the last few months I 
believe it has been, we have had 51 go through my jail, 
juvenile backpackers. That is sad, it is very sad, but it is 
real in our county. I know Yuma County, Pima, Santa Cruz, they 
are dealing with the same thing I am. That is where the local 
government has to be supported.
    Or the other thing we were talking about with the Arizona 
attorney was you have to hire more prosecutors. I mean, you 
can't put just the enforcement component, support that and not 
the jails, the defense, the prosecution. It all has to be a 
balanced approach in the criminal justice system, and then the 
education and prevention side of it too.
    Ms. McSally. Thank you.
    Mr. Del Cueto.
    Mr. Del Cueto. Can you repeat the question, please?
    Ms. McSally. Yes, sure, related to scouts and spotters, are 
you seeing any trends?
    Mr. Del Cueto. Yes. Working this job since 2003, I would 
like to use examples. I am going to give you an example. 
Approximately 3 years ago we apprehended a few individuals, and 
they had 1,600 pounds of marijuana. When we apprehended these 
individuals, they were about 20 miles into the United States. 
We debriefed, we spoke to them, and they did admit that there 
was close to 15 different spotters along that area. So in a 20-
mile span, there were 15 different spotters. I think 1 spotter 
is too many. Fifteen spotters? That is just ridiculous.
    These spotters, they do stay up there for months at a time. 
They have different individuals both from the Mexican side and 
citizens of this country that go up these hills, and they 
provide them with food, they provide them with drugs, and we 
have information that at times they even provide them with 
women who go up there and take care of them while they are 
waiting for the drugs to come through. That is just amazing, 
and I think it is unacceptable as a Border Patrol Agent. It is 
unacceptable as a union leader for the agents that I represent, 
and frankly it should be unacceptable by any citizen of this 
country.
    Ms. McSally. Are you guys told not to go when you know they 
are up there, not to go up there and get them? Or when you get 
them, your hands are tied as to what to do with them?
    Mr. Del Cueto. It is just hard to determine where they are 
at. That is the problem. It is hard to determine exactly where 
they are at. Many times when we go to these areas, by the time 
we hump up the hill, they hear us coming and they are humping 
down the other side. So it is cat and mouse every day.
    Ms. McSally. It sounds like a little air support may be 
helpful for situational awareness during operations like that.
    Mr. Del Cueto. That would be nice. We understand it is 
limited on air support in certain areas also. We need a lot of 
help out there.
    Ms. McSally. Thanks.
    I want to get everybody's opinions on interior checkpoints. 
I know there are going to be differences of opinion within this 
panel and with the next panel, but I want to give everybody the 
opportunity to share their perspectives on how those impact the 
security operations or any other impacts related to your roles.
    Sheriff Dannels.
    Sheriff Dannels. Well, it has become a cultural norm in our 
county to have to go through a checkpoint and claim your 
citizenship as an American, and I hear that all the time from 
the citizens, how that is. Though it is real to us, it may not 
be real to downtown Maricopa County or other parts of this 
country. It is real to us.
    The other thing to a local sheriff that is important is the 
fact that every time you establish an international port away 
from the border--I will give you an example, the Wet Stone 
area, which is north of Sierra Vista. That is the international 
port of Wet Stone. What happens is the smugglers know when the 
checkpoint is open based on scouting reports. When it is open, 
they drop their smuggling product, whether it be humans or 
dope, and they go around the checkpoint into these communities, 
and guess who gets called on? We do. Again, another burden on 
us, and it is tough for us. We work closely with the Border 
Patrol trying to get out there. We have air support that helps 
us. But again, it is tough, challenging.
    The biggest complaint I hear is that since the border is 
not secure in the rural parts, and then we have secondary 
checkpoints, it is kind of counterproductive. The primary focus 
should be on the border. Once that is secured to a point where 
the stakeholders are satisfied--I don't know if it will ever be 
perfect. I have never seen perfect on our border. I don't know 
if it ever will be. But then we can work on secondary.
    So it is a big challenge, a lot of complaints on it, to be 
honest with you.
    Ms. McSally. Mayor Ortega.
    Mr. Ortega. I agree with Sheriff Dannels. First, they are 
not open 24/7. If it is raining or if sometimes the weather is 
inclement, they close the checkpoints. But it does put a burden 
on the communities surrounding the checkpoints. So I agree with 
Sheriff Dannels, and I would rather see the agents closer to 
the border and stopping the problems at the border, versus 25 
or 40 miles out.
    Ms. McSally. Mr. Del Cueto.
    Mr. Del Cueto. If members of this panel and different 
members of law enforcement have said before that they do not 
believe that the border will ever be secure, and you bring all 
the agents down to the border, if this border is never going to 
be secure, what do you do with the people who do go around us? 
That is why these checkpoints are important. You want to 
sacrifice having a checkpoint in these communities, send all 
the agents to the border. What happens if something gets 
through us? What happens when they go through these roads, 
through these main roads down on 90, on the main roads over 
here off of Wilcox and the Tombstone area, Nogales? They serve 
a purpose. They serve a good purpose. They help derail. They 
help deter some of the traffic that comes through. There was a 
time when we would see an astronomical amount of vehicles up on 
I-10 headed towards Phoenix. They serve a purpose.
    Ms. McSally. I would like to follow up on that, and then I 
will hand it over to Mr. Pearce. My understanding from talking 
to individuals within Border Patrol and the community, this 
defense-in-depth, which includes the interior checkpoints in 
both of our districts, because you have them in New Mexico as 
well, was based originally on the strategy of pushing the 
activity into the rural areas, like we talked about, but then 
not having enough resources to be able to really intercept it 
very quickly. With limited resources, the best way to address 
that is to figure out how to funnel the illegal activity into a 
place that we can monitor and intercept at a time and place of 
our choosing. That is the way the strategy has been described 
to me.
    I may not be parroting it back perfectly, but I have heard 
again from individuals from leadership positions in CBP that 
they feel they have seconds to minutes to intercept activity in 
urban areas, and they say hours to days to intercept it in 
rural areas. So therefore this defense-in-depth strategy, which 
includes the interior checkpoints, what was described to me is 
that the primary role of the interior checkpoints is to make 
the cartels go around them. I mean, the low-level criminals and 
others are going to get the Darwin award by coming through a 
known law enforcement checkpoint with drugs, which I still 
don't totally understand. But those who are actually the 
serious traffickers are going to go around, which then again 
pushes the activity into maybe more difficult terrain, which 
might be easier for you all to corner them.
    The challenge with all that that we will hear--we have 
heard from some of this panel, and we will hear from the second 
panel. I know we won't have the interaction, but that all might 
sound reasonable if we didn't have people living in those areas 
between where they cross and where you can eventually intercept 
them, 50 or 100 miles inland. So it is that public safety 
threat to those that are living in those areas that are then 
having the traffic funneled into them which is the main point 
of feedback that I am getting really across the board.
    So I guess I hear what you are saying, that if you don't 
have enough resources, that maybe you do need to fall back and 
have--sorry to use the football analogy you all hate, but 
everybody is playing safety instead of being at the line of 
scrimmage. But if you had the resources that you needed, if we 
were using intelligence-driven operations, if we were detecting 
the cartel activity and knowing their lines of activity, and 
being nimble, because as soon as you squeeze them they move 
somewhere else, they become much more nimble than we are 
generally because we are more bureaucratic.
    So if you had all those resources and you had the ability, 
the vehicles, the ATVs, the horses, the air assets to be able 
to quickly intercept them right at the border, would you then 
agree--I am not trying to get you to agree, but I am trying to 
find areas of common ground. If we had the resources, would you 
agree that it is better to intercept them at the border with 
maybe a couple of safeties, as opposed to our fallback, where 
we are right now, which is based on a lack of resources? Can 
you understand the concerns that we have as law enforcement in 
the community that the public safety challenge happens because 
of all that space is ceded, and that is what creates the 
threats to individuals in our community, if we are focused on 
intercepting so far inland?
    Mr. Del Cueto. I agree with what you say, but I think one 
of the big things that you did say is you still need the safety 
to catch that pass, and that is the big deal.
    Ms. McSally. A couple of them. I think you have 2 on a 
team, right?
    Mr. Del Cueto. You still need those.
    Ms. McSally. Right.
    Mr. Del Cueto. I mean, honestly, that is what you still 
need.
    Ms. McSally. Okay. Would you consider the checkpoints to be 
those if we had the resources to intercept quickly and have you 
guys be able to nimbly intercept at the border? Would you still 
think we would need these interior checkpoints?
    Mr. Del Cueto. Yes, because things are still going to get 
through, and these checkpoints help with a lot of that. We have 
noticed that with the checkpoints there, our apprehensions have 
helped considerably in those areas. Yes, they move to more 
rural areas, but the agents are out there to intercept those 
spots. I mean, pretty much what we are saying is if we get 
enough people at the border, then we don't need the 
checkpoints. But we are still going to have things that go 
through. So if you were to tell me get rid of some of these 
checkpoints, first and foremost, it is not up to me to get rid 
of. Second of all, we still need some of these checkpoints.
    So I am not going to sit here and agree we need to get rid 
of them. We still need some of them. Which ones they are, that 
would be up to the agency to decide on that. But I can tell you 
that some of the issues we have at these checkpoints, as I 
understand it, the people that live in these areas are fed up 
with the checkpoints. A lot of times when they come through 
these checkpoints it would make it so much easier both on them 
and on the agent. It is a simple ``Are you a United States 
citizen?'' ``Yes, I am.'' ``Have a good day.'' A lot of times 
they will refuse to roll down their window, they will get 
confrontational with the agent, there is a lot of back and 
forth.
    These agents, like we said earlier, they live within the 
communities too. These agents are just out there doing their 
job, and that is what a lot of the people need to understand. 
They are not here to give anyone a hard time. They are here to 
do their job, that is it. They are here to protect our borders. 
They are here to make sure that whatever gets through the 
border is properly intercepted, it is properly screened, and 
that our communities are not just safer along the border but 
throughout the United States. That is the agents' job at these 
checkpoints.
    Ms. McSally. Thanks.
    Mr. Pearce.
    Mr. Pearce. Thank you.
    I thought I was going to move off of Mr. Del Cueto, but no 
such luck, because you are saying such stimulating things. I 
might listen or might not listen to the words you are saying 
because, frankly, I had a much different opinion about the 
interior checkpoints. But I can hear the passion and the 
intensity, and when I see someone who has established the 
credibility here today that you have established with this 
group, then I pay attention when people are invested in 
something. So we might not agree on it, but we would sit at the 
table if it were just this group trying to solve the problem.
    I am going to switch over to the sheriff. So people who 
want to push the argument that the border is secure, and there 
are a lot in Washington who want to push that, I have a simple 
question: Is the price of drugs going up dramatically on the 
street? Because really, drugs are like everything else. They 
are a commodity, and if the supply is being squeezed off as 
dramatically as is being talked about in Washington, then the 
price would be skyrocketing. So are you seeing a skyrocketing 
price in drugs?
    Sheriff Dannels. Or not. Actually with heroin, it has 
actually gone down.
    Mr. Pearce. So there is too much supply. It is coming in 
too readily and the price is going down.
    Sheriff Dannels. Correct.
    Mr. Pearce. Now, the access through public lands is, again, 
a heated debate. The President just drew an Executive Order 
declaring much of the border area and New Mexico as a monument, 
wilderness, whatever. They are all the same. Is the Organ Pipe 
National Monument, has that still got the signs up there 
requesting people not to go in there, American citizens, saying 
you should not go in there because it is too dangerous?
    Sheriff Dannels. I haven't been on that.
    Mr. Pearce. Mr. Del Cueto, do you happen to know that? So 
we are getting a head shake out from the audience. Are these 
guys respectable behind you? I am just joking, but I am getting 
head shakes out there.
    Mr. Del Cueto. I don't know who those people are.
    Mr. Pearce. Okay. You are not identifying them, and they 
can't identify you at this stage.
    Mr. Del Cueto. I don't know if it is still there yet. I 
mean, I honestly don't know.
    Mr. Pearce. But the idea is it is still very dangerous in 
the Organ Pipes.
    Mr. Del Cueto. Correct. Somebody forgot to tell the drug 
smugglers and the illegal aliens that you are not supposed to 
walk on that land.
    Mr. Pearce. Yes, they can't get on the wilderness area.
    When I was the Chair of the Subcommittee on National Parks, 
we toured a lot of these. When we went out to the redwood 
forest, whatever that is out there, they actually are planting 
marijuana back in the forest, in the Sequoia National Forest so 
far that they just tell backpackers that you can't go beyond 
here because you are going to hit a tripwire and the shotgun 
they have laying out there on the trail is going to blow your 
head off. So they actually stop the traffic because we grow so 
much marijuana in our National forest that the law enforcement 
officers can't get there. You, Sheriff, you don't have free 
access to chase people who are doing illegal stuff. You have to 
go through some bureaucratic process to go in and check illegal 
activity.
    Sheriff Dannels. Well, in our forest lands, we don't ask. 
If there is a crime, we go, we go, whether it be an accident, 
whether it be a search-and-rescue.
    Mr. Pearce. Okay. But say there is not a crime. Say you 
have a suspicion that they are making methamphetamine out there 
in the middle of nowhere. Can you just go out?
    Sheriff Dannels. We do, yes.
    Mr. Pearce. Okay.
    Sheriff Dannels. It is part of Cochise County. I think 
every sheriff you ask would say the same thing, that if there 
is a crime within his county, in the middle of a military 
reservation, we go, we go.
    Mr. Pearce. Okay. But I am asking if you don't know there 
is a crime, can you go out there just to investigate?
    Sheriff Dannels. If we don't know there is a crime?
    Mr. Pearce. If you suspect, if you have somebody coming 
north out of the area and you suspect that there is probably 
something out there that needs to be looked at, do you just go 
on out there, or do you have to clear it with an agency?
    Sheriff Dannels. We go out there.
    Mr. Pearce. Okay. That is a different story than I hear 
most of the time.
    Sheriff Dannels. Yes, we do. This is where it is important 
where the locals, working with their Federal partners and their 
Federal leaders within the county boundaries, we all know each 
other very well and there is enough respect that we just go. We 
work close with them. If we need to get them involved, we will. 
But we don't let that stop us, is my point to this whole 
conversation.
    Mr. Pearce. Okay.
    Mr. Del Cueto, just an observation. I am working my way 
through the list, so I am bouncing around a little bit here. 
But I was in the hearing when the Department of Homeland 
Security Secretary Napolitano testified in Congress, and we had 
probably 8 border sheriffs disputing her testimony, and she 
simply said they are lying. I mean, that was really, really, 
really not a good position for her to establish because I keep 
hearing the truth out here, and I am hearing the truth from 
here. But that is what makes it very difficult in Washington, 
that people get to a certain level and they have the 
established things that they are going to say regardless of 
what the truth is.
    Sheriff Sam Yago, I remember him. He was probably 90 at 
that point. He was there to testify he was in law enforcement 
for 50 years and was dramatic, dramatic to hear that exchange 
where she just said you can't trust him. It was not good.
    Would drones help you out when you are going up the side of 
the hill and they are going down the other side? The drone 
could be sitting up here so you would have somebody waiting on 
the other side and could see where they are going? I mean, that 
is what we are doing in Afghanistan, right?
    Mr. Del Cueto. Right. The bottom line, though, is we could 
have the drones up there, we could have drones in certain 
areas, but it is getting the manpower to go out there and 
arrest these individuals that the drones are seeing. That seems 
to be a big problem.
    Mr. Pearce. Okay.
    Mr. Del Cueto. Like I said earlier, a lot of our agents are 
farmed out.
    Mr. Pearce. So those farm-outs, we discussed that a minute 
ago. We went from 10,000, 12,000, up to 23,000 more or less. 
Are those productive farm-outs, or would they be better off 
brought back and put on the border, like I would recommend? But 
it might not be a good idea. What is your internal view?
    Mr. Del Cueto. On that, you would have to speak to the 
agencies, speak to the other agencies and the agencies we are 
farming them out to. So I know there are agents that are farmed 
out at the ports. There are some agents that are farmed out for 
DEA. There are agents that are farmed out at the prosecutor's 
office.
    Mr. Pearce. Right. So again, as I would visit with agents 
out in the field they said, okay, I spend about 3 hours a day 
on the border, the rest of the time is in paperwork. If I catch 
somebody, it takes me 6 or 7 hours to do the paperwork. Is that 
more or less accurate even if the numbers change pretty 
dramatically, that you catch them and you have to go in and do 
the paperwork?
    Mr. Del Cueto. It depends on the individuals we catch. On 
the average, you never know. It just depends on if they have 
priors. Obviously with some of these catch-and-release, you are 
not spending much time doing paperwork.
    Mr. Pearce. Because it seems like it takes a very special 
person to be there on the border, and then we put you on 
paperwork, which is not so special. I mean, I could do 
paperwork. I couldn't do your job, but I could do the 
paperwork. We take you with valuable, valuable capabilities and 
put you in doing what a clerk could do, frankly. I know you 
have to do some legal things, but----
    Mr. Del Cueto. Right.
    Mr. Pearce. So is that a possibility that we could 
redirect?
    Mr. Del Cueto. That is one of the reasons I spoke about the 
FOBs. I know a lot of money has been spent on these FOBs. They 
are in remote areas. Many times when these agents apprehend 
individuals in these remote areas, it would be easily 
accessible to go to these FOBs and do the processing from the 
FOB and do all the paperwork there. That way you are still 
close to the border and are able to move around. I think that 
would be a huge asset.
    Mr. Pearce. Do you ever have the top managers in the 
department come down and ask you if you all had to solve the 
problems of assets and how to secure the border? Do you ever 
have the Secretary of Homeland Security come down here and ask 
you all sitting right there?
    Mr. Del Cueto. Commissioner Kerlikowske was here last week 
and it was the first time I had ever seen him in the Tucson 
sector since he has been in that position.
    Mr. Pearce. Does he ask you what it would take? I mean, if 
I was there, I guarantee you, if I was running a business that 
required securing the border, I would be out here talking to 
people every day and making adjustments and putting the 
linebackers in or whatever the Chairwoman said.
    Mr. Del Cueto. Honestly, he spoke and he answered 3 
questions, and that was it.
    Mr. Pearce. That is again what I find. The system is broken 
from Congress all the way across. Every system in Washington is 
absolutely broken because they don't ask the people who are 
there.
    I want to wrap up with 1 additional question. Mayor, I have 
2 questions actually. I am thinking about spending a little bit 
of money before I fly back to Washington this evening, and I 
may run out and get a haircut, so I need to know who you get 
your haircuts from.
    [Laughter.]
    Mr. Pearce. I will do that in Douglas.
    Mr. Ortega. My wife gives me mine.
    Mr. Pearce. Oh, then I guess I won't do that.
    [Laughter.]
    Mr. Pearce. I will go to the airport and get a shoe shine 
instead.
    [Laughter.]
    Mr. Pearce. So you hear the push. I know that business is a 
big deal, and I am a business guy, and I really respect that 
and appreciate that, and I appreciate your voice here today. Do 
you find that you are a little bit alarmed by the testimony 
coming around you that their testimony might influence people 
that they want to secure the border too much and they begin to 
interrupt the economic activity, or do you see that all can be 
done, we can have those wide-open gates and still secure the 
border? Is that a thing that you get alarmed about? Do you see 
where I am coming from? Because if they dominate the 
discussions and yours is left off on the side, then we begin to 
squeeze down business for security. So tell me a little bit 
about where you are there, and that will be the last question I 
have, Madam Chair.
    Mr. Ortega. Yes. Actually, I am concerned with this, 
because I think a lot of times, especially election years, the 
border is painted in a very negative tone. There are a lot of 
good things that happen within our own communities culturally, 
with sports, with so many events, with the goods that are 
crossing on a daily basis that support our economy locally but 
also the economy of the United States of America. We are 
Americans. I think this is payback a bit for protecting the 
Phoenixes, the Tucsons, but there are a lot of us that live at 
the border, have lived there for generations, and sometimes I 
don't think we feel quite like Americans because we are kind-
of-like ignored in many cases and we will deal with the problem 
behind us, but what about on the front line?
    But we worry about commerce. We worry about people coming 
to visit. We are losing population in Cochise County, and we 
encourage people to come visit. Congressman McSally has been to 
Douglas many times. I don't think she has ever had any issues. 
We have gone out to many fine Mexican restaurants and never 
worry about things.
    But I do understand the issues of the outlying areas as 
well.
    Mr. Pearce. Yes, you don't disregard them.
    Mr. Ortega. No, not at all.
    Mr. Pearce. It is just that you want an equal seat at the 
table saying, fine, let's solve the problem, but also remember 
that commerce has got to occur.
    Mr. Ortega. Yes, sir. That is why I appreciate being 
invited here today, so you hear the other side of the story. 
Thank you.
    Mr. Pearce. I grew up in 4-H and made my way through 
college showing pigs, and all I have to say is if you move 
1,500 cows a day across that border, you are doing something 
right. So keep moving those cows.
    Mr. Ortega. Thank you.
    Ms. McSally. Thanks. As a follow-up, that is why you are 
here, why all of you are here, and I appreciate it.
    One last quick question, Mr. Del Cueto, before we go to the 
second panel. I just want to give you the opportunity. You 
mentioned agents moving into places in order to protect 
ranchers. Can you just give your perspective on the 
relationship between the Border Patrol Agents and ranchers 
right now, anything that could improve those relationships and 
the communication?
    Mr. Del Cueto. Well, you know, I work on the Tohono O'odham 
Reservation, so I work with some of the ranchers down there. 
But like I said, a lot of my constituents work in that area and 
throughout Cochise County, and it is really not banging heads 
with the ranchers. The agents are out there doing their jobs--
--
    Ms. McSally. It is not, or it is?
    Mr. Del Cueto. It is not a banging their heads is what I am 
getting from the agents. But there are certain areas that are 
closed off to Border Patrol Agents. That is the message that is 
being sent to them, that they can't work certain areas. So if 
you track a group near the border into these individuals' 
lands, you can't go in their land. So what you have to do is 
you have to drive around the entire area of their land and try 
to intercept them on the northern part. By the time you get 
there, a lot of these individuals are already gone, and that is 
a serious problem.
    Another thing is if we encounter some of these individuals 
and we go on their land because we are actively following this 
group, and God forbid something would happen on this land where 
we would need air support or we would need medical attention, 
not just for ourselves but also to the individuals we would 
apprehend, it would be very limited and it would be very 
difficult to get the emergency vehicles on this land to assist 
any kind of injured individual.
    Ms. McSally. Great. Thank you.
    Okay, we are done with Panel 1. Thanks for everybody's 
patience. I want to thank the witnesses for your testimony 
today and for the good discussion and questions. There may be 
some follow-up questions, I don't know. If you think of some, 
per procedures, they will submit them in writing, and then we 
will ask you guys to respond in writing if we have those.
    So, with that, I will dismiss the first panel. Thanks for 
your testimony and your time.
    I request that the Clerk prepare the witness table for our 
second panel, and then we will start again.
    [Recess.]
    Ms. McSally. All right, we are going to get started again. 
I am pleased to welcome 5 distinguished witnesses for our 
second panel at today's hearing.
    First, Mr. Dan Bell. He is the president of ZZ Cattle 
Corporation in Nogales, Arizona. Mr. Bell and his family work 
on his ranch. The ranch has been in his family since 1938, and 
they share a 10-mile boundary line with the U.S.-Mexico border. 
He has also served as the president of the Southern Arizona 
Cattleman's Protective Association and is currently serving as 
past president of the Arizona Cattle Growers Association.
    Mr. Mark Adams is the coordinator of Frontera De Cristo, a 
Presbyterian border ministry located in the sister cities of 
Agua Prieta, Sonora, and Douglas, Arizona. Mr. Adams is a 
native of--I should be calling you Pastor Adams, shouldn't I?--
of Clover, South Carolina, and a graduate of Columbia 
Theological Seminary in Decatur, Georgia. He was ordained in 
1998 and has served as the U.S. coordinator of Frontera De 
Cristo since that time.
    Mr. Jaime Chamberlain is the president of Nogales, Arizona-
based J-C Distributing, Inc., an importer of Mexican fruits and 
vegetables. Jaime is the past-chairman of the board of 
directors of the Fresh Produce Association of America and is a 
sponsor member of the Nogales Santa Cruz County Port Authority. 
He was recently appointed by Governor Ducey to the Arizona 
Rural Economic Development Advisory Council and the board of 
directors of the Arizona Mexico Commission, where he serves as 
co-chairman of the Ports and Transportation Infrastructure 
Committee.
    Mrs. Nan Stockholm-Walden serves as the vice president and 
counsel at Farmers Investment Company, the largest pecan 
growing and processing farm in the world, located in Sahuarita, 
Arizona. During her career Nan served as counsel to the U.S. 
Senate Environment and Public Works Committee and Counsel for 
Senator Dan Patrick Moynihan on the Water Resources 
Subcommittee. She was chief of staff for Senator Bill Bradley, 
who served on the Senate Finance and Energy and Natural 
Resources Committees. She has also been an associate vice 
president for Federal relations at the University of Arizona in 
Tucson.
    Mr. Frank Krentz is the son of Rob Krentz, who was 
tragically gunned down as he was trying to help an immigrant in 
2010. Mr. Krentz has been working on the family ranch in 
Cochise County since his graduation from New Mexico State 
University. He is involved with the Apache School Board, the 
Borderlands Group, Arizona Cattle Growers, Brightwater Water 
Conservation District, and the vice president of the Arizona 
Association of Conservation Districts.
    The Chair now recognizes Mr. Bell.

 STATEMENT OF DANIEL G. BELL, PRESIDENT, ZZ CATTLE CORPORATION

    Mr. Bell. Good morning, Chairwoman McSally, Congressman 
Pearce. Thank you for coming down and thank you for holding 
this subcommittee hearing. It is an issue that is very 
important to ranchers who live along the border or even near 
the border.
    Again, my name is Daniel Bell. I am a third-generation 
rancher from Nogales, Arizona. Our family has been ranching the 
same piece of country since the late 1930s. We are located just 
west of the city of Nogales, and we have 10 miles of border 
that we share with Mexico. Of that, 2 miles of that border has 
a bollard-style fence or what you call a border wall. The 
remaining 8 miles is a 4-strand barbed-wire cattle fence.
    Our ranch is subject to the impacts of illegal immigration 
and drug smuggling on a daily basis. In the 1990s, border 
operations in California and Texas essentially forced the 
illegal border traffic into Arizona. As a result, Arizona 
border cities were fortified, forcing the illegal activity onto 
the adjacent ranches, and we began seeing the UDA groups 
increase from groups of 1 or 2 to groups of 50 or more at that 
time.
    As a result of these increases, the ranches were heavily 
impacted. We have damage being done to our fences. Our watering 
facilities were damaged and drained very often. Vehicles are 
stolen, homes are broken into, and valuables are taken. Also 
since then, the frequency of fire has increased on the ranches 
along the border as a result of warming fires that have been 
let go, fires lit by UDAs in distress, and fires lit by drug 
smugglers to create a distraction or diversion.
    We have had a house burned to the ground, and in 2011 
approximately two-thirds of our ranch was burned from 13 
different fires that year. In fact, just this past Tuesday 
there was a fire started by illegals on the western portion of 
our ranch. Border Patrol was able to apprehend the individuals 
and called in the fire. The Forest Service was able to get on 
it rapidly and get it put out.
    Violence in the border region was also on an increase. In 
1998, while apprehending drug smugglers, Border Patrol Agent 
Alexander Kirpnick was murdered in one of our grazing pastures. 
A decade later border agents were taking fire, and some agents 
were even wounded in sniper-style shootings near the border. In 
March 2010, my friend Rob Krentz was murdered on his ranch in 
Cochise County doing what Frank and I still do to this day, 
checking our pastures and checking our cattle.
    One month later, the foreman of the ranch neighboring us in 
Mexico was found murdered and buried in a shallow grave, and he 
had been missing for over a month. Later that year, Border 
Patrol Agent Brian Terry was murdered on our neighbor's ranch 
just to the north of us while he and his team were working to 
rid the area of violent rip crews that were targeting illegal 
aliens and drug smugglers.
    The facts I have just stated were the breaking points that 
caused ranchers along the border to demand more border security 
resources and more boots on the ground. It has been my 
experience that improvement can happen with better access and 
by establishing roads along the international boundary with 
Mexico. Being able to get to the border is paramount if one 
expects to defend it. With better access, a good border road 
system in place, and next-generation technologies like a remote 
video surveillance system and towers that are capable of 
detecting movement within their field of view, as well as radar 
equipment, mobile surveillance-capable vehicles, as well as 
integrated fixed towers that could be put into place, this 
technology can detect movement and focus in on that movement to 
maximize efficiency by verifying if a response is necessary 
and, if so, providing the critical situational awareness 
needed.
    Better access and roads along the border would place law 
enforcement efforts closer to the line of scrimmage and reduce 
the footprint of the illegal activity, which is a positive for 
the environment. Where access is limited and roads are non-
existent, it is extremely important that air assets like 
helicopters are available to insert agents into rugged and 
remote areas and provide support for agents on the ground. 
Fixed-wing aircraft and drones must also be readily available 
to detect and respond to illegal activity and direct law 
enforcement to intercept points and provide a much-needed 
situational awareness.
    Of course, having more boots on the ground in the right 
place at the right time in order to intercept the illegal 
activity is critical.
    Some of the other measures include increasing horse patrols 
in the rugged and remote areas where access is limited; the use 
of military personnel in the border security mission; establish 
better communications and technology not only for law 
enforcement but for the civilians that are out there as well; 
and establish more forward operating bases to cut travel and 
response times to incidents.
    Fund State and Federal attorney offices to ensure timely 
prosecution of border-related offenses, and ensure that the 
judicial resources are in place to provide consequences to 
offenders.
    We need to figure out a set of metrics that will maintain 
resource levels even after we see improvement, because what 
tends to happen is that when you get improvement, we tend to 
pull resources away, and then we are stuck with the same 
problem.
    One of the things that has worked very well for us in the 
Nogales area is the citizen advisory boards and the ranch 
liaison programs, and I also see that as a valuable metric 
because we can see what is happening and we can relay that 
information to law enforcement.
    Over time I have witnessed improvement in certain areas, 
and it has coincided with the implementation of some of the 
measures that I mentioned to you today. It is only on a small 
portion of our ranch, but we need to keep working and keep 
bringing those measures into place.
    I thank you for allowing me the time to come and address 
you today. Thank you.
    [The prepared statement of Mr. Bell follows:]
                  Prepared Statement of Daniel G. Bell
                              May 9, 2016
    Good morning my name is Daniel Bell. I am a third-generation 
rancher from Nogales Arizona and president of the ZZ Cattle 
Corporation. Our family has been ranching on the same piece of country 
since the late 1930s, just west of the city of Nogales along the border 
with Mexico. Our ranch has approximately 10 miles of actual border with 
Mexico and with the exception of a 2-mile stretch of bollard fence and 
a few hundred yards of vehicle barrier, the remainder of the 
international boundary with Mexico is comprised of a 4-strand barb-wire 
cattle fence. Our ranch consists primarily of Federal grazing permits 
with the USDA Forest Service, private lands, and State trust land all 
of which are subject to impacts revolving around illegal immigration 
and drug smuggling.
    As far back as we can remember we have always had impacts with 
regard to illegal immigration and drug smuggling. However, in the 1990s 
things changed drastically! The implementation of Operation Gatekeeper 
in California and Operation Hold the Line in Texas essentially forced 
illegal border traffic into Arizona. As a result of increased illegal 
border traffic, fortified fencing of cities along border began to 
occur, forcing the illegal activity on to the adjacent ranch lands. In 
areas where it was common to see 1 or 2 undocumented aliens, were now 
seeing groups sometimes ranging in the number of 50 or more. With those 
increases in numbers, also came increases in property damage, theft, 
fire frequency, and violence. Our fences were being cut, watering 
facilities were being tampered with and drained, our houses were being 
broken into and valuables were taken, we even had vehicles stolen. On 
one occasion the wife of one of our employees was forced at knife point 
to prepare meals for a few individuals. Upon arriving home our employee 
tracked the group and lead authorities to their location.
    Over the years violence in the border region had been on the 
increase. Nogales Station agents had been fired upon and in a few 
incidents agents were wounded by apparent sniper-style shootings. In 
1998, Border Patrol Agent Alexander Kirpnick was murdered as he was 
apprehending drug smugglers in one of our grazing pastures. On March 
27, 2010 while checking livestock, watering facilities, and fences, my 
friend Rob Krentz was murdered on his ranch in Cochise County. On May 
12, 2010, the ranch foreman from one of the ranches in Mexico that 
neighbors us along the border was found murdered and buried in a 
shallow grave after he had gone missing a month earlier. On December 
17, 2010, Border Patrol Agent Brian Terry, a member BORTAC, the elite 
tactical unit of the Border Patrol, was murdered on the ranch that 
neighbors us to the North. His team was in the area to rid the area of 
violent rip-off crews that were targeting undocumented aliens and drug 
carriers.
    Also, over the years the fire frequency has increased on the 
ranches along the border as a result of warming fires not being 
extinguished, fires lit by undocumented aliens in distress, and fires 
lit by smugglers to create diversions. In the mid-2000's, an unoccupied 
house on the Bear Valley portion of our ranch was set ablaze by 
undocumented aliens when they attempted to light the propane powered 
lights. In 2011, we witnessed one of the worst fire seasons ever. I 
believe there were 13 different fires that year that burned 
approximately two-thirds of the entire ranch. Only one of those fires 
was considered to be a naturally caused fire, all the others were 
either diversion fires or distress fires. In fact just this past 
Tuesday, May 3, 2016 there was a fire started on the western portion of 
the ranch, by illegal aliens. Border Patrol was able to apprehend them 
and report the fire to the Forest Service who responded quickly and 
contained the fire to about 30 acres.
    The issues I have touched on have caused ranchers along the border 
to be very vocal about increasing border security resources and placing 
more boots on the ground.
    My main focus here today is to highlight what I consider to be 
useful and positive measures to help secure the border and the lands we 
work on. Measures like creating access and establishing roads along the 
international boundary with Mexico. Being able to get to the border is 
paramount if one expects to defend it. The areas of the border that are 
more secure are the areas that were less difficult to secure. What 
remains is probably some of the most rugged terrain encountered along 
the border, most of which is inaccessible by vehicles. Not only is it 
rugged, but much of it is Federal land, which brings with it other 
obstacles and restrictions for border security. Delays due to lengthy 
Environmental Impact Studies, operational restrictions due to 
Wilderness Designations and concerns for so-called threatened and 
endangered species all stand in the way securing the border.
    Access and infrastructure in the form of roads is drastically 
needed along the border, otherwise the area of operation remains 
unwieldy. Roads also allow for faster response times when a threat 
approaches the border. With a good road system in place, implementation 
of technology in the form of Remote Video Surveillance Systems, 
Integrated Fixed Towers, and Mobile Surveillance Capable Vehicles can 
be facilitated. In order to secure the border, law enforcement must be 
nimble as to address shifts in patterns of illegal activity and also 
have situational awareness. Again the reality of gaining access and 
constructing infrastructure along the border on Federal lands is a 
lengthy process and it needs to be streamlined.
    For over a decade I have witnessed the implementation these 
measures, including the construction of 2 miles of a bollard fence. The 
Coronado National Forest, Nogales Ranger Station, and the Border Patrol 
are to be commended for these accomplishments. I can attest to the 
effectiveness of these measures and how illegal traffic has been 
reduced in these areas and has given law enforcement more focus along 
that portion of the border. That focus reduces the footprint of the 
illegal activity as well as the footprint required for law enforcement 
which is a positive for the environment. More of the Federal and State 
land management agencies need to adopt this strategy.
    Unfortunately, some of the traffic shifted to the areas that are 
more remote and rugged where these measures do not exist. Until access 
and roads can be implemented in these areas, it is extremely important 
that air assets like helicopters, and fixed-wing air craft, as well as, 
drones are available to detect illegal activity, direct law enforcement 
to intercept points, provide the much-needed situatonal awareness, and 
even insert agents into these problem areas.
    In the past military personnel were used in the remote areas as 
Entry Identification Teams with the purpose of calling out illegal 
activity, allowing agents to respond directly and again providing 
agents with that situational awareness. In fact, many if not most of 
the Remote Video Surveillance System Towers were constructed on the 
very sites that were previously occupied by the entry identification 
teams.
    As these areas are remote and rugged, they often lack the necessary 
communications technology for both law enforcement and civilians. This 
is important as there are citizens out recreating in the forest despite 
the travel caution signage warnings of smuggling and illegal 
immigration in the area.
    Of course the most important factor is having boots on the ground, 
in the right place, at the right time in order to intercept the illegal 
activity. Border Patrol must increase horse patrols in the rugged and 
remote areas where access is limited. Also, Forward Operating Bases 
have been used in the past and were effective, cutting response times 
and travel times to areas of deployment by several hours.
    There is a need to maintain the morale of the men and women working 
to secure the border. Funding State and Federal Attorneys' Offices must 
be adequate to assure timely prosecution of border-related offenses. As 
part of that, ensuring that there are judicial resources in place to 
provide consequences to offenders is imperative.
    It is also important to ensure that metrics are in place that 
account for the reductions in illegal activity and maintain resources 
as border conditions improve. I am fortunate to be a part of the 
Citizens Advisory Boards and the Rancher Liaison Group for the Nogales 
Border Patrol Station. It gives me the opportunity to address security 
issues in areas of our operation and allows Border Patrol the ability 
to communicate with the public and the folks most effected by illegal 
activity. I view these groups as another sort of metric.
    As I have stated before. I have witnessed improvement over the past 
few years in certain areas and it has coincided with the implementation 
of the measures that I have mentioned to you here today.
    Thank you for your time and allowing me to come before you today!

    Ms. McSally. Thanks, Mr. Bell.
    The Chair now recognizes Pastor Adams.

   STATEMENT OF MARK STEPHEN ADAMS, COORDINATOR, FRONTERA DE 
                             CRISTO

    Mr. Adams. Thank you, Chair McSally and Representative 
Pearce, for the opportunity to be here. As I push the button, I 
see that I am talking with a Shure microphone. Twenty-some 
years ago my wife, Miriam Maldonado Escobar, migrated from 
Chiapas, Mexico after her family could no longer farm on corn 
farms there because of the price of corn dropping and came to 
the border to work for Shure. They had a factory on the U.S.-
Mexico border in Agua Prieta Sonora. Shure was part of the 
reason that I got the love of my life.
    For me, I have been living on the border of the United 
States and Mexico for 18 years. For the first 18 years of my 
life, I lived on the border between South Carolina and North 
Carolina, quite different borders. But also, the border between 
the United States and Mexico is also quite different now than 
it was 20 years ago, 25 years ago, 30 years ago. It is very 
different. It has changed dramatically.
    What is the border for me? The border is home. The border 
is a place that I love. The border is a place where 12 million 
other folks live and, I imagine, love as well. So the border is 
home. So as you all undertake the task of making walls and 
trying to oversee the policies that make our border secure, I 
really want to encourage you to always remember that the border 
is home. It is home to me and it is home to millions of others. 
Too often, the border has been seen as a place to defend, to be 
afraid of, as opposed to a place to revitalize, a place to see 
as an asset, a place of encounter. For me, that is what the 
border is.
    Unfortunately, I am afraid that at times our attempts to 
secure the border for whatever fear we might have has 
negatively impacted the local communities on the border. As Mr. 
Pearce saw with Mayor Danny Ortega, the town of Douglas is 
secure in the sense of crossings and crime, but also at times 
for us to have a secure border we also have to have the secure 
and safe and efficient flow of people through our borders. For 
many, many years we have neglected that part.
    So as we have secured our border between ports of entry, or 
tried to, we have neglected securing our communities' security 
and our economic security. So I want to encourage you to think 
about the importance of that aspect of border security as you 
go about your task there.
    Also, as you seek to do your task to secure our border, 
please do not sacrifice the civil rights of our home, of our 
community, of our people. I was serving with a group of folks 
who came down from the Border Action Network. They wanted to 
meet some of the folks from the community in Douglas to see 
what it was their relationship was with increased enforcement 
in our community and if there were any problems. So I said, 
sure, I will go around the community with you. As we were 
going, someone asked me, well, Mark, have you had any problems 
with your local Border Patrol? No. I said we meet on a regular 
basis; they are very helpful.
    You have never had any problems, he said? I said, well, 
there was that time where I was driving the Frontera de Cristo 
van and got stopped 3 times within 45 minutes. That was a 
little strange. Then there was the time where I picked up a 
friend of mine from the Philippines at the shuttle and I got 
followed back to our office and the car sat in front of our 
office. When I went out and said excuse me but can I help you, 
they said we heard that there is a smuggling ring going on 
here, and I said no, that is all right. That was kind of 
strange.
    Then there was the time--and I went off and rattled off 5 
times where I experienced something very different than I would 
ever have experienced in South Carolina or North Carolina. I 
say that as a white man who has 20 years of education, formal 
education, who is a U.S. citizen, who speaks English, who has a 
national church at his back. The reality is many of our 
community who don't have those same privileges that I have--
there is no reason I should have them and others not--face 
realities that are dangerous for our community security, and we 
need to improve our relationship with our local law 
enforcement.
    Finally, I want to say that we need to take death out of 
the immigration equation. Too many people have died in our 
deserts because we have used deserts and mountains as a lethal 
deterrent. They have been lethal but not deterrents, and that 
doesn't uphold who we are as a Nation. We need to always 
remember that you have the challenge of securing our borders 
but also upholding the legacy of us as a Nation of immigrants.
    So I want to please ask you to think about the security of 
the tired, the poor, the huddled masses yearning to breathe 
free, take them out of the drug equation, take them out and 
allow for a safe and efficient flow of people through ports of 
entry to decrease the suffering and the death that occurs 
because of policies that are harming folks who can no longer 
make a living or are trying to be reunited with family.
    Thank you for your time.
    [The prepared statement of Mr. Adams follows:]
                Prepared Statement of Mark Stephen Adams
                              May 9, 2016
                              introduction
    Chair McSally and Members of the committee, I am Mark Adams, a 
Presbyterian pastor serving with the bi-national ministry Frontera de 
Cristo, based in Douglas, AZ/Agua Prieta, Sonora. I lived the first 18 
years of my life on the South Carolina/North Carolina border and for 
the past 18 years I have lived on the U.S./Mexico border in Douglas, 
AZ/Agua Prieta, Sonora. While I crossed the South Carolina/North 
Carolina border at frequently growing up, I cross the U.S./Mexico 
border almost daily and sometimes up to 4 times a day. I am grateful 
for the opportunity to address the committee about life on the border.
    In 1998, I migrated to the Douglas/Agua Prieta to serve with the 
church. I did not realize before coming that political and economic 
forces had converted our towns and surrounding areas into the primary 
crossing point for persons entering the United States without proper 
documentation.
    The church of the U.S./Mexico borderlands has been in a unique 
position to witness to the growing division, fear, and death occurring 
on our shared border as well as in the interiors of our nations. It is 
in this context of tension and suffering that I and all those who are 
Christian are called to bear witness to the good news of Jesus Christ 
who ``is our peace who has made the two one and who has broken down the 
dividing wall of hostility.'' (Ephesians 2:14).
    Being part of the church that crosses national, political, social, 
linguistic, and cultural borders has enabled us to experience the 
suffering on both sides of the border--whether it is crying with family 
members in Mexico who have lost loved ones in the deserts or listening 
to the frustration of property owners in the United States who have 
lost a sense of physical and financial security because of persons 
crossing through their property; whether celebrating in worship with 
migrants who give witness to how God saved their lives again or praying 
with Border Patrol Agents who sometimes fear for their safety; or 
grieving with families on both sides of the border as they struggle 
with the violence of an underground drug culture. Because we are in 
relationship with people on multiple sides of the ``issues'' and have 
become familiar with the realities and complexity of the situation, it 
has become impossible for us to scapegoat any group of people.
    As Christians we are called to work together across national 
boundaries and to address our common concerns as sisters and brothers 
equally created in the Divine image. We are not adversaries. 
Furthermore, we are called to resist the temptation to demonize or 
dehumanize any individual or group of individuals. By building 
relationships and understanding across borders, those most affected by 
the brokenness of current policies can unite to struggle for change 
that is beneficial to people on both sides of the border.
               the importance of remembering our history
    Each year we host around 500 people from churches, seminaries, 
universities, schools, and leadership organizations as part of our 
mission education ministry. Over the last year, we have hosted:
    young and old;
    progressive, liberal, conservative, libertarian, and a mixture of 
political philosophies;
    Presbyterian, Jewish, Muslim, Catholic, Agonostic, Atheist, 
Mennonite, Episcopalian;
    Methodist, Inquiring, and Skeptical.
    One of our main goals in our ministry in general and specifically 
in our mission education ministry is to build relationships and 
understanding across borders. As part of our orientation, we go to a 
spot just north of the U.S./Mexico border and stand in the shadow of 
the tall multi-million dollar rusted steel fence that we as a 
Government built in 2012 as part of the border infrastructure after the 
original ``aesthetic'' fence initially erected in 1997 was torn down.
    While standing there, we ask folks to share a part of who they are: 
Their names, where they were born, where they live now, and where their 
ancestors came from before they came to what is now the United States 
of America and why their ancestors came. It is an exercise of 
rememberence . . . remembering our own immigrant stories, because we 
are a people who so easily forget.
    It hardly ever ceases to amaze me the diversity that emerges. As we 
remember our origins: Ireland, Italy, the West Coast of Africa, China, 
Germany, Poland, Japan, I simultaneously rejoice in the reality that we 
are a nation of immigrants with the Statue of Liberty as one of our 
enduring symbols and remember that many of our ancestors were welcomed 
not with the sentiment of the Emma Lazurus poem ``give me the tired, 
the poor, the huddled masses yearning to breathe free . . . '' that 
forms one of the highest ideals of our who we are as a Nation, but 
rather with the crass xenophobia that also has strong currents within 
our National identity.
    Roy Goodman is a colleague on the border shocked me one day with a 
t-shirt he was wearing. On the t-shirt it had two proud symbols of our 
country: The U.S. flag and the Statue of Liberty. Underneath these 
symbols: There was a quote that said:

```Few of their Children in the Country learn English . . . The Signs 
in our Streets have Inscriptions in both Languages, and in some places 
only [their language] . . . In short, unless the Stream of their 
Importation could be turned . . . they will soon so outnumber us, that 
all the advantages we have, will not in my Opinion be able to preserve 
our Language, and even our Government will become precarious.''\1\

    \1\ Excerpt from a letter to Peter Collinson from Benjamin Franklin 
written May 9, 1753.

    ``Roy, how could you wear that horrible t-shirt?'' I asked in 
disbelief, feeling as if he was betraying our work of building bridges 
---------------------------------------------------------------------------
between peoples.

    ``You know who said that?'' he responded. ``Benjamin Franklin. He 
was talking about the Germans in Pennsylvania.''

    The 15% of the U.S. population that can trace part of its lineage 
back to Germany \2\ is probably very glad that neither the Native 
Americans, nor the colonies nor the young U.S. Government later had a 
quota in the eighteenth century of deporting 400,000 people a year that 
some of our founders and I imagine many of the populace thought did not 
belong in our Nation. In hindsight it is easy to see the misguided 
nature of the parts of our history that include the oppression, 
exclusion, and/or fear of immigrant peoples because of their racial, 
ethnic, cultural, or national origin: Whether forced immigrants brought 
to our shores as slaves, or the Irish who ``needed not to apply'' 
(ironically I have often heard the vehicles used by our Border Patrol 
to Transport people who have been apprehended as Paddy Wagons), or the 
Chinese who were the first group of people legally targeted by the 
Chinese Exclusion Act of 1882, but the cliche often is true: History 
repeats itself.
---------------------------------------------------------------------------
    \2\ According to U.S. Census Data http://factfinder.census.gov/
faces/tableservices/jsf/pages/
productview.xhtml?pid=DEC_00_SF3_PCT018&prodType=table.
---------------------------------------------------------------------------
    As you seek to fulfill your responsibilities as members of the 
Border and Maritime Security Subcommittee, I urge you, to remember, 
remember not to be guided by the basest of our nature which often fears 
the other, remember that we are a Nation of immigrants, that when we 
are at our best we believe that ``all men [and women] are created 
equal'', and that E Pluribus Unum. I urge you to help us on the border 
and throughout the Nation to secure a legacy of truly being a Nation of 
immigrants that respects the human rights of all; help us to live into 
the reality that we can be a city on a hill.
                           meaning of borders
What Do Borders Mean to You?
    While still standing in the shadow of the twenty-foot tall multi-
million dollar rusted fence that has come to define much of our border 
with Mexico, I ask our visiting delegations: ``What do borders mean to 
you?''
    I intentionally make borders plural, because borders exist in their 
own communities: The border between property, or neighborhoods, or town 
and county or States. However, standing in the shadow of what Pete 
Vogel, an immigrant from Germany and good friend of Frontera de Cristo, 
calls our ``Berlin Wall'', people's responses are almost always focused 
on the meaning of the U.S./Mexico border. Some common themes are: A 
division of hostility; a separation of us from them; an effort of the 
rich to keep from the poor.
    One of our visitors said: ``There is something that I really don't 
like about the wall . . . but what if it did not exist, wouldn't 
everyone just come to the United States?''
    For some it is hard to remember that for almost 150 years between 
the signing of the Treaty of Guadalupe and the beginning of the massive 
border infrastructure build-up during the Clinton administration in the 
mid-1990's, there was no multi-million-dollar taxpayer-funded steel 
fence between us and our neighbors to the south, nor was there massive 
camera surveillance, nor drones, nor miles of multi-million dollar 
high-speed all-purpose roads paralleling the border, nor the over 
21,000 Border Patrol Agents that we have today.\3\ It is amazing for me 
to hear some politicians speak today as if we as a Nation have done 
nothing to ``secure our border''.
---------------------------------------------------------------------------
    \3\ According to CBP website https://www.cbp.gov/border-security/
along-us-borders/overview.
---------------------------------------------------------------------------
    I am often invited to speak in different venues in the interior of 
the United States and almost always ask people what they think of when 
they think of the border. Much like the majority of the visitors with 
us, the border has negative connotations for most of the people on the 
interior with whom I talk. I have people who question why I would ever 
choose to live on the border and others who ask if I am afraid.
    The meaning and implications of borders change and mean different 
things to different people. The political, cultural, demographic, and 
economic context of our Nation always determines the meaning and 
implications of our borders. The border between the United States and 
Mexico has a very different meaning with starkly different implications 
in 2016 than it did when its most recent demarcation was set by the 
Gadsden Purchase over 150 years ago.
    When the border between the United States and Mexico was finalized 
in the 1850s, it was a political border that marked where the spheres 
of influence and power of the United States and Mexico began and ended, 
not the heavily-fortified border that divides communities and families 
today.
    So what does the border mean to me?
    It means home.
    With all of its joys and suffering, its opportunities and 
challenges, the border is my home and it is home to over 12 million 
people along the U.S./Mexico border. I think that those who have made 
the laws and policies regarding border security have often forgotten 
that the border is home to millions of people. Too often the voice of a 
few border residents claiming that the border is ``out of control'' and 
needs to be secured is given more importance than the voices of the 
broad spectrum of our community who understand that cross-border 
economic, cultural, and social cooperation is our life-blood and the 
safe and efficient flow of people through our ports of entry is 
essential.
    Our efforts at ``border security'' have often impeded our community 
security and have had a detrimental impact on the poor as well as 
people of color.
    I urge you as you go about the tasks of your committee to please 
remember that the border is our home, it is not a place to be 
militarized, but rather a place to be revitalized.
          increased border security and its broad consequences
    For 150 years there had been a pretty fluid border between United 
States and Mexico. For most of our history, crossing the U.S./Mexico 
border was not too unlike crossing the North Carolina/South Carolina 
border. Beginning in the 1990s, things changed dramatically for us on 
the border and the border began to be more robustly enforced through 
efforts like Operation Hold The Line, Operation Gatekeeper, and 
Operation Safeguard. Our change in border policy corresponded with 
economic forces that were pulling people north to the United States 
(low unemployment and demand for labor) and pushing people north from 
Mexico (dramatic loss of agricultural jobs). People were forced to 
cross through the desert areas of Agua Prieta/Douglas, Arizona in the 
late 1990s and early 2000s, but by the mid- and late-2000s the flow of 
migration was pushed to even more remote and deadly areas like the 
deserts and mountains east of Yuma and the Altar Valley southwest of 
Tucson.
    With the signing of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996, President Clinton began a massive increase 
in the budget for border protection. Under the Bush and Obama 
administrations, we have continued the policy of increasing the budget 
and the number of Border Patrol Agents.
    Unlike the Immigration Reform and Control Act signed by President 
Reagan in 1986 that provided a pathway to legalization for persons who 
were in the United States without authorization prior to the Act, 
Clinton's ``reform'' provided no such relief and only focused on the 
removal of persons in the United States without authorization and the 
deterrence of future undocumented immigrants.
    Has the strategy been effective? Despite our attempts to ``secure'' 
the border, the presence of undocumented immigrants in the United 
States is millions more now than it was when we began Operation 
Gatekeeper in 1994.
    In 1994, I was teaching Spanish in my hometown of Clover, South 
Carolina just south of the North Carolina border. Other than myself and 
one other non-native Spanish-speaking teacher, there were no other 
Spanish-speaking persons in town. I went back there 10 years later, in 
2004. Ten years after we started beefing up our border security 
programs and implementing Operation Gatekeeper, there was a large 
banner decorated with Mexican and Guatemalan flags hanging from the 
roof of the Piggly Wiggly grocery store, with the words: ``Tenemos 
productos hispanos''--we have Hispanic products. The First Baptist 
church was offering free English as a Second Language classes. At the 
bank, a sign asked if you wanted service in English or Spanish. In 10 
years, Clover, South Carolina had gone from having 2 non-native 
Spanish-speaking people to having a sizeable enough population that 
grocery stores and banks were marketing to them and churches were 
reaching out to them.
    And this anecdote could be repeated in many towns, suburbs, and 
cities throughout the United States, precisely at a time when our 
Government decided to get serious about enforcing the border.
    In 1994, there were 4.5 million undocumented persons in the United 
States. Now, after spending billions of dollars to ``secure'' the 
border, there are more than 11 million--the number had increased to 
over 12 million prior to the recession that began in 2008.
    There has been other serious and even deadly consequences to our 
decision to pursue a border enforcement strategy that uses the deserts 
and mountains as lethal deterrents without considering the power of the 
economic and family push and pull factors.
Increased Death and Injury
    Since the inception of Operation Gatekeeper in 1994, more than 3 
times more people have died in the deserts of the southwest while 
seeking to reach the ``American Dream'' than the number of persons who 
died in the attacks of 9/11. More people have died crossing the U.S./
Mexico border trying to provide a livelihood for their families than 
the combined number of U.S. soldiers who have died in the Iraq and 
Afghanistan wars. Since 1994, over 7,000 bodies have been found. That 
doesn't include the deaths of persons whose bodies have never been 
found.
    Each Tuesday at 5:15 pm, a group gathers 5 blocks north of the 
border for the Healing Our Borders Vigil in which we remember the 
persons by name who have died in Cochise County while crossing, we pray 
for their families, we pray for an end to deaths in the desert, we pray 
for our Government and the government of Mexico and we recommit 
ourselves to work for healthier relationships among our peoples and 
countries.
    Our policy of using the deserts and mountains as lethal deterrents 
and increasing height of fencing have also resulted in a significant 
increase in the number of persons sustaining traumatic physical 
injuries while crossing the border. In addition to the intense 
suffering experienced by the migrants who have not been deterred by our 
policies that intentionally increase the risk for their crossing, 
border hospitals have experienced financial and emotional stress as 
they receive more patients with broken bones or severe complications 
from hypothermia and hyperthermia. The increasing number of life-
threatening and life-altering injuries also has a psychological impact 
on our agents who are tasked with securing our borders, as they are 
often the first responders to migrants with compound fractures, severe 
dehydration, and other painful physical conditions.
    One of our ministries is the Migrant Resource Center, which is the 
first non-governmental building that you arrive to when you enter Agua 
Prieta by foot. In June we will celebrate our 10th Anniversary of 
providing a safe place for men, women, and children who have been 
returned to Mexico by our Border Patrol. In that time, we have welcomed 
over 86,000 men, women, and children. Together with our partners at the 
Kino Initiative in Nogales who have welcomed many more people and 
especially now that almost all repatriation is happening through 
Nogales we can testify about the physical and emotional trauma of our 
broken border and immigration system.
    I met Guillerma in the Migrant Resource Center.
    ``Hey Marcos, she's from South Carolina!''
    Adrian Gonzalez one of the volunteers pulled on my shoulder and 
announced excitedly the news that another one of my ``paisanos'' was 
less than 7 feet away from me. We were both in the Migrant Resource 
Center, yet we were miles apart in the reasons for finding ourselves in 
the center.
    I turned and saw a woman not too much younger than me standing in 
dark clothes and a baseball cap shading a hint of deep sadness in her 
face. 60% of the skin on her hands had been scrapped off as she slid 
down the posts of our border fence.
    ``Buenos dias! Me llamo Marcos, como se llama Ud.?'', I asked, 
assuming that this fellow Sandlapper's first language was Spanish.
    ``My name is Guillermina,'' she responded in perfect English. 
Guillermina, had moved to South Carolina about the time I moved to Agua 
Prieta. She had been living in Myrtle Beach for 10 years, working in a 
hotels and restaurants--the irony of her working in the hospitality 
industry is a painful reality. She loves living in South Carolina 
despite not always feeling welcome, she has had work to help feed her 
family--Jose, her husband, and Kevin, her 6-year-old son.
    She had not seen her dad in more than 16 years and had crossed back 
to Mexico because her dad had had a heart attack. Tears welled up in 
her eyes and in the eyes of most of us gathered in that humbled 
building.
    With her voice trembling, she said, ``When I left, he said,
    `Hija this will probably be the last time we see each other. Be a 
good mother to my grandson. I love you.'
    My world is torn in two--my dad is on this side of the border and 
my son and husband are over on the other side.''
    Pastor Brandi Casto Waters of First PC Greer, SC, who was visiting 
us that day led us all in prayer with and for Guillermina and we joined 
together in the hope for the day when the border would be a place of 
encounter and peace and not a place of division and conflict.
    As I left, I let Guillermina know that I had a son Kevin's age and 
that I would keep them in my prayers, I also let her know that I and 
the ministry with whom I serve are committed to continue the hard work 
of changing laws that tears worlds apart. I asked her if she would like 
me to share her story with you--``please ask them to pray for us.''
    On November 20, 2014, President Obama announced an Executive Order 
that will provide an opportunity for almost 4 million parents like 
Guillermina to come out of the shadows and not have to live in fear of 
being separated from their children. I know that most on the committee 
disagree with the policy and that it is being challenged in court. I 
also know that it is an imperfect solution, and Congress needs to act 
to align our laws more with the gospel's call to radical hospitality 
and with Emma Lazuras' words on one of the iconic symbols of our 
Nation: ``give me your tired, your poor, your huddled masses yearning 
to breathe free.''
Use of Force
    In addition to the deaths and injury due to the increased physical 
challenges of crossing in more remote and perilous places, there has 
also been an increase of deaths and injury due to use of force. We urge 
you to advocate for the full implementation of the February 2013 PERF 
report and that this committee demand that CBP become more transparent 
and accountable and implement a complaint filing process that is 
accessible and effective.
Boon to the Smuggling Industry
    An irony of our increased border enforcement is that it has been 
accompanied by an increase in the size, sophistication, and wealth of 
smuggling operations on both sides of the border. Smuggling of drugs 
and people is a growth industry. In its working paper ``Analysis of 
Migrant Smuggling Costs Along the Southwest Border,'' the Department of 
Homeland Security \4\ provides data tracking the increased costs of 
smuggling with the increase of border enforcement. The data presented 
in the DHS paper corresponds closely with the information of the local 
residents in Agua Prieta with whom I have talked over the years. 
According to them, the cost to get across the border has risen from $50 
to $100 prior to 1994, if a smuggler was needed at all, to $800 in 1998 
when I first arrived on the border, to $2,000 or more today--with a 
much higher risk of being caught, injured, or killed. The DHS's working 
paper states that the increased costs for smuggling are only a 
``potential deterrent.''
---------------------------------------------------------------------------
    \4\ http://www.dhs.gov/xlibrary/assets/statistics/publications/ois-
smuggling-wp.pdf.
---------------------------------------------------------------------------
Strained Relationships Between Federal Law Enforcement and Local 
        Communities
    I believe that it is essential for both community security and 
border security that there be a good relationship between the Federal 
law enforcement and local community--more than 85% of the population of 
Douglas is of Mexican descent and while most are U.S. citizens there 
are families of mixed legal statuses. Racial profiling is a fear and 
lived experience for many of our community. Rosie Mendoza, a 
naturalized citizen originally from Mexico and a member of the board of 
Frontera de Cristo, shared in a community listening session with Chair 
McSally in February of 2015 about the experience of her U.S.-born sons, 
who have dark complexions being stopped dozens of times while walking 
on the street. She said their ``crime'' is ``walking in Douglas while 
brown.''
    In a gathering we arranged for local Douglas business persons and 
the chief of staff of former Representative Barber, the business owners 
expressed concern about how they are treated as ``guilty until proven 
innocent'' when they are returning to the United States from Mexico. 
Their concern was not only for their persons, but also for business in 
Douglas in general. If they as business owners feel more apprehension 
coming back into the United States than going into Mexico, how must 
non-citizens feel and how many people might that feeling prevent from 
crossing the border to shop in the United States?
    In my own family, we experience the tension of experiencing the 
reality of the border in very different ways. In a recent conversation 
with a church, my wife, Miriam, and I were asked us a seemingly simple 
question: ``Is it easy for you to cross the border?'' Miriam is a 
permanent resident of the United States and citizen of Mexico of 
indigenous descent.
    We looked at each other knowingly and I asked her to answer the 
question. ``It depends if it's him or me.'' Our children even 
experience a difference--our oldest daughter who is 20 has a dark 
complexion and our youngest 2 children have lighter complexions. Our 
oldest daughter has had experiences crossing the border in which she 
has been yelled at and humiliated, so much that I do not like her to 
cross the border (north) without me. I will not have the same concern 
for my 2 youngest children who are 12 and 8 when they become old enough 
to cross the border alone.
    When we drive through the checkpoint outside of Tombstone, we make 
sure the I am driving and not my wife--and not because I am a better 
driver. Almost always when I am driving, we get waved through the 
checkpoint with ``have a good day''. When Miriam is driving we almost 
always get asked citizenship status. Febe, my sister-in-law who has 
driven through the checkpoint alone, was amazed to see how easy it was 
when I was driving. ``That's white privilege'' she chimed in from the 
back seat.
    I was recently in a new local restaurant in Douglas when I heard a 
Border Patrol Agent comment to the waitress that he was glad that there 
was a new restaurant in Douglas. The waitress asked the agent: ``How 
many restaurants can Border Patrol Agents eat at in Douglas?'' While I 
had known about the reality that Border Patrol Agents did not feel 
welcome at many of restaurants and had unofficially but actively 
boycotted a couple, I was surprised to her the Agent's response: 
``Three.''
    I think it is incumbent upon us (both we as local residents and our 
Federal law enforcement) to work on strengthening our relationship and 
growing trust among us. I am proud to have worked with Mayor Ortega, 
the Douglas City Council and other organizations to have a resolution 
passed to make Douglas ``A Welcoming Community''. Initially it was in 
response to the negative impacts that Arizona's law SB1070 had on 
relationships with our neighbors to the south. We wanted them to know 
that Douglas welcomed them. However, as we continued our conversations 
we realized that we needed to expand our understand of welcome to 
include the Federal law enforcement in our midst.
    Currently less than 25% of Federal agents stationed in Douglas live 
in Douglas. Most live in the Sierra Vista area. There are many reasons: 
Lack of housing attractive for agents; of jobs for spouses; of shopping 
options etc. I believe we both as a local community and as the Federal 
Government look for ways to make living in the communities where our 
agents work a more chosen option. By increasing the percentage of 
agents living locally, we are more likely to increase our understanding 
of and trust for one another. When we participate in civic groups 
together, when our children go to school together or play on the soccer 
team or take swim lessons, when we worship together, when we celebrate 
the fourth of July or Douglas Days together, when we get to know one 
another, it becomes harder to treat one another as enemies.
    comprehensive immigration reform is essential to border security
    Many politicians have argued that there can be no immigration 
reform until the border is secure. This is a false dichotomy. 
Comprehensive immigration reform is actually integral to helping make 
the border more secure.
    The Presbyterian Church has joined the majority of faith traditions 
advocating for comprehensive immigration reform. The basic elements of 
the resolution passed at our 216th General Assembly \5\ are:
---------------------------------------------------------------------------
    \5\ To see complete resolution and study guide go to http://
www.pcusa.org/site_media/media/uploads/acswp/pdf/immigration-
resolution.pdf.
---------------------------------------------------------------------------
    a. an opportunity for hard-working immigrants who are already 
        contributing to this country to come out of the shadows, 
        regularize their status upon satisfaction of reasonable 
        criteria, and, over time, pursue an option to become lawful 
        permanent residents and eventually United States citizens;
    b. reforms in our family-based immigration system to significantly 
        reduce waiting times for separated families who currently wait 
        many years to be reunited;
    c. the creation of legal avenues for workers and their families who 
        wish to migrate to the United States to enter our country and 
        work in a safe, legal, and orderly manner with their rights 
        fully protected; and
    d. border protection policies that are consistent with humanitarian 
        values and with the need to treat all individuals with respect, 
        while allowing the authorities to carry out the critical task 
        of identifying and preventing entry of terrorists and dangerous 
        criminals, as well as pursuing the legitimate task of 
        implementing American immigration policy.
    e. a call for living wages and safe working conditions for workers 
        of United States-owned companies in other countries;
    f. a call for greater economic development in poor countries to 
        decrease the economic desperation,which forces the division of 
        families and migration.
    Most of the Border Patrol Agents that I have talked to have 
struggled emotionally with the part of their job that requires them to 
apprehend men and women who are migrating for economic reasons or to be 
reunited with family. The persons that they really want to apprehend 
are the people who are coming into the country with ill intent, 
smuggling drugs, or with criminal backgrounds.
    By creating a system that would allow for the orderly, safe, and 
efficient flow of persons who are migrating for economic or family 
reasons through ports of entry and removing them from between ports of 
entry, we will not only reduce the emotional stress for many of our 
agents which will increase their job satisfaction and their 
effectiveness, but also enable them to focus on the real threats to our 
security.

    Ms. McSally. Thanks, Pastor Adams.
    The Chair now recognizes Mr. Chamberlain.

STATEMENT OF JAIME CHAMBERLAIN, PRESIDENT, JC DISTRIBUTING INC.

    Mr. Chamberlain. Chairwoman McSally and Representative 
Pearce, my name is Jaime Chamberlain. I am president of JC 
Distributing, a Nogales, Arizona-based company with a 46-year 
history of importing and distributing fresh produce from Mexico 
throughout the United States and Canada. I appreciate the 
opportunity to speak about my community and my industry as it 
pertains to border security.
    For the last 29 years I have worked alongside with my 
family, our dedicated employees, and our grower partners to 
feed North America. This is a bold statement, but this is our 
mission and this is our passion. As a Nogales resident and as 
an American businessman, I believe that I bring a background 
and close to 3 decades of professional experience that allows 
me to assure you that my comments before you today are based on 
the realities of the border and the realities of North American 
trade and investment.
    I am a big proponent of efforts and initiatives to promote 
trade and tourism in Southern Arizona for the benefit of my 
State and for my country. I am also an ardent proponent of 
enhanced security at our border's rural areas, as well as at 
our ports of entry. Let me assure you that these two positions 
are not contradictory but, in fact, they are essential and 
complementary.
    The more effective and efficient that our enforcement 
agencies are at the border, the faster our produce, our 
manufactured goods, our cattle, our mining equipment, and our 
Mexican consumers can cross the border. With enhanced security 
our enforcement officials can, with greater certainty, secure 
our communities and bolster our economic productivity.
    As a life-long border citizen, I feel it is my 
responsibility to articulate the truth about life on the 
border. We have distinct and unique physical security 
challenges all along our State, as many before me have 
testified to. But our businesses also require a safe and secure 
environment so that we may focus on the future of our economic 
viability. The stability of economic competitiveness 
strengthens our homeland against those who may want to disrupt 
our way of life.
    Nogales, a community of 24,000 people, is the principal 
gateway for Arizona's trade and tourism with Mexico. As 
reported by the Federal Government, in 2015 Nogales processed 
319,000 trucks, 3.5 million cars, and 10.5 million people. But 
I want to make sure that everyone understands that these are 
only northbound crossing statistics. When we add our southbound 
crossings, our numbers are staggering considering our small 
population. The reality is that our ports of entry at Nogales 
processed 640,000 trucks, 7 million cars, and 21 million people 
this past year alone.
    These numbers represent more than $25 billion worth of 
imports and exports flowing through Nogales each year. And once 
you include Douglas and San Luis, these numbers easily exceed 
$30 billion worth of cross-border trade. It is also estimated 
that Mexican visitors spend over $7.3 million per day in 
Arizona. What happens at Nogales is important to Arizona and to 
the Nation.
    Thanks to the efforts of many stakeholders in our 
community, among them the Greater Nogales Santa Cruz County 
Port Authority and the Fresh Produce Association of the 
Americas, close to $300 million have been invested in our 
community. Our commercial crossing has some of the shortest 
wait times of any comparable port of entry on the borders of 
Canada and Mexico. We have improved our situation in many ways 
over the last 10 years, but we still have much more that needs 
to be done.
    These volumes can continue to grow but only if we provide 
Customs and Border Protection the necessary staffing, the 
newest technology for our equipment, and state-of-the-art 
facilities in order to do their job effectively and 
efficiently. Currently, CBP is doing the best they can 
protecting our interests with what they have. This is not 
acceptable for the citizens of Arizona, nor for the citizens of 
the United States of America. We can do better for those brave 
men and women in green and blue uniforms. We can do better for 
the businessmen and women working in our communities. We 
certainly can do better for our future citizens. This is the 
paradigm that I am asking you to change. The U.S. Government, 
combined with your leadership in Congress, needs to commit the 
necessary resources for our ports of entry. This is an urgent 
matter for our physical and for our economic security.
    Securing the border at the border should be the strategy 
for our country. Unfortunately, many times when we ask for 
resources for our border, we are seen as a cost burden to the 
Nation. I don't know of a better use of our scarce Federal 
funds than investing in our sea ports, our land ports, and our 
air ports of entry. It needs to be seen, it must be seen as our 
best return on our investment for our Nation. By ensuring that 
our ports of entry are of the highest service standards for our 
foreign and domestic consumers, we would assure a more 
prosperous economic future for North America.
    A new report from the research arm of the University of 
Southern California links Customs and Border Protection Officer 
staffing to both revenue generation and job creation. The 
National Center for Risk and Economic Analysis of Terrorism 
Events report released on April 8, 2013, estimates the impact 
of wait times at major ports of entry on the U.S. economy due 
to changes in CBP Officer staffing. The study concludes that 
adding one CBP Officer at one of the study's land or airport 
locations would inject $2 million into the economy and produce 
33 new jobs. Yet our Nogales ports of entry are understaffed by 
almost 300 agents and over 20 canine units. We must keep our 
ports working at the speed of business. We have not done so in 
many years.
    Efficient and well-staffed ports of entry mean foreign 
direct investment, it means job creation, it means higher-
paying export-related jobs, and it means we can feel safe while 
conducting our business with our northern, our southern, and 
our global trade partners.
    Madam Chairwoman and Members of the committee, I thank you 
for the opportunity to share some of my thoughts with you. Be 
assured of my personal commitment to working with you and the 
other stakeholders in this room to make our border a true asset 
for our economic and physical security. I think you can tell 
how passionate I am about these issues. There is simply too 
much at stake to approach this in any other way. I look forward 
to your questions.
    [The prepared statement of Mr. Chamberlain follows:]
                Prepared Statement of Jaime Chamberlain
                              May 9, 2016
    Chairwoman McSally and Members of the committee. My name is Jaime 
Chamberlain. I am president of JC Distributing Inc, a Nogales, Arizona 
based company with a 46-year history of importing and distributing 
fresh produce from Mexico throughout the United States and Canada. I 
appreciate the opportunity to speak about my community and my industry 
as it pertains to border security.
    For the last 29 years I have worked alongside my family, our 
dedicated employees, and our grower partners to feed North America. 
This is a bold statement, but this our mission and our passion. As a 
Nogales resident and as an American businessman I believe that I bring 
a background, and close to 3 decades of professional experience, that 
allows me to assure you that my comments before you today are based on 
the realities of the border and the realities of North American trade 
and investment.
    I am a big proponent of efforts and initiatives to promote trade 
and tourism in Southern Arizona for the benefit of my State and my 
country. I am also an ardent proponent of enhanced security at our 
borders rural areas as well as at our border ports of entry. Let me 
assure you that these 2 positions are not contradictory but in fact 
they are essential and complimentary.
    The more effective and efficient that our enforcement agencies are 
at the border, the faster our produce, our manufactured goods, our 
cattle, our mining equipment, and our Mexican consumers can cross the 
border. With enhanced security our enforcement officials can, with 
greater certainty, secure our communities and bolster our economic 
productivity.
    As a life-long Border Citizen, I feel it is my responsibility to 
articulate the truth about life on the border. We have distinct and 
unique physical security challenges all along our State as many before 
me have testified to. But our businesses also require a safe and secure 
environment so that we may focus on the future of our economic 
viability. The stability of economic competitiveness strengthens our 
homeland against those who may want to disrupt our way of life.
    Nogales, a community of 24,000 people is the principal gateway for 
Arizona's trade and tourism with Mexico. As reported by the U.S. 
Federal Government, in 2015 Nogales processed 319,000 trucks, 3.5 
million cars, and 10.5 million people. But I want to make sure that 
everyone understands that these are only north-bound crossing 
statistics. When we add our south-bound crossings, our numbers are 
staggering considering our small population. The reality is that our 
ports of entry at Nogales processed 640,000 trucks, 7 million cars, and 
21 million people this past year.
    These numbers represent more than $25 billion worth of imports and 
exports flowing through Nogales each year. And once you include Douglas 
and San Luis, these numbers easily exceed $30 billion worth of cross 
border trade. It is also estimated that Mexican visitors spend over 
$7.3 million per day in Arizona. What happens at Nogales is important 
to Arizona and the Nation.
    Thanks to the efforts of many stakeholders in our community, among 
them the Greater Nogales Santa Cruz County Port Authority and the Fresh 
Produce Association of the Americas, close to $300 million have been 
invested in our community. Our commercial crossing has some of the 
shortest wait times of any comparable port of entry on the borders with 
Canada or Mexico. We have improved our situation in many ways in the 
past 10 years, but we still have much more that needs to be done.
    These volumes can continue to grow but ONLY IF we provide Customs 
and Border Protection the necessary staffing, the newest technology for 
our equipment, and state-of-the-art facilities in order to do their job 
effectively and efficiently. Currently CBP is doing the best they can 
protecting our interests with what they have. This is not acceptable 
for the Citizens of Arizona, nor for the United States of America. We 
can do better for those brave men and women in green and blue uniforms. 
We can do better for the businessmen and women working in our 
communities. And we certainly should be better for our future citizens. 
This is the paradigm that I am asking you to change. The U.S. 
Government, combined with your leadership in Congress, needs to commit 
the necessary resources for our ports of entry. This is an urgent 
matter for our physical and our economic security.
    Securing the border at the border should be the strategy for our 
country.
    Unfortunately, many times when we ask for resources for our border, 
we are seen as a cost burden to the Nation. I don't know of a better 
use of our scarce Federal funds than investing in our sea ports, our 
land ports, and our air ports of entry. It needs to be seen, it must be 
seen as our best return on our investment for our Nation. By ensuring 
that our ports of entry are of the highest service standards for our 
foreign and domestic consumers, we would assure a more prosperous 
economic future for North America. Efficient and well-staffed ports of 
entry mean foreign direct investment, it means job creation, it means 
higher-paying export-related jobs, it means we can feel safe while 
conducting our business with our northern, our southern, and our global 
trade partners.
    Madame Chair and Members of the committee, I thank you for the 
opportunity to share some of my thoughts with you. Be assured of my 
personal commitment of working with you and the other stakeholders in 
this room to make our border a true asset for our economic and physical 
security.
    I think you can tell how passionate I am about these issues. There 
is simply too much at stake to approach this in any other way. I look 
forward to your questions.

    Ms. McSally. Great. Thank you, Mr. Chamberlain.
    The Chair now recognizes Mrs. Stockholm Walden, please.

  STATEMENT OF NAN STOCKHOLM WALDEN, VICE PRESIDENT AND LEGAL 
             COUNSEL, FARMERS INVESTMENT CO. (FICO)

    Ms. Stockholm Walden. Thank you, Chair McSally and 
Representative Pearce. On behalf of Farmers Investment Company 
and the Green Valley Pecan Company, I am very grateful to be 
here this morning.
    Just under 2 weeks ago, I had the opportunity to testify in 
Washington before the Oversight Subcommittee of the House 
Natural Resources Committee on a similar topic, border security 
and Federal lands. My presence here today underscores how 
seriously we take these issues. My husband is in California 
today, but he certainly joins me in these remarks.
    We were there with friends and local neighbors Sue and Jim 
Chilton, and our hearts go out to the Krentz family and to the 
Bell family, whom we know very well also, as to what they are 
undergoing on a daily basis.
    Two percent of our population are farmers and ranchers, and 
they feed the world, not only this country but the world. You 
are part of that too, Jaime, and we are grateful and share many 
of your observations.
    FICO is a major agricultural company founded almost 75 
years ago by my father-in-law. Today, my husband and our 2 
children are forming the third generation of Waldens, and we 
have many second- and third-generation workers, most of whom 
are of Mexican-American descent. We employ 260 full-time 
workers with full-time benefits, plus 50 to 60 seasonal workers 
during the harvest, which makes us one of the larger employers 
in Pima County.
    We also have major farms in Cochise County at San Simone, 
about 3,500 acres of pecans for planting, a warehouse in Las 
Cruces, New Mexico. So I guess I represent several 
constituencies here. We are the largest integrated grower and 
processor of pecans in the world, and our pecans are known 
globally for their quality and value.
    The FICO headquarters is located just over 40 miles north 
of the border off of I-19, and our home ranch is just less than 
30 miles. We have a horse and cattle operation with 160 acres 
of private land and a 6,000-acre State grazing lease that 
straddles the southern part of Pima County and the northern 
part of the Santa Cruz County line just north of the checkpoint 
at I-19.
    Our proximity to the border gives us first-hand experience 
with border security challenges, and we know the difficult job 
the Border Patrol is tasked to undertake. I have served on 
former Representative Gabby Giffords' Citizens Advisory Group 
on the I-19 checkpoint, and I would like to request that their 
recommendations be made part of the record because I think they 
are very apropos for today as well.
    We would concur that we should secure the border at the 
border, and this is not because of some romantic notion we have 
about the difficulties that we are all facing but because we 
believe that too many alternate routes exist to get around the 
checkpoints. You gave the football analogy. Another one of my 
friends who played football, Gary Brasher, says it is sort of 
like standing in the middle of the field if you are the defense 
and hoping the quarterback will run into your arms.
    We have a gas line and we have a dry riverbed. We have 
different transmission lines and a railroad that are all 
excellent routes to go around the checkpoint. So what happens 
is these people are flushed into our neighborhoods and ranches 
and communities, and the Border Patrol itself admits that 94 
percent of the apprehensions are not made at the checkpoint but 
around it. So it is a serious concern.
    I believe you have a military background. My husband was a 
pilot in Vietnam, flew the OV-1 Mohawk. This is a fanciful 
example, but if Mexico declared war on America, the Marines 
would not hold the line in Tucson or Phoenix. They would defend 
the border at the border, at our sovereign border. They would 
go into Mexico if necessary to push them back, and that is the 
same approach that we feel we need today.
    We believe that comprehensive immigration reform is also 
essential for border security. This must be a multi-layered 
approach. We have to be smart about this, and I think Mayor 
Ortega and others that you heard on the first panel all 
mentioned this. Our visa system, our temporary worker system is 
broken. Agriculture, ranching, the hospitality industry, health 
care, construction, many of these industries depend upon a 
supply of entry-level and younger workers who will then be 
upwardly mobile, just as our ancestors were.
    We also need seasonal workers. That benefits both of our 
countries.
    I have personal experience and I have put in my longer 
testimony many, many episodes of high-speed chases by Border 
Patrol through, in one case, my front driveway, which I have 
detailed. Sharing some of these stories does not at all 
undermine the efforts of the Border Patrol. We are grateful for 
their service. Our ranch liaison, Jake Stukenberg, is doing a 
wonderful job, and I have called him at 11 o'clock at night 
when we had an incident on our ranch, and he is right there, 
and we really appreciate that.
    However, following the recommendations that were part of 
the 
9/11 report, we understand some of these have still not been 
implemented about communications, the ports of entry, and 
cracking down on employers, may I say, that hire people 
illegally. We were one of the first employers in Arizona to 
voluntarily use the e-Verify program, and we continue to do 
that with good results to this day. We don't appreciate other 
employers hiring people illegally because they undercut our 
wages and our benefits. We have had health benefits for our 
workers since the '50s. They are competing unfairly. We also 
drug-test all of our employees, including our management and 
including Dick and myself, on a random basis to cut down on the 
demand, which is what the sheriff was talking about in Cochise 
County.
    It has to be a multi-layered strategy. It can't just be one 
thing.
    The SCAP funding is also very important.
    So again, I would be happy to go into this more with some 
specific recommendations that we have made. I also serve on the 
National Immigration Forum Board, which is a non-partisan group 
of people interested in a humane and enforceable immigration 
reform. We really appreciate your efforts to work together on a 
bipartisan basis. This is too important for any of us to play 
politics with. Thank you.
    [The prepared statement of Ms. Stockholm Walden follows:]
               Prepared Statement of Nan Stockholm Walden
                              May 9, 2016
                              introduction
    Chair McSally, I am Nan Stockholm Walden, vice president and 
counsel for Farmers Investment Co., (FICO), Farmers Water Co. (FWC) and 
The Green Valley Pecan Company here in Sahuarita, Arizona. I appreciate 
the opportunity to address you today on border security affecting our 
communities. A little over a week ago, I had to the opportunity to 
testify in Washington before the Subcommittee on Oversight and 
Investigations of the House Committee on Natural Resources on border 
security and my presence here today underscores how seriously we take 
these issues.
    FICO is a major agricultural enterprise founded by my husband's 
father R. Keith Walden almost 75 years ago. Today, my husband, Dick 
Walden, who is the president and CEO of the company, and the third 
generation of Waldens, including daughter Deborah and son Rich, are 
active in the company.
    We employ 260 permanent workers, many of whom also are second- and 
third-generation FICO employees, whom we consider family, as well. 
During harvest season, we hire an additional 50 to 60 workers, making 
us one of the larger employers in Pima County.
    FICO is the largest integrated grower and processor of pecans in 
the world. We are also the largest producer of organic pecans. Research 
has shown that pecans are rich in antioxidants, can lower harmful LDL 
cholesterol, and contain 19 essential vitamins and minerals, as well as 
being an excellent source of protein. FICO sells pecans to food 
manufacturers including makers of cereals, health bars, ice creams, 
candies, and bakery goods, to retail chains that package our nuts under 
their label, and directly to customers--both here and abroad. We also 
buy pecans from other growers in the United States and Mexico.
    FICO owns approximately 11,000 acres in Southern Arizona, of which 
about 7,500 acres are irrigated and under cultivation for pecan nuts, a 
tree native to North America.
    The FICO headquarters is located here in Sahuarita just over 40 
miles north of the border, and our home ranch is just less than 30 
miles. Our property in Amado is a horse and cattle operation that 
includes 160 acres of private land and a 6,000-acre State grazing 
lease.
    Consequently, we have the first-hand experience with border 
security challenges, and we know the difficult job the Border Patrol is 
tasked to undertake. The Border Patrol has responded to calls on both 
our farm and our ranch. I might add that our Border Patrol Tucson 
Sector Ranch Liaison, Jake Stukenberg, does an excellent job helping us 
cooperate with Border Patrol.
    I also serve on the board of directors of the National Immigration 
Forum, a non-partisan organization that works with diverse 
constituencies especially business, faith, and law enforcement leaders 
advocating for immigrants and responsible immigration policy. This 
policy must reflect immigrants' contributions to our Nation's history, 
culture, and growth, and their continuing contributions to our 
country's economy, especially in the agriculture and ranching sectors 
in rural communities.
    The views I am offering today are informed by this context.
       impact of permanent border checkpoints on our communities
    FICO has long-standing concerns about the effectiveness of 
permanent Border Patrol checkpoints and their impacts on the 
surrounding community including nearby public lands. We met often with 
your predecessors including former Rep. Jim Kolbe, and I served on Rep. 
Gabrielle Giffords' Citizens' Advisory Committee on Checkpoints.
    Those of us that live in areas surrounding the checkpoint have, for 
years, been exposed to the degradation of our public safety because of 
them--high-speed car chases through our neighborhoods, gunshot victims, 
and the like. I have experienced a high-speed chase by Border Patrol 
through my front driveway in Sahuarita, AZ that I am sure would have 
killed an employee or me had I not been in my home office at the time. 
The result was that a couple and 2 young terrified kids were 
apprehended, but there were no weapons or drugs found in their car.
    My neighbor at the Agua Linda Ranch was pushed down on the ground 
by Border Patrol Agents around 10 p.m., one night when he was near his 
ranch house, changing the irrigation set on his vegetables, dressed in 
his pajamas, despite the fact that he identified himself as the owner 
of the property.
    Our neighbors and ourselves have had many similar experiences of 
livestock buzzed by helicopters flying too low over pastures, gates 
left open, fences cut, and crossers asked to dump all their belongings 
on our property, which were left there, not confiscated. We have had 
numerous examples of Border Patrol Agents being unfamiliar or lost on 
our ranch property, which is within a quarter mile of the major North/
South Interstate, I-19.
    A senior member of our team who happens to be Mexican-American was 
stopped by the Border Patrol 40 miles north of the border on her way 
from her home to work. She was driving a late model SUV with 2 young 
daughters in the back in car seats. When she asked why she was stopped, 
the Border Patrol Officer replied, ``You fit the profile.''
    ``What profile is that?'' she asked.
    ``Driving a late model SUV and obeying the traffic laws and speed 
limit,'' was the reply.
    Sharing these stories with you does not at all mean we do not 
appreciate the efforts of the Border Patrol. Rather, proper training is 
crucial to Border Patrol Agents working successfully with rural 
communities. We have noted that because Border Patrol has significantly 
increased staffing levels in recent years, there is a lot of 
transferring agents from one sector to another, high rates of turnover, 
and lack of uniform training.
    The Border Patrol strategy, ``Defense-in-Depth,'' calls for 
retreating 30 or so miles from the border with fixed checkpoints. This 
strategy has us living in a no man's land and underestimates the 
intelligence of the enemy we are fighting--the drug and human 
smugglers. The assumption that these criminals will not circumvent 
fixed checkpoints and traverse through our neighborhoods, our ranches, 
our communities, and our public lands is not based in reality.
    There have been several in-depth examinations of the effectiveness 
and impacts of the Border Patrols checkpoint strategy.

    GAO, August 2009\1\.--This GAO report confirmed that the Border 
        Patrol was proceeding without adequate information on the 
        effectiveness of fixed checkpoints and their adverse impacts on 
        the public safety and quality of life of southern Arizona. GAO 
        found that there were ``information gaps and reporting issues'' 
        because of insufficient data, the agency was unable to compare 
        the cost-effectiveness of checkpoints to other strategies, and 
        the Border Patrol had misrepresented its checkpoint 
        performance. It also found that of all the apprehensions of 
        illegal immigrants in the vicinity of the I-19 checkpoint in a 
        certain fiscal year, ``94% occurred in the areas surrounding 
        the checkpoint, while only 6% took place at the checkpoint 
        itself.'' In other words, these statistics make it clear that 
        the checkpoint was driving criminal activities into the areas 
        surrounding the checkpoint.
---------------------------------------------------------------------------
    \1\ United States, Government Accountability Office (GAO). (2009). 
Checkpoints Contribute to Border Patrol's Mission, but More Consistent 
Data Collection and Performance Measurement Could Improve Effectiveness 
(GAO-09-824). Washington, District of Columbia.
---------------------------------------------------------------------------
    Udall Center for Studies in Public Policy, the University of 
        Arizona, December 2012 \2\.--After undertaking a detailed 
        statistical analysis this study found that the I-19 checkpoint 
        is having a significant impact on the property values of the 
        community surrounding this facility. This means that rural 
        communities in the vicinity of the checkpoint, like Tubac, 
        Arizona, are bearing a disproportionate economic burden for 
        this border security tactic.
---------------------------------------------------------------------------
    \2\ Gans, J., M.S., M.P. (December 2012). The Border Patrol 
Checkpoint on Interstate 19 in Southern Arizona: A Case Study of 
Impacts on Residential Real Estate (Rep.). Udall Center for Studies in 
Public Policy, The University of Arizona.
---------------------------------------------------------------------------
    Tubac is in a rural area 20 miles from the border. It has become a 
        major draw for tourists and businesses due to its historical, 
        cultural, artistic, and recreational facilities. Yet we know of 
        many visitors and potential residents who have cancelled 
        vacations or real estate purchases due to concerns about the 
        permanent checkpoint and appearance of extreme militarism in 
        the area. According to the Arizona Office of Tourism, tourism 
        spending generates $3.6 billion in economic activity annually 
        and employs over 30,000 individuals in southern Arizona.\3\ The 
        economic impacts of border security measures must be carefully 
        considered.
---------------------------------------------------------------------------
    \3\ Arizona Travel Impacts 1998-2014p. (2015, June). Retrieved from 
https://tourism.az.gov/sites/default/files/documents/files/
AZImp14pFinal_1.pdf. Report prepared by Dean Runyon & Associates.
---------------------------------------------------------------------------
    GAO, December 2012 \4\.--This report found, among other things, 
        that because of data limitations the Border Patrol is unable to 
        compare the effectiveness how resources are deployed among 
        sectors. Each sector collects and reports the data differently 
        thus precluding comparison. Policymakers and Border Patrol 
        leadership are unable to effectively assess the effectiveness 
        of tactics such as the checkpoint.
---------------------------------------------------------------------------
    \4\ Government Accountability Office (GAO). (2012). Key Elements of 
New Strategic Plan Not Yet in Place to Inform Border Security Status 
and Resource Needs (GAO-13-25). Washington, District of Columbia.
---------------------------------------------------------------------------
    The information in a report issued last month by the Congressional 
        Research Service (CRS) is also worth considering. In it, CRS 
        noted discussed unintended and secondary consequences of border 
        enforcement on border-area crime, migrant flow and migrants 
        deaths, environmental impacts, effects on border communities, 
        and U.S. foreign relations. Importantly, the report explains 
        that an ``unintended consequence of enhanced border enforcement 
        between ports of entry may have been an increase in 
        unauthorized entries through ports of entry and other means.'' 
        Specifically, the report found that ``based on three different 
        surveys conducted between 2008 and 2010, UCSD researchers found 
        that the probability of being apprehended while passing through 
        a port of entry without authorization was about half as high as 
        the probability of being apprehended while crossing between the 
        ports.''\5\ While the report does not specifically address 
        interior checkpoints, its findings raise yet again the question 
        of whether resources would be better shifted to border ports of 
        entry.
---------------------------------------------------------------------------
    \5\ ``Border Security: Immigration Enforcement Between Ports of 
Entry'', Carla N. Argueta, Congressional Research Service, April 19, 
2016.

    FICO believes that fixed permanent checkpoints threaten public 
safety in addition to resulting in significant economic consequences. 
It is clear in our view that they drive illegal activities away from 
the checkpoint into surrounding areas including Federal public lands. 
We strongly believe that the border should be secured at the border.
                    comprehensive immigration reform
    As long-time business owners who live and work within 30 to 40 
miles of the border, I cannot emphasize enough the inexorable link 
between border security and comprehensive immigration reform.
    We understand the gravity of the border situation--the drug-
associated violence, human smuggling, and environmental impacts--as 
well as the impacts of some enforcement activities on our commerce and 
property values.
    We also know the effects of poorly crafted or implemented Federal 
or State policies that create a climate of fear and discrimination 
among the civilian population--business and commerce decline and 
families suffer.
    That makes your job all the more challenging and important--and we 
thank you for hearing from the people like us who live this situation 
daily, and for those of you who have visited the border and talked to 
residents and those who work and travel on both sides of the line.
    In 2008, I testified before the House Subcommittee on Homeland 
Security, regarding the importance of comprehensive immigration reform. 
Much of what I said in 2008 remains a problem today.
    We must remember and appreciate the contributions of our legal 
immigrants and those in our area who are of Mexican-American descent, 
without whom agriculture and ranching could not flourish in the United 
States. The health care industry, restaurant and hospitality industry, 
construction, mining, and many other sectors depend on continued 
renewal of both entry-level and skilled labor from other countries.
    Mexico is our third-largest trading partner, behind Canada and 
China. The United States and Mexican economies are interdependent. As 
Mexico strengthens its institutions and economy, the benefits flow into 
our country, and there is less pressure for illegal migration.
    In our experience, the paths for both permanent and temporary legal 
workers in the United States are long, crooked, and in some cases dead-
ends. Since 1986 we have not uniformly enforced immigration laws, nor 
have we adequately dealt with ways to efficiently permit temporary 
workers, and provide a timely path to citizenship for those who merit 
it. Agricultural and other visa programs are impractical and 
unworkable.
    Polls show that most Americans favor comprehensive immigration 
reform, including a path to citizenship and that these levels of 
support have remained constant for more than a decade.\6\
---------------------------------------------------------------------------
    \6\ In United States, 65% Favor Path to Citizenship for Illegal 
Immigrants. (2015, August 12). Retrieved April 26, 2016, from http://
www.gallup.com/poll/184577/favor-path-citizenship-illegal-
immigrants.aspx.
---------------------------------------------------------------------------
    National security experts under both Republican and Democratic 
administrations,\7\ assert that the most effective border security 
strategy is comprehensive immigration reform. We must fix the 
immigration system by providing legal avenues for workers to enter the 
United States when needed and allow families to reunify. The 1986 
Immigration Reform and Control Act, which resolved the status of most 
undocumented immigrants at the time, did not adequately address the 
demand for legal immigrant labor. Because there continues to be a 
demand for immigrant labor, individuals from other countries who seek a 
better life are drawn to our Nation that is full of opportunity.
---------------------------------------------------------------------------
    \7\ Molnar, P. (2013, April 8). Panetta Lecture Series: Border 
security experts say immigration reform is vital. Retrieved April 26, 
2016, from http://www.santacruzsentinel.com/article/zz/20130408/NEWS/
130408557.
---------------------------------------------------------------------------
    By providing more avenues for these individuals to come to the 
United States through legal means, law enforcement and border officials 
will be able to spend fewer resources toward immigrants migrating for 
economic reasons and more resources toward genuine criminal and 
terrorist threats that could harm our communities. Smart enforcement 
and border security, coupled with comprehensive immigration reforms, 
can improve border security.
                               conclusion
    We appreciate the professional efforts of the Border Patrol and we 
certainly believe in securing our Nation's borders, preferably at the 
border or in the immediate vicinity.
    Congress should also enact comprehensive immigration reform that 
addresses our society's need for lawful immigrants, and, at the same 
time protects and enhances the public lands our growing population 
needs for recreational, economic, and spiritual needs.

    Ms. McSally. Thank you, Ms. Walden.
    The Chair now recognizes Mr. Krentz.

               STATEMENT OF FRANK KRENTZ, RANCHER

    Mr. Krentz. Chairwoman McSally and Mr. Pearce, thank you 
for coming down here today. My name is Frank Krentz. I am a 
fifth-generation rancher in Cochise County on the same piece of 
ground that my forefathers started 109 years ago.
    Almost 6 years ago one morning my cousin, my uncle, my 
father, and myself sat down for breakfast and talked about what 
we were going to do for the day. When we finished my cousin and 
I went to move cows while my father went to check a motor and 
my other uncle went to look at other waters on the ranch. That 
was the last time I saw my father. Rob Krentz was on his way to 
check the motor when he called his brother on the cell phone 
and said there was someone walking across the pasture and was 
going to go see what was going on.
    Friends and neighbors came to help us look for my father 
when we couldn't get a hold of him for hours. A neighbor called 
the sheriff's search and rescue team and they started looking 
as well. The news came in late that night that they had found 
my father.
    Rob was a great and caring man, helpful to others and 
dedicated to the way of life that he loved. He worked to help 
others, volunteering his time to help the local school, 
community, family, and friends.
    To understand where I am coming from, you need to know the 
people that live in this area. Most of the people in this part 
of the world have had at least one incident that has involved 
problems with people trespassing across from the Southern 
Border illegally. When I was younger we would see people 
crossing the border and knew that they were running from 
problems worse than getting caught on the northern side. 
Knowing that the Arizona desert can be dangerous to cross, we 
would make sure that there would be Border Patrol on the way to 
help them. I can remember a time in 1999 I saw two different 
groups of people crossing the ranch that numbered larger than 
100. We used to approach these people as Christians to make 
sure that there were no injuries and tell them that Border 
Patrol would be here shortly to help them. We would always do 
this even after we had had our houses broken into, our vehicles 
stolen, trash left in the country, and water lines broken. 
There have been many times when we would go and check storage 
tanks that we would spend a week's worth of time to make full 
be drained because illegals would break water lines or floats 
to get a drink of water and draining thousands of gallons of 
water out on the ground. We would still try our best to give 
these people help.
    After losing my father, all of that changed. Now we don't 
go near these people. Not knowing what the situation holds, we 
don't put ourselves in a position that would get us into 
trouble. The people we see now are not the large groups fleeing 
but the small groups packing drugs. There have been pictures 
taken of these small groups armed as well.
    I was told once by a U.S. Congressman that the people along 
the border have become numb to the whole border issue, that we 
have gotten used to the idea that this is the new normal if we 
want to live here. I wouldn't say that we have become numb, but 
we have become resilient, that we want to live in this part of 
the world, that many of the families around have been here for 
many years and generations and hope to have many more 
generations in this part of the country they have carved out 
for themselves.
    People who aren't from here get shocked when I tell them 
the problems we face on a daily basis. They ask why don't you 
move away from there? It is hard for some people to know what 
100 years of working in one place can look like. I am a fifth-
generation rancher and feel a sense of pride of what I am 
doing, raising livestock for our Nation, being out in the 
country and working in a business sector that less than 2 
percent of the country are able to do.
    As our guests leave here today, I would like you to take 
with you the gratitude from me and my friends and family for 
hearing what we have gone through, to go back and say that 
there is a problem that needs more attention.
    Before I close and I have a little bit of time, I would 
like noted in the record some other issues that need to be held 
up. Ever since I was a little kid, one of our family friends, 
Gary Thrasher, the local in the area, and I am sure you all 
have met him before, he has always voiced to me that one of the 
major issues that is seen in rural agriculture is disease that 
can be easily transported across the border. My great uncle in 
the '40s and '50s fought back tuberculosis and hoof and mouth 
out of the United States, and fought it into Sonora, Mexico, 
into Chihuahua, Mexico, and fought it deep down south. The 
Mexican government has been doing good work trying to regulate 
that disease and the health of the animals to keep it away from 
our borders, because once that does get into our Nation's food 
supply, it can be very detrimental. It can eradicate whole 
herds in whole counties. It can be that fast-spreading.
    Another issue that I would like you to be aware of is what 
Mr. Ortega was saying about how the population has decreased 
over the last number of years. It has also affected the land 
values. I have had a neighboring rancher that has recently had 
to have his ranch appraised for a business organization, and he 
says in the last 15 years his ranch has lost half of its value 
just because of the location to the border.
    When you go back, I would like you to heed that there are 
issues that are addressed and that securing the border is not 
just not allowing anybody in but it is controlling what can 
come in and making it a manageable factor because, with a 
simple ranching analogy, if you run too many cows, you are 
going to run out of grass, and then you are not going to be 
able to run any. So I would like you to go back and thank you 
for listening to us today. Thank you.
    [The prepared statement of Mr. Krentz follows:]
                   Prepared Statement of Frank Krentz
                              May 9, 2016
    Almost 6 years ago one morning my cousin, my uncle, my father, and 
myself sat down for breakfast and talked about what we were going to do 
for the day. When we finished my cousin and I went to move cows while 
my father went to check a motor and my uncle went to check other waters 
on the ranch. That was the last time I saw my father. Rob Krentz was on 
his way to check the motor when he called his brother on the cell phone 
and said there was someone walking across the pasture and was going to 
see what was going on.
    Friend and neighbors came to help us look for my father when we 
couldn't get a hold of him for hours. A neighbor called the sheriff's 
search-and-rescue team and they started looking. The news came in late 
that night that they had found my father.
    Rob was a great and caring man. Helpful to others and dedicated to 
the way of life that he loved. He worked to help others volunteering 
his time to help the local school, his community, and friends and 
family.
    To understand where I am coming from you need to know the people 
that live in this area. Most of the people in this part of the world 
has had at least one incident that involved problems with people 
trespassing across the Southern Border illegally. When I was younger we 
would see people crossing the border and knew that they were running 
from problems worse than getting caught on the northern side. Knowing 
that the Arizona desert can be dangerous to cross we would make sure 
there would be Border Patrol on the way to help them. I can remember a 
time in 1999 I saw 2 different groups of people crossing the ranch that 
numbered larger than 100. We used to approach these people as 
Christians to make sure there were no injuries and tell them that 
Border Patrol would be here shortly to help them. We would always do 
this even after we have had our houses broken into, vehicles stolen, 
trash left in the country, and waters broken. There have been many 
times when we would go and check storage tanks that we would spent a 
week's worth of time to make full be drained because illegals would 
break water lines or floats to get a drink of water and draining 
thousands of gallons of water out on the ground. And we would still try 
our best to get these people help.
    After losing my father all of that changed. Now we don't go near 
these people. Not knowing what the situation holds we don't put 
ourselves in a position that would get us into trouble. The people that 
we see now are not the large groups of people fleeing but small groups 
packing drugs. There have been pictures taken of some of these small 
groups armed as well.
    I was told once by a U.S. Congressman that the people along the 
border has become ``NUMB'' to the whole border issue. They have gotten 
used to the idea that this is the new normal if they want to live here. 
I wouldn't say that we have become ``NUMB'' but we have become 
resilient; that we want to live in this part of the world, that many of 
the families here have been here for many years and generations and 
hope to have many more on this part of the world they have carved out 
for themselves.
    People who aren't from here get shocked when I tell them the 
problems we face on a daily basis. They ask why don't you move away 
from there? It is hard for some people to know what 100 years of 
working in one place can look like. I am fifth generation on the ranch 
and feel a sense of pride of what I am doing raising livestock for our 
Nation. Being out in the country and working in a business sector that 
is less than 1% of the country are able to do.
    As our guest leave here today I would like you to take with you the 
gratitude from me and my friends and family for hearing what we are 
going through. To go back and say that there is a problem that needs 
more attention than what is given to it. Finally, that we work hard to 
stay in this country that we live in and we want to be able to continue 
to live and work free of fear of what would happen if we were to leave 
our house to go to work.

    Ms. McSally. Thank you, Mr. Krentz. I have to say for 
myself and Mr. Pearce, our hearts continue to be with your 
family. You know personally the price that you paid every day, 
the loss of your dad from an unsecure border. I really 
appreciate you coming and sharing your perspective today.
    I want to thank you for the diversity and the perspectives 
of the whole panel.
    I want to start with a similar question I asked the first 
panel, which is--well, part of it is what trends have you seen 
over the last decade, shifting really from potentially more 
people coming to find work versus hardened cartels that are now 
controlling traffic that have become far more dangerous?
    What do you want Washington, DC and others--what do you 
want in the record besides what you just said, the trends that 
have changed over the years? What do you need them to hear from 
you and your perspectives about what is going on in our 
communities? If the President were standing before you today 
and you are the new Secretary of Homeland Security and you are 
in charge of now securing the border, it is your strategy, it 
is your ideas, you are resource unconstrained, from each of 
your perspectives what would that look like? What would you do 
in order to address these issues that you have all very 
eloquently brought to our attention today?
    Starting with Mr. Bell.
    Mr. Bell. Well, I think I would start with what my main 
point was, actually getting access to the border. The previous 
panel talked about the wilderness areas and things of that 
nature that prevent access and prevent sometimes the ability to 
patrol the border if there is an actual pursuit going on. There 
are MOUs in place.
    But a lot of our ranch is on Federal land, and there is a 
big process that needs to be gone through to get roads put in. 
We just had a 2-mile stretch of road put in along the border, 
as close to the border as you could get it, because the terrain 
is very, very difficult. So they were able to get it as close 
to the border as possible, but that process took more than a 
decade to get done, and most of it, because of the required 
permitting and everything else to get it okayed, to get it 
done, it took about 4 years to construct, and they are just 
finishing it up right now, and it is 2 miles. But it has made a 
difference.
    Technology has made a difference, but it is only in a 
limited space, like I told you. We need to keep that progress 
and keep it going.
    So for me, it is getting the access, getting to a place 
where we can defend, and then having the resources to back it 
up, because there is no silver bullet. It is not just that one 
thing. We need everything. We need boots on the ground. We need 
consequences. We need air support. We need everything to get it 
done because there is not one key you can stick in that is 
going to stop it. You need to have a myriad of things to do 
that.
    Ms. McSally. Thanks.
    Mr. Adams.
    Mr. Adams. Thank you. One of the huge trends that has 
changed are the types of folks that we encounter in the Migrant 
Resource Center. Our ministry began 10 years ago having what is 
called the Migrant Resource Center on the south side of the 
border, and we have received over 86,000 men, women, and 
children who have been returned to Mexico from the United 
States by our U.S. Border Patrol.
    Early in that time, there were lots of folks who were 
crossing for the first time, going for job purposes, things 
like that. One of the things we have seen dramatically in the 
last piece is the number of people who are returning to the 
United States, not going for the first time, usually going to 
be reunited with families in the United States. There is 1 
woman I mentioned in my written testimony, Hermina, who has 
lived in South Carolina for over 10 years, and she ended up in 
the Center, has a 6-year-old son who was born in South 
Carolina, and she returned to Mexico to see her dying father. 
She talked about being caught between two worlds. She said just 
pray for us, pray.
    So that is a reality that we are seeing, is more folks, 
especially from Mexico--there is not as much economic 
migration, but the folks who are returning from Mexico tend to 
be folks returning. So that is a big trend.
    The other trend that we saw at our prayer vigil--every 
Tuesday we have a prayer vigil for those who died crossing into 
the United States, and one of the things that we began seeing 
in the early 2000s is more and more women showing up on the 
crosses that were there. This is going back a little bit 
historically, but there was a shift from mainly young men 
crossing the border to women crossing the border.
    One of our partners in Colorado, we were up visiting there 
and they took us to a place where they just have migrant 
housing. It had been a big kind of bunkhouse, and it had been 
changed into townhouses. So we asked them what has changed, and 
they said now families are coming, women are coming.
    So one of the ironies of our border security policy of the 
'90s is that in many ways we did a better job of keeping people 
in the country as opposed to out of the country, because it 
changed historic patterns of migrating for 5 years or so, going 
back every year. As it became harder and more expensive and 
more dangerous to return home between seasons, people stayed. 
Once that happened, and I have personally had families struggle 
with this, what do you do with separated families? So more 
women have gone.
    Unfortunately, there is a higher percentage of women dying 
as opposed to their numbers than men, and that is something we 
have seen as well there.
    A trend that we haven't seen change is the percentage of 
death happening in crossing, even as the number of people 
crossing has gone down. The percentage per crossing of people 
dying has actually maintained the same or increased a little 
bit. So that is a disturbing change that has not changed and 
needs to change.
    Then the second piece that hasn't changed that needs to 
change is the dichotomy between security and immigration 
reform. I think that is a very false dichotomy, and it is a 
very dangerous dichotomy, because we have been hearing it for 
20 years. It seems like a simple thing to me, and maybe it is 
not, but it seems like if we take folks who are coming for 
economic reasons or for family reasons, like many of our 
ancestors had come in the past, and look at the economic 
realities on both sides of our borders, and we provide for safe 
and efficient ways for folks to come through ports of entry, 
then it would be a lot easier for our law enforcement to be 
able to detect folks who are coming with ill intent.
    So I think we need to change that trend, and you can be one 
of the persons to change that trend, to say that is a false 
dichotomy and it needs to change, because if it doesn't change, 
we are not going to have a secure border and we are going to 
continue to increase the number of people who die trying to 
reach the American Dream.
    Ms. McSally. Thank you.
    Mr. Chamberlain. Chairwoman McSally, if I had an unlimited 
amount of resources, there are a ton of things I would do, and 
if I had the President in front of me I would say a whole lot 
of things. One of the things that is most important to us and 
what I testified to is toward the efficient and expedient flow 
of commerce between the ports of entry. That is extremely 
important for us in Nogales, Arizona.
    One of the things that is bothersome is that within the 
Department of Homeland Security structure you have Border 
Patrol, which is funded by direct appropriations, and you have 
Customs that is partially funded by user fees and direct 
appropriations. I think that is an issue that needs to be 
addressed. It shouldn't be an either/or issue. I think commerce 
is just as important as what happens in the rural areas of the 
United States. I have a tremendous amount of respect for the 
ranchers and for the rural areas of Arizona. I have a great 
relationship with Dan Bell. We happen to be neighbors and 
growing up as kids, and I understand their issues. Even the 
agent Del Cueto said the agencies did not grow in the same way 
in the last 10 years, 10 to 15 years.
    I think that as we strengthened between our ports of entry 
in the rural areas where we grew the Border Patrol, I think we 
had a tough time growing Customs, and therefore many more ports 
of entry became porous. As you can see from the terrorists from 
9/11, they all came through a port of entry, whether it was a 
sea port, a land port, or an airport. They didn't come through 
the desert. That doesn't mean that that can't happen in the 
future. But our ports of entry, I believe, are just as 
important, and they are just as dangerous.
    You have the Port of Nogales that catches as much drugs as 
any 5 ports on the southern border of Texas. So that is 
extremely dangerous, and it is only escalating. It is also 
dangerous to have an understaffed port of entry. You have 
agents on the border that are working 16-hour shifts and they 
have very, very little time to determine what is in front of 
them. When they have a car that comes in front of them or a 
pedestrian that crosses right in front of them, they have very 
little time to examine them and figure out exactly if they are 
coming for legitimate trade and legitimate purposes or for 
illegal purposes.
    So I think that that is one of the things that I would ask 
you all to change. When I ask you to change the paradigm, that 
is one of them.
    Mr. Del Cueto also says that the metrics in which the 
statistics are given are probably not true. I tend to believe 
him. I think that we should be able to have a much better 
metrics. But that also applies to our ports of entry. It is not 
only in our rural areas where we have figures and statistics 
that are not correct but it is also at our ports of entry.
    When we say in Washington that our ports of entry are 
secure, that is not correct. If we are getting the amount of 
drugs and illegal contraband, whether it is counterfeit money 
or counterfeit Levi's or counterfeit shoes or whatever it may 
be, or even southbound with illegal proceeds or weapons and 
bullets that are found in our southbound inspections, then we 
have just as much of a danger there as we do in the rural 
areas.
    But let me be clear: This is not an either/or thing. I 
believe the Federal Government can do both things at the same 
time. Securing Danny Bell's ranch and securing Jaime 
Chamberlain's port of entry are extremely important, but they 
are not just our situations. They are all our country's 
situation, and they are definitely an issue for the State of 
Arizona.
    We tend to be looked over when the strategy comes into 
place. I really, really thank you all for allowing us to 
testify in front of you, to have a voice in Washington, DC so 
that you can convey what we feel every single day. This is 
something that has been lacking for the State of Arizona for 
many, many years. Finally, we have a seat at the table. 
Hopefully we are going to be heard. Thank you.
    Ms. McSally. Thank you, Mr. Chamberlain.
    Before we go on to Ms. Walden, I just want to reiterate the 
importance of many of the issues that you raised at our ports 
of entry. Again, we were focusing on the rural areas between 
the ports, but we have to chew gum and walk at the same time. 
We have to be able to do both of these. These are vitally 
important. For those who are in the audience and didn't tune in 
to our last hearing, this is something that is impacting us 
from a security and an economic point of view in Arizona and 
across the country.
    I am proud to say my first bill passed into law is the 
Border Jobs for Veterans Act, which is intended to address some 
of these shortage issues. It takes 18 months for someone to be 
hired for one of these critical positions at our ports of 
entry, 18 months. You said we should be moving at the speed of 
business. It is moving at the speed of bureaucracy, and nobody 
can wait for 18 months to get a job. While we need to vet them, 
this is just unsatisfactory, and we are going to continue to 
hammer and do what we can in order to speed up this time line 
for those that are veterans and others that are looking for 
these jobs that are critical.
    This next week in Congress we are going to be voting on a 
number of bills related to the opioid tragedy that is happening 
across our country. We have an epidemic of those that are 
addicted and dying from opioid abuse. This is like we have not 
seen in my lifetime, these last few years, and the price of 
drugs, the price of opioids is still cheap. So we have a long 
way to go to be able to address this issue, and it is literally 
causing the deaths of the sons and daughters in our community, 
and we have to address this in a very holistic approach as 
well.
    So I just wanted to comment on that and hand it to Ms. 
Walden.
    Ms. Stockholm Walden. Thank you. As you can see, there is 
more that we agree on than we disagree on, and sometimes we 
find it very hard to understand why our representatives in 
Washington can't sit down and reason together on such vital 
issues.
    I would like to echo really what everyone has said so far. 
You know, we are confusing Juan, or Juanita as the pastor 
pointed out, who just wants to come here and work, maybe 
seasonally or maybe earn a legal path to citizenship, with Juan 
the drug smuggler, and that is the big problem. Border Patrol, 
speaking off the record when we talk to them on our ranches and 
farms they will say, you know, right now I am looking for a 
needle in a haystack. My haystack is too big. I have all these 
people lumped into the same category. If there could be a way 
to differentiate so I could really focus on the terrorists and 
the drug smugglers and the human smugglers and the people that 
mean our country harm and, frankly, harm to Mexico as well, 
that would make my job so much easier. Which is why, again, I 
agree so much with what Jaime Chamberlain just said about the 
need to do immigration reform hand-in-hand.
    If we had an I.D. card with a biometric marker, if we had a 
reasonable path to citizenship, or at least a temporary worker 
permit so they could work here while they are trying to become 
citizens if they are eligible, it would cut out the underground 
economy. They would pay taxes. They would pay into Social 
Security. We would eliminate the employers who are abusing 
them. We would eliminate people being afraid to report criminal 
activity or domestic violence. We would eliminate all these 
hardships on these families who might have some members who are 
legal. The children might be legal but maybe the grandfather or 
one of the parents is not legal.
    It is just tearing this country apart. Let's remember for a 
minute, this was Mexico where we are sitting up until recent 
times, and we still have families that live and work on both 
sides of the line, that own ranches and farms on both sides of 
the line. We source pecans from Mexico. Our countries and our 
cultures are so integrated here, and this is true of the Native 
American people too, by the way, who live on both sides of what 
is currently the border.
    So we also, I think, need to realize that the Border Patrol 
and this new organization under Homeland Security is relatively 
new. It doesn't have the checks and balances of our military. 
Frankly, I don't believe it has the strategic capabilities of 
our military in many ways. The training, the lack of metrics--I 
think both GAO and the University of Arizona Udall Center and 
some other studies that have been done show that the Border 
Patrol isn't keeping statistics correctly and accurately, the 
way that we do in the Armed Forces, for example, and I think 
this is very important.
    So I think anything that can be done organizationally, 
anything that can be done to increase the training of a lot of 
these young agents--frankly, it is not just more boots on the 
ground, but it is the training and the coordination and their 
work with local law enforcement. That is really what is going 
to make them successful in their missions in the field.
    Then from all standpoints, one of the groups--I serve on 
the board of the National Immigration Forum. It has formed the 
Bibles, Badges, and Business Coalition. These are people from 
the faith community, from law enforcement, and from the 
business community. We all agree on the problems here, and at 
least on some of the solutions.
    So again, we are grateful for you being here today and 
gathering the information first-hand, and certainly also your 
efforts on the drug treatment. We have to have on-demand 
treatment. We have to recognize that this drug pandemic is like 
a war. It is wiping out a generation of Americans. It is 
leaving others impaired forever. They are going to be a huge 
burden on our society, and it is a huge loss of the best and 
the brightest that are going to be our future leaders. So we 
commend you on your work on that as well.
    Ms. McSally. Thank you, Ms. Walden.
    Mr. Krentz.
    Mr. Krentz. Being the last one on the panel, I could say I 
concur and I would be fine.
    [Laughter.]
    Ms. McSally. We will start with you on the next round.
    Mr. Krentz. Right.
    You build a 12-foot wall, somebody is going to build a 13-
foot ladder. You build a 50-foot-wide wall, somebody is going 
to dig a half-mile tunnel. I don't think a wall is the end-all 
answer. Half the border isn't secured with a wall because of 
terrain. It is just that difficult to put in.
    There are current laws and regulations on the books that 
are very valid and very feasible. The people that are on the 
ground, the Border Patrol, the sheriff departments--the sheriff 
departments are a lot more agile on accessing their laws so 
that they can prosecute perpetrators than the Border Patrol 
has. If there was a better way for the Border Patrol to be able 
to do what they are able to do and capable of but not able to 
do, that would solve a lot of the situation.
    An easier way for people to get a direct visa. If somebody 
wants to come to this country--my grandfather, prior to the 
Vecera Program, worked people and helped them into citizenship, 
and if you want to find somebody that is more aggravated with 
illegal immigration, go talk to those gentlemen that are now 
productive members of society in America and are proud to be 
here that worked through the proper system. They are very 
aggravated with people who are taking advantage of the system.
    If there was an easier way for them, for the people that 
want to be in here to be in here, that would make our illegal 
crossing and the deaths across the arid Arizona and New Mexico 
regions a lot less of an issue.
    One of the other things is the circuit courts. Why do we 
hear of people who are crossing the border ask, when they get 
caught by Border Patrol, where am I at? Am I in Arizona in the 
9th Circuit, or am I in New Mexico in the 8th Circuit? That is 
all on the leniency of the court system. The further west you 
go, the more lenient you are on issues like that. I know those 
are kind of taboo types of subjects, but that is what is 
happening out here.
    If you could address some of those issues, you could 
probably get ahead. If you add unlimited funds to solve the 
situation, a simple rancher analogy: Make that side of the 
fence better than your side so that people want to stay home. 
You have to get rid of the hierarchy that is entrenched into 
the society. But that is something that has been that way for 
many, many, many, many, many years.
    But I believe if you could start letting the Border Patrol 
do what they are capable of, and then the way the judicial 
system is set up, you would have a pretty good start. There is 
no reason to start new laws when some of the ones that are here 
already work. Thank you.
    Ms. McSally. Thank you, Mr. Krentz.
    Before I hand it over to Mr. Pearce, I am always trying to 
look for where we can find agreement, so I just want to 
rephrase what I think I heard, although there are some 
different perspectives from the whole panel. This is not 
intended to be about immigration reform as its main focus, but 
I think everyone on the panel--there may be great disagreement 
on what to do with those who are here illegally, and we could 
debate that for the rest of the day, but I think everybody here 
agrees that we need a legal immigration system that actually 
allows for people to come over and spend money for the day, 
come shop at our malls and come through the ports of entry in a 
way that they are vetted and able to either shop or work 
temporarily in positions that are going to grow our economy.
    We can't accept everybody. We can't. But there has to be a 
better system right now. It is cumbersome. It takes too long. 
It is confusing. It is based on random country quotas that 
allow people to come through the turnstile that are actually 
going to help our economy, not hurt our economy. So there needs 
to be a revamping and a modernizing of the legal immigration 
system. Is that a fair statement that everyone on the panel 
agrees to? I just want to hear a yes out of everybody.
    Mr. Bell.
    Mr. Bell. Yes.
    Mr. Adams. Pastor Adams.
    Mr. Adams. Yes.
    Ms. Stockholm Walden. Yes.
    Ms. McSally. Jaime.
    Mr. Chamberlain. Yes.
    Ms. McSally. Okay. Great. We found another area that 
generally, again--how that happens is a lot of devils in the 
details, but addressing that particular issue so that we can 
focus on the transnational criminal organizations. Again, there 
are still some challenges moving forward with all of this, but 
I just wanted to find those areas of agreement.
    Now I will hand it over to Mr. Pearce.
    Mr. Pearce. Thank you, Madam Chair.
    Just following up on that agreement, there is actually down 
in the trenches in the back rows much more agreement between 
the parties. The differences come as it moves towards 
leadership. The leadership in both parties have agreements and 
hooks or whatever. That is just the truth of the matter.
    Beto O'Rourke out of El Paso, he and I worked on a couple 
of bills, and we felt like we should show that Democrats and 
Republicans are working together. Then we said we ought to go 
at the hardest issue, and that is immigration. So we have a 
couple of bills that are very limited, but I think if we would 
start taking limited solutions to pieces of the problem, we 
could start unraveling it. But many in Washington just refuse 
any single attempts and efforts. That is one reason the system 
bogs down.
    Mr. Chamberlain, I appreciate your passion about business. 
Again as a business person, that is something I can identify 
with. But I will tell you from my perspective on this side of 
the table that when we increase the assets, we don't usually 
see much change, and it gets very frustrating. So we increased 
the Border Patrol by double back under President Bush, but in 
the last 10 years, from 2005 to 2015, Customs has gone up 
double, from about $5 billion to $10 billion, and I am hearing 
that it hasn't changed any.
    So, did you want to say something? Then to the whole idea 
of technology, right now we have towers and cameras going up. 
Mr. Bell, you mentioned those. But a decade ago we put $200 
million into a system that was supposed to be computers, 
towers, and cameras, and we did not, the whole border did not 
get one functioning system. Some have towers and no computers, 
some had cameras and no towers, some had computers and no 
towers or cameras, and you get very frustrated with an agency 
that will squander $200 million, that will squander everything 
you put in.
    So it is a very frustrating thing to hear that the money we 
are channeling into Customs--not Border Patrol; that is 
different. So the money we are channeling to Customs, it never 
feeds down to here. We lobbied and got a new border crossing at 
one of the towns in our district, and then again they started 
saying the day after they built it, well, it should have had a 
truck lane and it doesn't.
    You know, you just sit here and you say you built the thing 
from new and you designed it, not Congress.
    Go ahead, sir.
    Mr. Chamberlain. You are correct, and I am very frustrated. 
We worked very diligently in Nogales, Arizona, and there were 
many stakeholders that worked diligently on the building and 
the remodeling of the Mariposa port of entry. It was a 
tremendous feat and we were extremely fortunate that there was 
stimulus money and that our project was shovel-ready at the 
time that funding became available.
    Even with that said, Customs changed their processes and 
asked that once we were almost done with the remodeling, that 
they were going to start checking all of the southbound trucks, 
and they would have random checks of southbound cars also. So 
with no more Federal funding available, Customs was very, very 
creative in coming up with and changing their budget to include 
2 southbound lanes which were absolutely necessary. Those 
southbound lanes and that southbound inspection has--I don't 
know how many weapons and ammunition caches they have gotten, I 
don't know how much money they have gotten, but it has been in 
the millions of dollars' worth, and it has been extremely 
essential.
    But with that said, we still don't have a port of entry. We 
have a brand-new port of entry, but it is understaffed by 300 
agents. To be understaffed by 300 agents is absolutely not 
acceptable for the State of Arizona or for our country. The 
canine units, which to me would have been a little bit easier, 
we are at 20 canine units below what we should be.
    So the funding may be getting to somewhere, but it is not 
getting to the border, and it is not getting to the line. We 
are losing more agents to attrition than we are in how fast we 
are hiring. We are not hiring fast enough.
    Now, Congresswoman McSally has made changes in the billet 
so that the hiring process is a little bit more streamlined. 
That is a start. That is definitely a start. But the 
recognition, I think, is even more important that our ports are 
not adequate, whether they are in Long Beach in a sea port, or 
the Houston airport, or a Nogales port of entry. They are not 
efficient, not one bit whatsoever. If we were to have more 
efficient ports of entry, our economy would be booming. That is 
part of it.
    Mr. Pearce. I think that is probably my point when I said 
earlier that the systems are broken completely in Washington, 
because we are dedicating the resources, but they don't have 
enough internal discipline or process to see that the resources 
get where they need. So it gets very frustrating, and I 
appreciate your input.
    Ms. Walden, you said that you all use the e-Verify now. As 
an employer in the oil field, my wife and I had a small 
business. We were frightened every day that we didn't have it 
and they would start charging us $10,000 a day.
    Ms. Stockholm Walden. Right, right.
    Mr. Pearce. Is the e-Verify actually working now?
    Ms. Stockholm Walden. You know, it has been very good. We 
were a little bit worried because we started very, very early, 
around the time of SB 1070, the State law, which we had 
problems with major provisions of, but we were a little worried 
that with the tremendous demand, as more and more employers 
used it, that it might break down. But, actually, it takes a 
couple of hours of training for your personnel or HR person, 
and we have a couple trained in it, and the one problem we have 
had occasionally, as you know, in the Hispanic culture there 
are often multiple names, and the maiden name as well as the 
surname of the father. So sometimes with multiple names and 
depending on how many they use, it might kick back somebody who 
is legal, but we usually just put it back through again and it 
works out, or it doesn't. But it really has helped 
tremendously, and we think that employers should be required to 
use that.
    I think to Mr. Krentz' point earlier, the problem is when 
our grandparents came across, it didn't take 10 years to go 
through the process to be made legal. There is a problem. You 
weren't penalized for working during that time and forced into 
an underground economy while you were trying to get your 
paperwork for either temporary or permanent citizenship. So 
again, it goes to the efficiencies. You are absolutely right. 
But it definitely has an impact on business.
    Mr. Pearce. Again, I will re-look at that because I have 
been one of the ones who has been reluctant to have 
consequences for employers, because if your Government can't 
tell you who is legal and who is not illegal, how can you then 
push the responsibility down to employers? But if the e-Verify 
is starting to tighten up the process, then I will re-look at 
that.
    Mr. Adams, I appreciate your heart for the human situation. 
I was left with a question as you testified. Would you contend 
for an open border? You compared it to North Carolina/South 
Carolina, and then the huddled masses wanting to come here. So 
I am just trying to clarify for myself that that would be your 
position, that you would favor just a plain open border?
    Mr. Adams. I am here as a representative of the 
Presbyterian Church, as well as just as an individual.
    Mr. Pearce. Just you as an individual. I am not asking 
their position.
    Mr. Adams. I can't separate that right now. The policy of 
the Presbyterian Church is in the written testimony. That would 
state that nations have the right to determine who enters and 
doesn't. My contention would agree with that and to make that a 
safe and efficient way that folks can come through ports of 
entry and not go through deserts.
    Mr. Pearce. I would ask Mr. Bell, but I think I know the 
answer. Is the barbed-wire fence more effective than the 12-
foot-high fence?
    Mr. Bell. Just to answer a previous question that you asked 
to the other panel, yes, we do have those smuggler signs, 
smuggler and illegal activity in the area. So we have that on 
our ranch, actually. As people go in and recreate, they get to 
see those.
    But it will be interesting to find out because we got the 
2-mile border wall that had a road constructed alongside of it. 
They just completed that extension road of 2 miles along the 
barbed-wire section, which there is no funding to do a border 
wall. So it will be interesting to see what happens. But the 
technology has been placed in the area.
    I will tell you, even before the things were turned on, we 
were seeing differences in patterns of folks coming through. 
Granted, it was getting pushed over to the western portion of 
the ranch onto some of our neighbors, but it was coming, people 
could see it. They could see the road systems coming, and they 
are looking to stay away. That is not to say they are not 
coming through, but they are being detected.
    So we have had a couple of drug seizures and vehicles due 
to the cameras picking things up. Some people who are crossing 
illegally are getting picked up along the way. So it has 
definitely made a difference.
    Time is going to tell, but it is my contention that if you 
can get down there and patrol the border, regardless of whether 
it is the 18-foot fence, the south fence, or the barbed-wire 
fence, being able to patrol the border is going to make the 
difference. That is what is going to make the difference.
    Mr. Pearce. Okay.
    Madam Chair, I just have a couple of quick questions, and 
they don't need very long answers.
    Mr. Chamberlain, the X-ray units that are there, do you 
have them here in Nogales, and are they working? They are 
supposed to X-ray the entire truck and just see in a second if 
they need to pull it out of the line and then tear it apart. 
Are those working? Do you have them here?
    Mr. Chamberlain. We do have them here. At the new port of 
entry we do. They do about 7 trucks in about 90 seconds, 
something like that. So they are much more efficient. We 
process during our peak season anywhere between 1,600 and 1,800 
trucks a day. We have the capability at the brand-new port of 
entry to process over 4,000 trucks a day. Hopefully, as a 
businessman, that is my goal, to get to that, to get to max 
capacity for our port of entry. But if we don't have the 
staffing for it, there is no use. You can have all the 
technology you want and at the end of the day you still need 
the staffing for it. There is a human instinct about 
contraband, and you still need that. Machines can't do 
everything.
    Mr. Pearce. I would ask where the doubling of funding went 
and how come it didn't go to the Nogales port. Anyway, you got 
that out of the way at least.
    Mr. Chamberlain. Thank you. I appreciate that.
    [Laughter.]
    Mr. Pearce. Mr. Krentz, your father helped people who were 
coming across, gave them water, gave them food. Is that more or 
less correct?
    Mr. Krentz. Yes.
    Mr. Pearce. They knew that, the people on the other side of 
the border. They know who is over here.
    Mr. Krentz. Yes. We also, growing up, even when my dad was 
growing up, we had dealings with the ranchers on the other 
side. We would trade cattle across, bought cattle at the 
Mexican border there in Agua Prieta. We have been in the area a 
long time. But just like you said earlier, with the cartels 
coming in, the whole mentality of who is there and what their 
morals are has changed as well.
    Mr. Pearce. That is right. So did you all have a feeling 
that was retaliatory for turning in groups or whatever?
    Mr. Krentz. Oh, I would hope not, but I don't know. I think 
it was more about----
    Mr. Pearce. You don't think people on the other side said, 
okay, if you are going to cooperate with law enforcement, we 
are coming to get you? You don't think----
    Mr. Krentz. No. I think the guy that was probably involved 
was probably just not a good person.
    Mr. Pearce. Just a single instance of----
    Mr. Krentz. Yes. But the reason that he was there was not 
because he was trying to find a hotel cleaning job.
    Mr. Pearce. Right. Okay.
    Madam Chair, thank you very much. I would yield back. I 
appreciate the opportunity.
    Ms. McSally. Thank you, Mr. Pearce.
    I want to highlight--you mentioned the waste, a lot of 
waste of money. There has been significant waste of resources 
put into a lot of good ideas. One of my 7 bills that passed the 
House is called the Border Technology Accountability Act. It 
is, as we speak, awaiting movement in the Senate. We could get 
this thing on the President's desk, which is basically intended 
to provide oversight and accountability to procurement programs 
for border technology. I mean, this is common-sense stuff to 
make sure we are good stewards of taxpayers' money, and it was 
unanimously passed in the House. We expected it to slide 
through. We thought it would be law by now, but somebody--there 
is evidently a Democrat holding it up in the Senate and not 
letting it go through. The intel that we were getting is a 
statement along the lines of they don't want to see Republicans 
get a win on anything related to border.
    This is part of the dysfunction in Washington, DC. This is 
something everybody could agree upon, let's be good stewards of 
taxpayer resources. So I would encourage whoever is holding up 
that bill that they need to get it to the President's desk 
because this is an important thing for us to be able to do.
    I just have one final--I want to be respectful of 
everybody's time, but I do want to give this panel an 
opportunity to comment on the interior checkpoints and the 
defense-in-depth strategy from your perspectives, and the 
implications of that and what your opinions are of that 
strategy.
    I will start with Mr. Krentz.
    Mr. Krentz. Thank you. I live on one of the only highways 
north of the border that doesn't have a checkpoint. I have been 
told or heard that that is so that they can go through, get out 
of the populated areas and get on their way, and then they will 
catch them somewhere on the interior side.
    On the fixed checkpoints, I have also heard agents say that 
they know that they will unload before the checkpoints, walk 
around the checkpoints, and then get picked up afterwards. Like 
Del Cueto said earlier, the Darwinian people, they are the ones 
who are the only ones to get caught there at the checkpoint.
    Ms. McSally. Yes, that was my statement.
    [Laughter.]
    Mr. Krentz. So I have seen them as they--it is just kind-of 
like the wall. Is it the stopping point? No. But it is a 
deterrent to kind of slow them down and maybe catch them 
somewhere else. But that is about all.
    Ms. McSally. Ms. Walden.
    Ms. Stockholm Walden. We recommended in our citizens report 
roving checkpoints. We think that those are a lot more 
effective, by surprise. Change them up, switch them up. Again, 
Dick has shared with me the excellent infrared capabilities 
they had with airplanes when he flew the OV-1 Mohawk in 
Vietnam. I am sure it is light years ahead of that today. So we 
should be using things like that and not spending $200 million 
on Spy Net that could have been shot out, by the way, all those 
towers, by a BB gun, let alone a shotgun. It was the most 
ridiculous idea.
    So, we are all for accountability, and congratulations to 
you on furthering that in the bill.
    Finally, I just want to say, having come from the recent 
hearing on Federal lands, my understanding is that Border 
Patrol and other Federal agencies, other Federal law 
enforcement, as well as local law enforcement, have full access 
to Federal lands, whether they are in hot pursuit or not, if 
they have any suspicion of criminal activity. A lot of our 
friends who are ranchers in the group, like Warner and Wendy 
Glenn, the late Wendy Glenn, were concerned about more roads in 
wilderness areas, not just for the aesthetics but because they 
would be used by the traffickers.
    So I think I am going to leave that to the people who have 
ranches along the border. I think there are areas where it is 
appropriate. But like Dan said, the train is so complex. I 
mean, this is not an easy fix. So just be aware of that, that 
you have to get a lot of local input as to whether you are 
making the problem better or worse.
    Ms. McSally. Thank you.
    Mr. Chamberlain. The depth strategy for us in the produce 
industry is a little bit cumbersome. The checkpoint there as 
you come south to north, you can see where the trucks have 
really, really done a tremendous job on the highway there. You 
have the ruts in the road that are absolutely terrible. Someone 
has to be able to pay for that. I don't know if that is going 
to be a Federal issue or that is going to be a State issue. But 
regardless, someone should have thought of that before they did 
the checkpoint at that point.
    Also the land values, and I completely understand the 
businessmen that have suffered with the reduction of their 
business values and their land values, and their home values. 
That is difficult for us. You have to understand that for us, 
this is a tremendous freight corridor, an extremely important 
freight corridor for our country to move goods and services, 
whether it is the Madora business or the cattle business or the 
mining business or the produce industry. We are moving a 
tremendous amount of commerce through this highway here from 
Nogales to where we get to our major arteries in the Tucson and 
Phoenix areas.
    So I think it is extremely important to patrol these areas 
just as much as we do in the rural parts of the State but in an 
effective way. I don't see the checkpoints being that 
effective. They are cumbersome. We have businesses from all 
over the United States and chain stores and food service 
companies coming to pick up our product from all over the 
United States, and they don't get this in other States around 
the country. They don't have to go through these checkpoints in 
other States. In California you do, in Texas you do, in Arizona 
and in New Mexico you do. I don't see that happening on the 
Northern Border. You have occasional checkpoints on the 
Northern Border, but they are nowhere as cumbersome to business 
and to tourism in the way that they are here.
    Ms. McSally. Thank you.
    Pastor Adams.
    Mr. Adams. The policy from our church says border 
protection policies, we advocate the border protection policies 
that are consistent with humanitarian values and with the need 
to treat all individuals with respect while allowing the 
authorities to carry out the critical task of identifying and 
preventing entry of terrorists and dangerous criminals, as well 
as pursuing the legitimate task of implementing American 
immigration policy.
    For me, the checkpoints have been a very effective tool for 
me to realize that not everyone is treated with the same 
respect as I am going through checkpoints. I think racial 
profiling--growing up in South Carolina, it was easy for me to 
not think about that, believe it or not. But now, with a family 
who have folks who both have the same complexion I do, as well 
as folks who are darker-complexioned, when we go through that 
checkpoint outside of Tombstone, we make sure I am driving and 
not my wife, Miriam. We were going through that checkpoint one 
time with my sister-in-law, who was in the back, and we just 
got waved right through. My sister-in-law said, hey, that is 
white privilege.
    So checkpoints, there are lots of problems that you have 
heard about here, but one of the things about checkpoints is 
that it highlights that we have a long way to go in this 
country regarding race and treating everyone with respect.
    Ms. McSally. Thanks, Pastor Adams.
    Mr. Bell.
    Mr. Bell. Well, I would like to kind-of start out with your 
defense-in-depth issue. The problem is in areas like my ranch 
and some of the stuff in the borderlands area, there is no 
access to the border. It is something I have been talking about 
quite a bit today. So that is the only option that is out 
there, unless you get horse patrols going in or helicoptering 
people in. Those are basically the only options you have. That 
is why it is important to be able to get that access and get 
down there.
    The technology piece is important in that whereas before we 
had seismic sensors set out--we still do, but a sensor here 
would come on, and an agent would have no idea what that sensor 
hit was. Was it one of my cows? Was it a big mule deer? He has 
to maybe hump in 2 hours in his day to go figure out what that 
sensor hit was.
    Technology is going to help in some of these areas to 
identify what that sensor hit was. Focus in on those areas 
where the sensor hits are happening. See what you can pick up. 
If it is a legitimate reason for an agent to go in, to maybe go 
in and apprehend a smuggler or a group, then they are going to 
know that is what it is instead of wasting time on something 
that isn't. So I think that is going to free up resources. But 
again, that all comes with deploying down closer to the area.
    So the defense-in-depth strategy, I would like to see that 
go away, but in a lot of instances that is the only thing that 
is available because some of the roads are backed up 3, 4, 5, 
6, 7 miles away from the border. So that is what our focus 
needs to be.
    As far as the checkpoint, it is one of those deals where it 
is at that chokepoint. So they can get the traffic coming off 
the interstate, but they also have the mountain ranges on the 
flanks that is kind of choking things in. So they have a lot of 
technology on either side of that checkpoint, so they do make a 
lot of apprehensions in that area.
    So for now, I think it is a necessity, but let's focus on 
getting down to the border, to the line of scrimmage, as you 
say. I agree with you. Then see where we are with that 
checkpoint at a later date.
    Ms. McSally. Great. Thank you.
    Mr. Pearce, do you have any more?
    Mr. Pearce. Well, I just would like, again, to thank you 
very much.
    I would like to thank the audience. People always wonder 
where a republic democracy begins. It begins right here, 
really. I have heard several people today say that we need to 
have the solutions coming from here towards Washington. I agree 
with that totally.
    So again, Madam Chair, thanks for the invitation today, and 
thanks to our panelists. Both panels have just been outright 
stunning. So, thank you very much. I will carry these messages 
back to Washington.
    Ms. McSally. Absolutely. I want to say thanks for joining 
us here and I appreciate you taking your time and your interest 
in these issues as our adjoining Congressional district.
    I know there are other Members of the Committee that did 
want to be here. They do have your testimony. It is in the 
record. They may have some written questions for you, so we 
will keep the record open for 10 days and ask for you to 
respond in writing, if you don't mind, for that.
    I do want to thank the audience for everybody's patience 
and endurance to be able to listen to these important issues. 
It took almost 3 hours here, but these are complex issues. They 
are not going to be solved in a 15-second sound bite, so I 
appreciate you all coming to listen.
    I really appreciate both panels, all of you on the second 
panel, for providing your unique and important perspectives.
    I just want to say it is an honor to be in this position. 
We have never had anybody chair this subcommittee before from 
Arizona, to be in this position that we can highlight what 
these issues are so we can find common ground and solutions to 
these issues that are impacting our public safety, our economy, 
and really all aspects of the lives that have been reflected in 
our community here.
     I like to make decisions based on facts. It comes from 
basically serving in the military. Let's figure out what we 
know, what we don't know, and then figure out how to fix the 
problems that we are facing. I think we can all agree that our 
border is not as secure as it needs to be, that this is a 
public safety issue, that we need to make sure that as we are 
securing the border we are doing it at the ports of entry and 
between the ports of entry, and that we continue to have 
opportunities for commerce to grow because our economic 
opportunities as a border community are just as important as 
security, and we need to do both of those at the same time.
    So we have a lot of follow-ups to do from this, but I 
really appreciate these perspectives so we can make fact-based 
determinations about how to move forward in the role that 
Congress has, which is a very important oversight role to the 
Federal agencies responsible for keeping our country and 
communities safe.
    With that, let's make sure I have done all the admin here. 
I want to again thank the town of Sahuarita for allowing us to 
use this facility.
    Pursuant to Committee Rule 7(e), the hearing record will be 
held open for 10 days.
    Without objection, the subcommittee now stands adjourned.
    [Whereupon, at 12:56 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
